Office of Inspector General
Semiannual Report to Congress
October 1, 2009 – March 31, 2010
MISSION STATEMENT
The mission of the U.S. Postal Service Office of Inspector General (OIG) is
to conduct and supervise objective and independent audits, reviews, and
investigations relating to Postal Service programs and operations to:
   Prevent and detect fraud, theft, and misconduct.
   Promote economy, efficiency, and effectiveness.
   Promote program integrity.
   Keep the Governors, Congress, and Postal Service management informed of
    problems, deficiencies, and corresponding corrective actions.
A MESSAGE FROM THE INSPECTOR GENERAL
This report, submitted pursuant to the Inspector General      Service’s pension fund, it could be used to pay down the
Act, outlines our work and activities for the 6-month         Postal Service’s retiree health care liabilities, ending the
period ending March 31, 2010. In the first section            large payments required under the Postal Accountability
of this issue, we continue our review of the Postal           and Enhancement Act of 2006 (PAEA, or the Postal Act
Service’s progress towards its strategic goals: “focus        of 2006).
on what matters most to customers,” “leverage our
strengths,” and “embrace change.” These goals are             Both houses of Congress asked me to testify on
mapped out in the Postal Service’s 5-year strategic           the Postal Service’s current financial condition. In
plan for 2009 – 2013. The second section highlights           testimony, I noted that the Postal Service is moving
investigations conducted to prevent and detect fraud,         in the right direction, but its velocity is insufficient
waste, and misconduct and have a deterrent effect on          to avoid an economic catastrophe that will severely
postal crimes.                                                challenge its viability. Following are several key areas
                                                              noted in my testimony.
Postal Service executives often work closely with their
OIG counterparts to identify problems and collaborate          Each year, the Postal Service pays $7 billion more
on solutions. These efforts have resulted in significant        than is warranted for its benefit funds. Addressing
savings opportunities. During this period, we issued            this overcharge could allow needed time to plan and
188 audit reports and management advisories, and the            integrate large-scale cost reduction initiatives.
Postal Service accepted 88 percent (51 of 58) of the           The large network of post offices, plants, and
OIG’s significant recommendations.                              administrative apparatus is financially burdensome.
                                                                To its credit, the Postal Service has streamlined
In addition, we conducted 1,992 investigations that             some of its network, reducing more than 130,000
led to 393 arrests and more than $1.3 billion in                employee positions since 2003 and cutting $6 billion
fines, restitutions, and recoveries, of which nearly            in costs for 2009 alone. The Postal Service must
$21.5 million went to the Postal Service. One                   accelerate its infrastructure optimization plan, while
pharmaceutical case contributed more than $1.2 billion          balancing its commitment to service.
to the total fines, restitutions, and recoveries amount.
                                                               The Postal Service’s complex workforce rules do not
This report gives an abbreviated account on page 3              always match mission requirements. The ebb and
of a study we sponsored that found the Civil Service            flow of mail in the processing plants suggests the
Retirement Pension fund overcharged the Postal Service          need for more flexible staff willing to perform a wider
by $75 billion. As background, when the Post Office             range of duties.
Department became the U.S. Postal Service in 1971,             We, along with the Postal Service, have recognized
employees that belonged to the federal pension fund             the need for a simplified, modernized pricing
started contributing to the Postal Service. For employees       structure. A simple pricing structure could be easier
who worked for both the Post Office Department and the          to use and allow more accurate charges to customers.
Postal Service, the federal and the postal pension funds
shared responsibility. However, the federal fund paid for     As the Postal Service strives to remain viable, the
retirements based on 1971 salaries, not final salaries. In    OIG — with the support of the Governors, Congress,
essence, the federal fund collected full contributions, but   and Postal Service management — will continue to play
paid only partial benefits.                                   a key role in maintaining the integrity and accountability
                                                              of America’s postal service, its revenue and assets, and
The Office of Personnel Management (OPM) developed            its employees.
the allocation method and has explained that these
mischarges were done to respond to what it saw as the
will of Congress expressed in a piece of 1974 legislation.
However, the 1974 language was repealed by reform
legislation in 2003, when large overpayments were                                      David C. Williams
discovered. If the $75 billion is restored to the Postal                               Inspector General
SUMMARY OF PERFORMANCE
October 1, 2009 – March 31, 2010
AUDITS
Reports issued                                                                                                         188
Significant recommendations issued                                                                                       58
Total reports with financial impact                                                                                      67
     Funds put to better use                                                                                 $393,937,272
     Questioned costs1                                                                                       $124,721,438
     Revenue Impact                                                                                              $583,939
                                   2
TOTAL FINANCIAL IMPACT                                                                                     $519,242,649


INVESTIGATIONS3
Investigations completed                                                                                             1,992
Arrests                                                                                                                393
Indictments/informations                                                                                               350
Convictions/pretrial diversions4                                                                                       428
Administrative actions                                                                                                1,042
Cost avoidance                                                                                               $101,132,992
Fines, restitutions, and recoveries5                                                                       $1,302,632,341
     Amount to Postal Service6                                                                                $21,496,041


OIG HOTLINE CONTACTS
Telephone calls                                                                                                   46,540
E-mail                                                                                                             14,440
Virtual Front Office calls                                                                                          9,210
Standard Mail                                                                                                       1,212
Voice mail messages                                                                                                   493
Facsimile – FAX                                                                                                       358
National Law Enforcement Communications Center                                                                        286
TOTAL CONTACTS                                                                                                    72,539



1
    Includes unsupported costs of $14,683,806.
2
    The Postal Service agreed to recommendations or proposed alternative corrective actions that, if implemented, could result in more than
      $519 million in savings.
3
    Statistics include joint investigations with other law enforcement agencies.
4
    Convictions reported in this time frame may be related to arrests made in prior reporting periods.
5
    Amount under Fines, Restitution, and Recoveries includes $1,295,200,100 from one pharmaceutical investigation.
6
    Amount to Postal Service includes $15,075,934 from one pharmaceutical investigation.
TABLE OF CONTENTS
ASSESSING PROGRESS TOWARD STRATEGIC GOALS .......................... 2
Goal 1: Focusing on What Matters Most to Customers .................................................................................................... 3
Goal 2: Leveraging the Postal Service’s Strengths .......................................................................................................... 5
Goal 3: Embracing Change ......................................................................................................................................... 11
Regulatory Studies and Reporting Obligations .............................................................................................................. 11
Preserving Accountability ............................................................................................................................................ 12

INVESTIGATIONS ................................................................................. 16
Financial Crimes ........................................................................................................................................................ 17
Workers’ Compensation Fraud .................................................................................................................................... 18
Delay, Destruction, and Theft of Mail by Employees ...................................................................................................... 20
Identity Theft.............................................................................................................................................................. 21
Contract Fraud ........................................................................................................................................................... 21
Official Misconduct .................................................................................................................................................... 22
Executive Investigations and Internal Affairs ................................................................................................................. 23

SPECIAL FEATURES............................................................................... 3
OIG Study: CSRS Pension Overcharged by $75 Billion .................................................................................................... 3
OIG Research and White Papers.................................................................................................................................... 4
The Impact of Postal Service’s New Pricing Initiatives ................................................................................................... 12
Postal Service’s Financial Condition............................................................................................................................. 14
Data Mining Group ..................................................................................................................................................... 15
External Peer Review of the Office of Audit................................................................................................................... 15
Joint Year-long Workers’ Compensation Fraud Initiative ................................................................................................ 19

APPENDICES ....................................................................................... 24
APPENDIX A — Reports Issued to Postal Service Management ..................................................................................... 25
             Reports with Quantifiable Potential Monetary Benefits .......................................................................... 25
             Report Listing .................................................................................................................................... 29
APPENDIX B — Findings of Questioned Costs ............................................................................................................. 33
APPENDIX C — Recommendations That Funds Be Put to Better Use ............................................................................. 34
APPENDIX D — Reported Non-monetary Benefits ........................................................................................................ 35
APPENDIX E — Reports with Significant Recommendations Pending Corrective Actions ................................................. 36
APPENDIX F — Significant Management Decisions in Audit Resolution ......................................................................... 47
APPENDIX G — Investigative Statistics ........................................................................................................................ 48
APPENDIX H — Summary of U.S. Postal Inspection Service Investigative Activities Under Title 39 USC 3005 & 3007....... 49
APPENDIX I — Closed Congressional and Board of Governors Inquiries........................................................................ 50

SUPPLEMENTAL INFORMATION........................................................... 57
Freedom of Information Act......................................................................................................................................... 57
Workplace Environment .............................................................................................................................................. 57
Acronym Guide .......................................................................................................................................................... 58
ASSESSING PROGRESS TOWARD STRATEGIC GOALS
                                                                                                GOAL 1: FOCUSING ON WHAT MATTERS MOST TO CUSTOMERS




ASSESSING PROGRESS TOWARD STRATEGIC GOALS                                                                                         MANAGEMENT
In this section, the Office of Audit (OA) assesses the Postal Service’s progress toward                                           RESPONSE TO
its strategic goals articulated in its Vision 2013: Five-Year Strategic Plan for 2009-2013,                                       AUDIT WORK
published in October 2008. These goals are to focus on what matters most to customers,                                            OA adheres to professional
leverage Postal Service strengths, and embrace change. OA also discusses the issues                                               audit standards and
of regulatory studies and reporting obligations, and preserving accountability. In addition,                                      presents its audit work to
Risk Analysis Research Center (RARC) research and white papers are presented.                                                     management for comments
                                                                                                                                  prior to issuing a final report.
                                                                                                                                  Unless otherwise noted, in
GOAL 1: FOCUSING ON                                              while simultaneously working to cut costs. The following         the audit work discussed in
WHAT MATTERS MOST TO                                             examples represent work we conducted to help the Postal          this report, management has
                                                                 Service improve operational efficiencies related to customer     agreed or partially agreed
CUSTOMERS                                                        service and to decrease the risk of revenue loss.                with our recommendations
The Postal Service’s priority is to provide timely, reliable                                                                      and is taking or has already
delivery and improved customer service across all access         Processing Standard Mail and Pension                             taken corrective action to
points. Specifically, it is focusing on the quality and          Checks at the Albany P&DC                                        address the issues.
consistency of service as well as the speed and reliability
of end-to-end mail delivery for all product lines. The Postal    The Postal Service uses a system of color-coding to
Service faces the challenge of improving service                 facilitate timely movement of Standard Mail. The mail is
                                                                 color-coded to easily identify the intended day of delivery.

 OIG STUDY: CSRS PENSION FUND OVERCHARGED BY $75 BILLION
 When the Post Office Department transformed into the U.S. Postal Service in 1971, the Postal Service and federal
 government agreed to share the cost of Civil Service Retirement System (CSRS) pension benefits for employees who
 worked for both entities. However, the federal government paid benefits as if the employees retired in 1971 at their 1971
 salaries, not their final salaries at retirement. The Postal Service picks up the remaining costs, which includes inflationary
 salary increases and cost-of-living allowances since 1971. In essence, the federal fund collects full contributions but
 pays only partial benefits.

 The OIG’s white paper, “The Postal Service’s Share of CSRS Pension Responsibility,” undertaken in conjunction with the
 actuarial consulting firm, the Hay Group, argues that this method of sharing the costs is inequitable. The costs of pension
 benefits should be based on employee years of service. For example, if an employee worked half of his or her career
 with the Postal Service and half with the Post Office Department, the Postal Service should pick up half of the cost of the
 pension payouts, and the federal government should pick up the other half. Currently, the study shows the Postal Service
 could be responsible for 70 percent of the pension of an employee who worked only 50 percent of his or her career with
 the Postal Service. The white paper estimates that if the federal government’s pension fund was charged the appropriate
 share of payments to retirees, there would be $75 billion more in the Postal Service’s pension fund.

 This is not the first time the Postal Service has been overcharged for its pension payments. In 2002, it was determined
 the Postal Service would overfund CSRS by $78 billion. Legislation in 2003 corrected this overfunding. Then it was
 determined the Postal Service was overcharged $27 billion for CSRS military service credits. In 2006, these funds were
 returned to the Postal Service by Congress, and the surplus was used to fund retiree health care liabilities.

 The white paper has garnered significant attention from postal stakeholders and the news media. If the $75 billion
 is restored to the Postal Service’s pension fund, it could be used to pay down the Postal Service’s retiree health care
 liabilities, ending the large payments required under the Postal Accountability and Enhancement Act of 2006 (PAEA,
 or the Postal Act of 2006). Fixing the overcharge will also allow the Postal Service to address its real challenges and
 implement its plan at a safer pace.

 This is the third study sponsored by the OIG that delves into the financial entanglements between the Postal Service and
 the federal government — generally at the expense of the Postal Service. The other two reports focused on the Postal
 Service’s congressionally mandated retiree health care prefunding payments “Estimates of Postal Service Liability for
 Retiree Health Care Benefits,” and the Postal Service’s interaction with the federal budget, “Federal Budget Treatment of
 the Postal Service.”




                                                                                                                                  October 1, 2009 – March 31, 2010 | 3
GOAL 1: FOCUSING ON WHAT MATTERS MOST TO CUSTOMERS




                                          Auditors assessed the internal controls at the Albany                oversight, continue color-code training, and direct the
                                          Processing and Distribution Center (P&DC) and determined             color-code coordinator to conduct periodic reviews of the
                                          that opportunities exist to improve color-coding, as well            process. Furthermore, based on a review of mail condition
                                          as the counting and reporting of delayed mail. Further,              reporting documents during November and December
                                          auditors determined that mail was not properly color-                2009 (and subsequent investigative work), auditors found
                                          coded to ensure the oldest mail was processed first,                 that some of the reports were inaccurate.
                                          delayed mail was not always properly reported, and the
                                          oldest mail on hand was not always accurately reported.              In addition, we completed a review on significant delays
                                          We recommended that management provide sufficient                    for the delivery of pension checks in New York, which
                                                                                                               entered the mailstream at the Albany P&DC. Auditors found
                                                                                                               pension checks were delayed due to poor internal controls,
                                            OIG RESEARCH & WHITE PAPERS                                        subsequently the checks were processed and delivered late
                                            In addition to extensive audits and reviews, on occasion           to customers. The Postal Service took immediate actions
                                            OA and the OIG’s Risk Analysis Research Center (RARC)              to rectify the problem, including expediting replacement
                                            sponsor academics and subject matter experts to                    checks and letters to creditors.
                                            conduct research and analysis on Postal Service issues
                                            and topics. The results of the analyses are published              Plant-Verified Drop Shipment Controls
                                            in research and white papers. What is the difference               Plant-verified drop shipment (PVDS) allows mailers to have
                                            between the two types of papers?                                   their Standard Mail, Periodicals, and Package Services mail
                                                                                                               verified and postage added at one postal facility and then
                                            Research Papers analyze a perspective and present                  allows the mailer to drop ship verified mail directly to the
                                            the author’s interpretation or evaluation. The author of           Post Office destination facility to obtain postage discounts.
                                            a research paper surveys a field of knowledge to find              In fiscal years (FY) 2008 and 2009, revenue from
                                            the best possible information in that field. The result is a       destination-entered Standard Mail was $15.3 billion and
                                            paper with academic writing that summarizes analyses               $13 billion, respectively. We conducted on-site observations
                                            and findings to inform the reader.                                 and interviews at selected facilities and reviewed PVDS
                                            White Papers are authoritative reports often used to               documentation and determined that controls were not
                                            address issues and present solutions. White papers                 adequate to ensure that the Postal Service received all
                                            serve to educate readers and to help with decisions                revenue due from PVDS. Management initially disagreed
                                            about a particular topic or subject. A White paper is              with our recommendations, but stated that they plan to
                                            also used to explain complex technical topics. In some             require drop shippers to barcode their mail. Under this plan,
                                            instances, these papers provide unbiased information               there would be electronic documentation at origin facilities,
                                            and analysis regarding a business issue or problem.                which could be accessed and verified. The change will be
                                                                                                               enacted in Intelligent Mail Release 6 (June 2011).
                                            Both research and white papers can be found on the
                                            OIG’s Internet site: www.uspsoig.gov.



 Capital Metro Area Pieces at Risk Report


 3%                                                      3.3%                                     3.2%                                      3.2%
               3.1%                                                                                                    3.1%
                                     2.8%                                    2.7%                                                                                2.8%
 2%
                                                                                                                                                             Target @ 2%

 1%


   0
           Capital Metro            Baltimore           Capital        Greater S. Carolina     Greensboro          Mid-Carolinas      Northern Virginia        Richmond
In March 2007, the Postal Service established “At-Risk and Out-of-Sequence Goals.” Achieving these goals is critical for Postal Service performance and cost management success.
As shown in Chart 1, each district in the Capital Metro Area exceeded the DBCS pieces at risk target of 2 percent of total pieces handled.




4 | Semiannual Report to Congress
                                                                                                   GOAL 2: LEVERAGING THE POSTAL SERVICE’S STRENGTHS




Reducing Pieces at Risk                                          Workforce inflexibilities.
We assessed opportunities, in the Capital Metro Area, to         Facility data consistency and reliability.
reduce Delivery Bar Code Sorter (DBCS) mailpieces at risk        Lack of a comprehensive network plan.
of not reaching their destination in the allocated time. The
primary component of mailpieces at risk is rejected mail        Our review of Postal Service progress in streamlining
that results in manual rehandling. The Postal Service’s         the network between FYs 2005-2009 disclosed that the
annual pieces at risk target for DBCS mail is 2 percent         Postal Service made progress reducing its mail processing
of total pieces handled. For the 2-year period ending           and transportation infrastructure. Management closed 68
September 30, 2009, Capital Metro pieces at risk averaged       airport mail centers and 12 remote encoding centers, and
3.1 percent, which was 55 percent higher than the target.       continues to realign bulk mail center operations. We also
Capital Metro processing plants did not achieve the pieces at   reported that the Postal Service has made limited progress
risk target because electronic technicians and maintenance      in implementing area mail processing (AMP) consolidations
supervisors were unaware of the management maintenance          in the P&DC network — 268 P&DC nationwide. The Postal
order used to diagnose and reduce DBCS pieces at                Service initiated 98 AMP studies since FY 2005; however, it
risk. In addition, not all DBCS staff was properly trained,     only implemented 26 consolidations (12 were implemented
and maintenance supervisors did not ensure preventive           after our review) of which two resulted in a facility closure.
maintenance routines were completed properly to bring at        See the list on the next page.
risk pieces within operational quality standards.
                                                                Management uses both a bottom-up and top-down
As a result, the Capital Metro Area incurred excess             approach for identifying AMP consolidation candidates.
mailpiece rejects that required manual processing, costing      However, most of the AMP proposals are generated using
about $1 million for the 2-year period ending September         the bottom-up approach and result in partial consolidations
30, 2009. The Capital Metro Area can avoid incurring an         of originating mail rather than a facility closure. Developing
additional $1.1 million over the next 2 years by addressing     objective criteria and implementing an annual top-down
these issues.                                                   methodology would provide a more consistent and
                                                                defensible approach to AMP consolidations, which may
GOAL 2: LEVERAGING THE                                          reduce stakeholder resistance and accelerate the AMP
POSTAL SERVICE’S STRENGTHS                                      consolidation process. To remain financially viable, the
                                                                Postal Service must continue to effectively streamline the
The Postal Service’s second strategic goal concentrates         mail processing and transportation network and optimize
on building the reach and capability of its network by          the workforce.
using information technology to enhance products and
performance, and by empowering employees to build               A map of AMP reviews and a summary table outlining
the business.                                                   audits conducted (noting the main issues identified) and
                                                                consolidations implemented since 2005 follow on next page.
Our work in this area assisted the Postal Service in
identifying opportunities to improve transportation             Area Mail Processing Consolidations
efficiency, optimize the mail processing network, control
                                                                The Postal Service manages one of the world’s largest and
facility and operational costs, and maximize the cost-
                                                                most complex distribution and transportation networks.
effectiveness of contracts.
                                                                Plant consolidations are one of three core elements of
                                                                network streamlining. The following reports were issued
Network Rationalization Initiatives                             during the reporting period due to congressional requests.
The Postal Act of 2006 encouraged the Postal Service
to streamline its networks. The Postal Service has been         Lakeland and Manasota P&DCs. We concluded that there
challenged to plan, develop, and implement rationalization      was a valid business case that Area Mail Processing (AMP)
initiatives. The most immediate challenge is to dramatically    consolidations increase efficiency, reduce processing costs,
reduce costs and eliminate inefficiencies fast enough to        and improve service in support of the Postal Service’s
enable the Postal Service to meet its financial obligations,    network streamlining efforts. Auditors assessed compliance
while complying with its universal service obligation.          with established policies and the operational impact of
Additional challenges include:                                  consolidating the Lakeland and Manasota P&DC mail
                                                                processing operations into the Tampa P&DC. The AMP
 Opposition to infrastructure changes.                         proposals were generally supported and in compliance
 Resistance to First-Class Mail service downgrades.            with established policies. However, implementation of the
                                                                Manasota P&DC consolidation was delayed 6 months due
 Facilities with long-term leases.




                                                                                                                                 October 1, 2009 – March 31, 2010 | 5
GOAL 2: LEVERAGING THE POSTAL SERVICE’S STRENGTHS




                                        AMPs Implemented — October 1, 2005, to March 30, 2010*
                                    #                                             Losing Facility                State                                       Gaining Facility    State

                                    1                                                Marina P&DC                    CA                     Los Angeles and Long Beach P&DCs        CA
                                    2                                             Bridgeport P&DF                   CT                                         Stamford P&DC       CT
                                    3                                                Canton P&DC                    OH                                            Akron P&DC       OH
                                    4                                               Greenburg PO                    PA                                        Pittsburgh P&DC      PA
                                    5                                           Kansas City P&DC                    KS                                      Kansas City P&DC      MO
                                    6                                             Marysville P&DF                   CA                                      Sacramento P&DC        CA
                                    7                                                   Mojave PO                   CA                                       Bakersfield P&DC      CA
                                    8                                            Monmouth P&DC                      NJ                              Trenton and Kilmer P&DCs       NJ
                                    9                                               Newark P&DC                     NJ                       DBVD and Northern Metro P&DCs         NJ
                                    10                                    Northwest Boston P&DC                    MA                                            Boston P&DC       MA
                                    11                                              Olympia P&DF                   WA                                           Tacoma P&DC        WA
                                    12                                            Pasadena P&DC                     CA                        Santa Clarita and Industry P&DCs     CA
                                    13                                        St. Petersburg P&DC                   FL                                           Tampa P&DC        FL
                                    14                                            Waterbury P&DF                    CT                             Southern Connecticut P&DC       CT
                                    15                                             Lakeland P&DC                    FL                                           Tampa P&DC        FL
                                    16                                          Long Beach P&DC                     CA                                        Santa Ana P&DC       CA
                                    17                                         Staten Island P&DF                   NY                                         Brooklyn P&DC       NY
                                    18                                          Portsmouth P&DC                     NH                                      Manchester P&DC        NH
                                    19                                                 Flint P&DC                   MI                                     MI Metroplex P&DC       MI
                                    20                                          Binghamton P&DF                     NY                                         Syracuse P&DC       NY
                                    21                                            Cape Cod P&DF                    MA                                          Brockton P&DC       MA
                                    22                                              Watertown PO                    NY                                         Syracuse P&DC       NY
                                    23                                              Queens P&DC                     NY                                         Brooklyn P&DC       NY
                                    24                                      Western Nassau P&DC                     NY                                       Mid-Island P&DC       NY
                                    25                                              Winchester PO                   VA                                            Dulles P&DC      VA
                                    26                                               Oxnard P&DF                    CA                                     Santa Clarita P&DC      CA
                                    *Marina P&DC AMP was completed in July 2005. It was included on the above list to show the two P&DC closures completed by Postal Service.
                                    *The Kansas City, KS, P&DC was the second closure.

                                    to the consolidation of other P&DC originating operations                        it minimally impacted employees, improved service, and
                                    into the Tampa P&DC. Therefore, the Manasota P&DC AMP                            reduced costs through increased efficiency. Additionally,
                                    proposal did not capture volume and workhour data from                           the Postal Service addressed community concerns and the
                                    the Lakeland P&DC consolidation into the Tampa P&DC.                             AMP consolidation estimates appeared reasonable.
                                    The volatility of mail volume can impact projections when
                                    implementation is not immediate, increasing the risk of                          Use of the Carrier Optimal Routing System
                                    including outdated data in the proposal.
                                                                                                                     Implemented in October 2005, the Postal Service’s Carrier
                                    Dallas P&DC. The consolidation of the Dallas P&DC                                Optimal Routing (COR) system helps establish safer, more
                                    outgoing mail operations to the North Texas P&DC was a                           efficient routes; and reduce workhours and delivery costs.
                                    prudent business decision. Our analysis showed adequate                          OA found that while the COR system was used to perform
                                    capacity exists at the North Texas P&DC to process                               more than 15,000 route adjustments nationally; the Postal
                                    increased mail volume. We also found that the consolidation                      Service had not completed an additional 39,237 routes
                                    would improve customer service, minimally impact                                 to optimize lines of travel and reduce delivery costs.
                                    employees, and improve overall efficiency. As a result of                        The districts were unable to fully utilize the COR system
                                    this consolidation, the Postal Service could save more than                      because it was not user-friendly, the data preparation
                                    $11.9 million annually.                                                          process was labor intensive and time consuming, and
                                                                                                                     district personnel were not always selected and trained
                                    New Castle P&DF. We examined the proposed                                        to operate the COR system. Auditors reported more than
                                    consolidation of outgoing mail processing operations from                        $221 million in significant funds that could be put to better
                                    the New Castle Processing and Distribution Facility (P&DF)                       use if changes were made in these areas.
                                    into the Pittsburgh P&DC. Our audit revealed that the
                                    consolidation was a prudent business decision because




6 | Semiannual Report to Congress
                                                                                                                              GOAL 2: LEVERAGING THE POSTAL SERVICE’S STRENGTHS




 A Map of AMP Reviews




                                                                                                                                                     Canton, OH (2 reports)
                                                                                                                                                                                           Bridgeport, CT

                                                                                                                                      Detroit, MI                                      Bronx, NY
                                                                                                Sioux City, IA                                                     New Castle, PA
               Marysville, CA                                                                                                                                                 6 Headquarters Reviews

                                                                                                 Kansas City, KS
               Marina, CA
                                                                                                                                Mansfield, OH
            Mojave, CA (2 reports)                                                                                                              Steubenville, OH
                     Pasadena, CA



                                                                                                     Dallas, TX



                            AMP Proposal Reviews (12)
                            Post Consolidation Reviews (4)                                                                                                             Lakeland, FL
                            HQ Level AMP related Reviews (6)                                                                                                           Manasota, FL
                            Post-Implementation Reviews (2)




 Area Mail Processing Issues
                                                                                                        Savings    Data Accuracy and                 Oversight and/or  Stakeholder                 AMP Guidance
Report Number       Report Issue Date                                       Project Description        Accuracy         Support      Service Impacts    approval      Communication                 and Process
NO-AR-05-004                    12/08/04                                      Mansfield, OH AMP             √                               √
NO-AR-05-013                    09/22/05                                        Canton, OH AMP              √                               √
NO-AR-06-001                    12/21/05                        AMP Guidelines — Headquarters                                                                      √                                        √
EN-AR-06-001                    09/26/06                                      Pasadena, CA AMP              √             √                 √                      √                  √                     √
NO-AR-06-010                    09/30/06                                     Bridgeport, CT AMP             √             √
EN-AR-07-001                    11/09/06                                       Sioux City, IA AMP           √             √                 √                                         √                     √
EN-AR-07-002                    12/05/06            Service Implications of AMP — Headquarters                            √                 √                      √                  √                     √
NO-AR-07-003                    03/30/07                                     Steubenville, OH PIR                         √                                        √
EN-MA-07-001                    06/26/07                 AMP Initiation Process — Headquarters                                                                                                              √
EN-AR-07-003                    07/18/07                                 Bronx-Morgan, NY AMP               √                               √
EN-AR-07-004                    08/14/07                                          Marina, CA PIR            √             √                                                                                 √
EN-MA-08-001                    09/25/07           Automated AMP Worksheets — Headquarters                                                                                                                  √
EN-AR-08-001                    01/14/08                                    Kansas City, KS AMP             √             √                 √                                                               √
EN-AR-08-003                    04/16/08                             Marysville, CA Consolidation                         √                 √                      √
EN-AR-08-005                    07/17/08                                         Detroit, MI AMP            √                               √                                         √
EN-AR-08-006                    09/17/08                                Mojave, CA Consolidation                                            √                      √
EN-AR-09-001                    02/04/09                   AMP Communication — Headquarters                                                                                           √                     √
NO-AR-09-011                    09/22/09                            Canton Consolidation Review
EN-AR-10-001                    01/07/10   Status on the Rationalization Initiative — Headquarters                                                                 √                                        √
EN-MA-10-002                    01/21/10                        Mojave Mail Processing Changes                                                                                                              √
NO-AR-10-002                    02/01/10                                     New Castle, PA AMP
EN-AR-10-003                    02/12/10                                      Manasota, FL AMP                            √                                                                                 √
EN-AR-10-004                    02/12/10                                       Lakeland, FL AMP
NO-AR-10-003                    02/24/10                                          Dallas, TX AMP            √                               √                                         √
This chart depicts systemic issues/problems that were identified during consolidation reviews. (The individual checks represent an area needing improvement.)


                                                                                                                                                                              October 1, 2009 – March 31, 2010 | 7
GOAL 2: LEVERAGING THE POSTAL SERVICE’S STRENGTHS




                                         Surface Transportation                                            and transport the mail. Mail transport equipment (MTE)
                                                                                                           consists of various types of containers used to hold mail
                                         Network transportation has two surface transportation
                                                                                                           during processing and transportation within or between
                                         components: Postal Vehicle Services (PVS), which uses
                                                                                                           Postal Service facilities, its contractors, its mailers,
                                         Postal Service employees, vehicles and facilities, and
                                                                                                           and other external customers. Following are two audits
                                         highway contract routes (HCR), which are contracted
                                                                                                           conducted in this area.
                                         transportation. In FY 2009, the Postal Service spent
                                         about $1.2 billion on PVS operations covering more                Mail Processing Equipment. We assessed the
                                         than 130 million miles, and more than $3 billion on HCR           management and disposition of excess mail processing
                                         transportation covering more than 1.6 billion miles. The          equipment (MPE) in the Portland, OR, District and
                                         following audits were conducted in Chicago.                       concluded that the Postal Service could improve its
                                                                                                           processes and internal controls in this area. Auditors found
                                         PVS Transportation. Auditors assessed whether select
                                                                                                           that Portland District management did not properly and
                                         PVS vehicle operations at the Cardiss Collins P&DC
                                                                                                           promptly dispose of excess Carrier Sequence Bar Code
                                         were effective and economical. The audit determined
                                                                                                           Sorter (CSBCS) machines, and did not adequately maintain
                                         that the Postal Service could more effectively manage
                                                                                                           MPE inventory. As a result, there is an increased risk of loss
                                         PVS transportation processes and schedules, thereby
                                                                                                           and misstated value of MPE in financial records. In addition,
                                                                      reducing driver workhours
                                                                                                           the Postal Service may have missed an opportunity to
                                                                      and associated fuel use and
                                                                                                           recover partial lease costs for a facility used to store excess
                                                                     ddamage claims and saving
                                                                                                           MPE. We recommended management ensure that MPE
                                                                     ssignificant funds.
                                                                                                           is accurately documented in databases and personnel
                                                                       HHCR Transportation —               responsible for the management and accountability of
                                                                       GGreater Chicago Mail               MPE receive training and adhere to established policies
                                                                       PProcessing Facilities.             and procedures. We also recommended management
                                                                       WWe assessed whether HCR            reconsider subleasing the Albany, OR, Detached Carrier Unit
                                                                       ccontracts were effective and       facility to offset lease costs.
                                                                       eeconomical. Auditors concluded
                                                                                                           Mail Transport Equipment. We assessed the effectiveness
                                                                       th
                                                                        that the greater Chicago mail
                                                                                                           of the Postal Service’s management and control of
                                                                       pprocessing facilities could
                                                                                                           MTE, including distribution, flow, security, and inventory
                                                                       im
                                                                        improve the effectiveness of
                                                                                                           management focusing on the Pacific and Eastern Areas.
                                                                       sscheduled HCRs by canceling
                                                                                                           The audit determined that the Pacific and Eastern Areas
                                                                       oor modifying 68 trips, thereby
                                                                                                           did not always ensure compliance with inventory and
                                                                       re
                                                                        reducing contract and fuel costs
Auditors determined that the Postal Service could more effectively                                         accountability processes nor ensure assets were always
                                                                        over the term of existing HCR
manage Postal Vehicle Services (PVS) transportation processes and                                          safeguarded. Auditors concluded that weak controls in the
                                                                        contracts. The Postal Service
schedules, thereby reducing driver workhours and associated fuel use                                       Pacific and Eastern Areas resulted in the loss or misuse
                                                                        could eliminate these trips
and damage claims and saving significant funds.                                                            of MTE assets. In addition, the situation could present
                                                                        without negatively affecting
                                                                                                           a danger to public safety and security if assets are not
                                                                        on-time service because trip
                                                                                                           properly safeguarded, and reflect poorly on the Postal
                                                                        mail volume was low and mail
                                                                                                           Service brand and public image.
                                                                       ccould be consolidated on other
                                                                       tr
                                                                        trips. Management agreed with
                                                                       th
                                                                        the recommendations, but did       Powered Industrial Vehicle
                                                                       nnot agree with our estimated       Management System
                                                                       ssavings because they are           Powered vehicles are used in postal plants to move mail
                                                                       re
                                                                        reviewing all operations in the    from incoming trucks, to equipment to be sorted, and
                                                                       CChicago metropolitan area,         back to the trucks for delivery. The Powered Industrial
                                                                       aand all actual savings will be     Vehicle Management System (PIVMS) monitors this
                                                                       bbased on negotiations with         motorized equipment in the plants and assists in managing
                                                                       ccontractors.                       equipment operator workhours, identifying opportunities
                                                                                                           to reduce vehicle inventory, and ensuring internal controls
                                                                       Mail Processing and
                                                                       M                                   over safety and security. We assessed whether PIVMS was
During our audit of mail transport equipment in the Eastern Area,      Transport Equipment                 performing economically and efficiently at the Tampa and
we observed unauthorized possession of approximately 250 Postal                                            Indianapolis P&DCs.
Service pallets in Philadelphia, PA, on November 3, 2009.              The Postal Service uses many
                                                                       types of equipment to process




8 | Semiannual Report to Congress
                                                                                                   GOAL 2: LEVERAGING THE POSTAL SERVICE’S STRENGTHS




Tampa P&DC. We determined that the use of PIVMS at              BMC History
the Tampa P&DC contributed significantly to its success
in realizing efficiency improvements. Our audit also
revealed that the Tampa P&DC reduced vehicle equipment
and transferred excess equipment effectively from the                      BMC                       RDC                      TDSN                        NDC
Tampa P&DC to elsewhere in the Southeast Area. In
addition, management implemented more controls than
those offered by the PIVMS, such as requiring powered           1970s                    FY 2006                   FY 2007                   FY 2009
equipment operators to use a conventional metal key to          Standard Periodical  Perform bulk                  Outsource origin          Consolidation of
start the vehicles, in addition to their PIVMS badges. Since     & Package Mail             mail processing            and destination             outgoing processing
the Tampa P&DC used the PIVMS as intended, we did not            distribution &             operations act as          distribution of             and transportation
make any recommendations.                                        transportation             STC and mailer             bulk mail                21 facilities
                                                                21 facilities              entry ports              Contractor facilities
Indianapolis P&DC. We found management used the
PIVMS to identify employees involved in vehicle accidents                                 70 facilities
and evaluate equipment operator staffing levels. However,
                                                               plan generally went well, and
PIVMS was not used to manage equipment operator
                                                               the impact on operations was
productivity, schedule preventive maintenance, monitor
                                                               mostly positive. However, OA
vehicle battery usage, or identify opportunities to reduce
                                                               found that management could
vehicle inventory. Better use of PIVMS could result in
                                                               enhance the planning process
significant savings to the Postal Service.
                                                               by completing customer supplier
                                                               agreements and the employee
Network Distribution Center                                    excessing process earlier in the
In the 1970s, the Postal Service developed a network of        activation. Management could
21 bulk mail centers (BMCs) to support mail distribution       also include specific milestones
and transportation for Parcel Post, Standard Mail, and         in the Readiness Assessment
Periodicals. With mailers entering more mail near final        Checklist.
destination, declining mail volume, and a changing
mail mix, much of the mail previously processed at             Inbound International
the BMCs has diminished. In 2006, the Postal Service           Mail
began evaluating various network design alternatives
                                                               Foreign Postal Administrations       Early in 2009, the Postal Service began developing an internal
to streamline the BMC network. Due to economic and
                                                               (FPA) pay the Postal Service         re-engineering effort focused on transforming bulk mail centers into
regulatory changes, the 2006 regional distribution centers
                                                               to sort and dispatch inbound         network distribution centers. Depicted here is the interior of a bulk
concept and the 2007 Time-Definite Surface Network
(TDSN) concept were halted. Early in 2009, the Postal          international mail at one of five mail center.
Service began developing an internal re-engineering effort     International Service Centers
focused on transforming BMCs into network distribution         (ISC) located in New York, Miami, Chicago, Los Angeles,
centers (NDCs). NDCs would consolidate the processing          and San Francisco. Inbound international mail is foreign-
and dispatching of mail to achieve economies of scale and      originating mail destined for delivery in the U.S.
greater operational efficiency, as well as reduce workhours
                                                               Auditors analyzed data at the Los Angeles ISC and found
and transportation cost.
                                                               that volume data used to bill FPAs for inbound international
In May 2009, the Postal Service began Phase 1 activation       letter post, Parcel Post, and Express Mail service was
of the NDC concept. The core principle is to fill containers   not always accurate and properly supported. Specifically,
and trucks early in the network and to dispatch them as        proper source documentation was not always available
deep into the network as possible. NDC Phase 1 activation      and weights and piece counts were not always correct.
took place in the Northeast, New York Metro, and Eastern       Management initiated software change requests (SCRs)
Areas. Three BMCs (Philadelphia, Springfield [MA], and New     in August 2008 to correct these issues, but after 1 year
Jersey) and 42 P&DC and P&DFs that transport mail to           these SCRs were still outstanding. As a result, the Postal
these three NDCs were impacted in the Phase 1 activation.      Service underbilled foreign countries by nearly $163,000
                                                               for international mail service for 4 months between
Our audit of the NDC Phase 1 activation determined that the    October 1, 2008, to January 31, 2009. We recommended
planning process appeared adequate, the execution of the       management expedite approved SCRs to enable the




                                                                                                                                         October 1, 2009 – March 31, 2010 | 9
GOAL 2: LEVERAGING THE POSTAL SERVICE’S STRENGTHS




                                          International Reconciliation System to reconcile data and              the carrier sequence barcode sorters (CSBCS) machines in
                                          provide valid dispatch-level data for billing.                         the associate offices. Our evaluation of the Mid-Carolinas
                                                                                                                 District determined a business case exists for the continued
                                          City Delivery Efficiency Review —                                      use of CSBCS machines in some associate offices. While
                                          San Francisco                                                          the district had reduced 11 CSBCS machines during our
                                                                                                                 audit, we determined an additional 10 CSBCS machines
                                          Delivery operations are the Postal Service’s largest cost              could be eliminated, saving more than $3 million in mail
                                          center, accounting for about 45 percent of salary expenses             processing and maintenance hours.
                                          and workhours. Although workhour usage has been
                                          reduced in delivery operations, these reductions have
                                                                                                                 Enterprise Architecture
                                          not kept pace with declining mail volume. For example,
                                          we found that efficiency could be improved at the San                  The existing enterprise architecture (EA) framework within
                                          Francisco Napoleon Street Station by eliminating time                  Information Technology (IT) has not reached a level of
                                          wasting practices. We recommended a reduction of                       maturity to facilitate repeatable, defined, managed, and
                                          54,975 workhours at this station to achieve an associated              optimized processes and systems. The Postal Service (as
                                          economic impact of about $2.1 million annually.                        an enterprise) is not using its resources and technologies to
                                                                                                                 best achieve its business goals.
                                          Rural Delivery Christmas Operations
                                                                                                                 Human Resources Shared Service Center
                                          Regular rural carriers receive supplemental Christmas
                                          overtime pay when they exceed their route’s established                The Human Resources Shared Service Center (HRSSC)
                                          time during the Christmas holiday mailing season. Due to               provides a wide range of services to address personnel
                                          the decline in mail volume, we concluded that there is no              issues for postal employees nationwide. The Information
                                          longer a need for supplemental Christmas overtime hours                Technology department, located at the HRSSC, provides
                                          during this period. We made recommendations that would                 help desk services by administering the HRSSC Remedy
                                          reduce the operating cost of Christmas rural delivery.                 application and troubleshooting problems.

                                                                                                                 Our audit found general controls surrounding the HRSSC
                                          Carrier Sequence Bar Code Sorters                                      information technology environment are not operating as
                                          The Postal Service primarily uses two types of equipment to            intended. Specifically, management can improve controls
                                          sort letter mail into walk sequence. They are the high-speed           over security management, physical access, configuration
                                          delivery barcode sorters (DBCS) machines in the plants and             management, and contingency planning. Management
                                                                                                                 generally agreed with the recommendations, but disagreed
                                                                                                                 with the recommendations to designate a security control
                                                                                                                 officer, and to revise the timeframe for the antivirus
                                                                                                                 notification on the Interactive Voice Response servers.
                                                                                                                 AAdditionally, management did not agree that HRSSC
                                                                                                                  ppersonnel were not trained on policy requirements. Without
                                                                                                                   aadequate controls, management increases the potential for
                                                                                                                    undetected and unmitigated security risks that could result
                                                                                                                    in unauthorized disclosure of sensitive data.

                                                                                                                 Maximizing the Cost-Effectiveness
                                                                                                                 of Contracts
                                                                                                                 W issued two contract-related audit reports during the
                                                                                                                 We
                                                                                                                 reporting period. One audited a proposal for direct labor
                                                                                                                 aand indirect labor rates for future pricing actions for an
                                                                                                                  indefinite delivery quantity contract; the other verified
                                                                                                                  bbilled, direct labor hours. These audits were provided
                                                                                                                   tto contracting officers for their consideration in future
                                                                                                                    negotiations for obtaining the best terms for the Postal
The Postal Service primarily uses two types of equipment to sort letter mail into walk sequence. There are the      Service and for effectively managing these contracts.
high-speed delivery barcode sorters (DBCS) machines in the plants and the less efficient carrier sequence
barcode sorter (CSBCS) machines in the associate offices.




10 | Semiannual Report to Congress
                                                                                                                                   GOAL 3: EMBRACING CHANGE




The proposal audit disclosed that the contractor submitted        Postal Service organizations take an innovative approach
inadequate cost or pricing data. In addition, the contractor’s    to revenue generation. Viewing suppliers as potential
accounting system continued to be inadequate for                  customers and offering them Postal Service solutions to
accumulating and billing costs under Postal Service               meet their needs adds value to the supply chain. As such,
contracts. In a previous report, we noted that the contractor’s   Supply Management developed a goal to further identify
accounting system was not acceptable for an award of a            opportunities that contribute to Postal Service revenue.
prospective contract. The contractor began implementing
corrective actions based on our recent recommendations for        We assessed how the Postal Service is leveraging buying
improvement to its accounting system.                             power to generate revenue and found that several Supply
                                                                  Management portfolios have revenue generating efforts
                                                                  underway that leverage its significant buying power.
GOAL 3: EMBRACING CHANGE                                          One promising collaborative effort is the Supplier Sales
The Postal Service needs to embrace change to ensure              Lead Program (SSLP) which evaluates opportunities for            As it relates to recycling awareness,
that it is relevant and responsive to customer needs. This        reinvigorating supplier sales leads and leveraging existing      the data collected showed some
strategic goal focuses on using the full potential of the         relationships with the Postal Supplier Council.                  improvements. Specifically, 25 of
Internet, being a sustainability leader, and collaborating to                                                                      the 88 sites we visited met basic
grow the business. Evolving customer needs, shaped by the         We also provided Supply Management with a                        standards. However, many field
Internet and a new generation of customers, are redefining        commissioned benchmarking study that identified private          sites were still placing recyclable
expectations for service and convenience.                         sector and foreign post best practices for leveraging            material in trash dumpsters and
                                                                  the supplier base to generate revenue. Our report made           could still improve awareness
                                                                  recommendations to strengthen the support for the                communications with employees
Sustainability                                                    SSLP and consider program expansion. In addition, we             to be more effective.
We assessed the Postal Service’s compliance with                  recommended that policies and procedures be developed
energy and recycling policies at 88 field sites during            to encourage and enhance revenue generating activities in
FY 2009. In this review, seven of these sites met basic           the supply chain.
energy standards, showing some improvement for energy
awareness. Consistent with our previous review of another
                                                                  REGULATORY STUDIES AND
90 sites, questionnaire responses indicated that most of
the sites can improve basic building maintenance, such            REPORTING OBLIGATIONS
as setting prescribed temperatures, installing occupancy          The Postal Act of 2006 requires the Postal Service to
sensors, and taking measures to reduce domestic water             conduct certain regulatory studies and mandates a number
use. To be more effective, we believe that the Postal Service     of reporting obligations. The Postal Service uses special
can take further advantage of technology advancements             financial studies to attribute costs to the various categories
namely, remote building management systems. We                    of mail, special services, and to develop workshare cost
previously reported that remote building management               avoidance estimates. We assessed the management of
systems automate control settings and provide a return to         these special studies and found that controls are generally
the Postal Service of up to 31 percent. Also, reinforcing         adequate to ensure that they are updated with recurring data
awareness of energy policies should encourage more                inputs. However, controls over updating the studies with non-
facilities to meet basic standards and reduce energy              recurring financial and operational data could be improved.
consumption through the use of low- or no-cost energy
saving practices.                                                 The oldest of 13 one-time studies, the Postmaster
                                                                  Variability Study, was completed in 1984; additionally
As it relates to recycling awareness, the data collected          seven other one-time studies conducted in the 1990s may
also showed some improvements. Specifically, 25 of                need to be updated. Updating non-recurring data inputs
the 88 sites we visited met basic standards. However,             used in cost models could help the Postal Service develop
consistent with our prior review, many field sites were still     more accurate worksharing cost avoidance estimates. For
placing recyclable material in trash dumpsters and could          example, a 5 percent change in postmaster variability will
still improve awareness communications with employees             increase or decrease the estimate of the portion of costs
to be more effective.                                             that are volume variable (as opposed to institutional) by
                                                                  about $39.9 million over a 2-year period.
Revenue Generation in Supply Management
                                                                  From 18 other cost models and analyses, we examined the
Supply Management’s primary objective is lowering costs
                                                                  Periodicals Destination Entry Cost Avoidance Model and
through effectively managing the supply stream, not
                                                                  found that 24 data inputs developed in the 1990s may no
generating revenue. However, the Postal Service is seeking
to generate revenue wherever it can and has asked that all




                                                                                                                                    October 1, 2009 – March 31, 2010 | 11
PRESERVING ACCOUNTABILITY




                                      THE IMPACT OF THE POSTAL SERVICE’S NEW PRICING INITIATIVES
                                      PAEA (Postal Act of 2006) ushered in a new era of enhanced pricing flexibility and gave the Postal Service profit
                                      incentives. The Postal Service, its regulators, and mailers all face new choices in determining how they will adapt:
                                       The Postal Service must determine how to use its new pricing flexibility to retain earnings.
                                       The regulator must determine how to balance the Postal Service’s pricing flexibility against other regulatory goals
                                         such as ensuring a level playing field.
                                       Mailers have new opportunities to work with the Postal Service to create customized pricing agreements.

                                      RARC retained John C. Panzar Ph.D., professor of economics, to perform foundational research of Postal Service pricing
                                      initiatives in this new environment. Dr. Panzar’s theoretical analysis revealed key insights to understanding pricing and
                                      marketing initiatives under price cap regulation. The research paper, “Postal Service Pricing Policy after PAEA,” explores
                                      and informs the pricing policy debate and offers specific findings in the areas of workshare discounts, quantity discounts,
                                      and channel-based discounts. Dr. Panzar also provides his opinion about reasons for potential antitrust implications.

                                      Workshare Discounts. Historically, the Postal Service has generally set workshare discounts equal to the cost the
                                      Postal Service avoids when performing workshared activities. On the contrary, Dr. Panzar believes the Postal Service
                                      faces a strong economic incentive to set workshare discounts below the costs those activities avoid. In Panzar’s opinion,
                                      this is permissible under PAEA, but it would break with long-standing practice and invite antitrust scrutiny.

                                      Quantity Discounts. The author’s research found that quantity discounts, such as negotiated service agreements, can be
                                      lucrative for the Postal Service. If the customers receiving these discounts are not in competition with other, less-favored
                                      customers, quantity discounts are a “win-win,” as the price cap automatically protects everyone. However, if customers
                                      are in competition, those who do not get quantity discounts are disadvantaged and may seek antitrust relief.

                                      Channel-Based Discounts. Under PAEA, channel-based discounts are allowed. The discounts are based on alternate
                                      distribution channels, such as postage meter or Internet transactions. These types of discounts are attractive to the
                                      Postal Service because they reduce costs; however, in some instances, they are likely to produce winners and losers
                                      among customers.

                                      In summary, Dr. Panzar suggests these new pricing initiatives can be profitable for the Postal Service; but in his opinion
                                      because they may exclude customers or produce winners and losers, there is a potential antitrust implication, which is
                                      something the Postal Service has never had to consider.

                                     longer represent current operating conditions. This older         Field Financial Audits
                                     data was also used in other cost models.
                                                                                                       Following is a summary of the financial audits performed
                                     Additionally, we found the Postal Service complied with the       in support of the independent accountant’s opinion on the
                                     regulatory mandate to list the special studies and discuss        Postal Service financial statements.
                                     whether the studies reflected current operating conditions.
                                                                                                       Post Offices and Business Mail Entry Units. During this
                                     The Postal Regulatory Commission plans to complete a
                                                                                                       reporting period, we issued 123 individual and two capping
                                     strategic rulemaking during FY 2010 that should assist the
                                                                                                       reports summarizing our Post Office and Business Mail Entry
                                     Postal Service in prioritizing updates of the studies and data.
                                                                                                       Unit (BMEU) audits. Our overarching conclusion was that
                                                                                                       financial transactions were reasonably and fairly presented
                                     PRESERVING ACCOUNTABILITY                                         in the accounting records and that generally, internal
                                                                                                       controls were in place and effective. However, we identified
                                     During this period we audited Postal Service installations
                                                                                                       12 Post Offices and five BMEUs where major controls
                                     and the financial statement. We also assessed the accuracy
                                                                                                       were not effective. Additionally, we reported a significant
                                     of management data to help preserve the integrity of Postal
                                                                                                       nationwide deficiency related to business mail acceptance
                                     Service processes and personnel. By focusing on key
                                                                                                       at BMEUs for the third consecutive year. Although it was not
                                     vulnerabilities of Postal Service installations, auditors show
                                                                                                       completely remediated in FY 2009, the Postal Service has
                                     how the Postal Service can further protect the integrity of
                                                                                                       made progress to correct the deficiency and to comply with
                                     the mailstream.
                                                                                                       future Sarbanes-Oxley Act of 2002 requirements. We will
                                                                                                       continue to monitor and report the Postal Service’s progress
                                                                                                       on the key financial reporting controls.




12 | Semiannual Report to Congress
                                                                                                                                          PRESERVING ACCOUNTABILITY




Cost and Revenue Analysis. We issued a report                       Financial Audits
summarizing Cost and Revenue Analysis test observations.
                                                                    We performed separate audits
Auditors found the Postal Service generally conducted the
                                                                    of selected financial activities
statistical tests in accordance with established policies and
                                                                    and accounting records at the
procedures. However, we found the most frequent type of
                                                                    Postal Service headquarters
test errors were data collectors not using marking slips to
                                                                    and at the three Information
identify mail being tested. In addition to testing errors, we
                                                                    Technology and Accounting
found that data collectors did not always follow procedures
                                                                    Service Centers (IT/ASC)
for protecting data collection equipment.
                                                                    located in St. Louis, MO;
                                                                    Eagan, MN; and San Mateo,
Financial Risk Models                                               CA. We also conducted audits
To identify current and emerging business mail financial            of the Governors’ travel and
risks, OA developed the following financial risk models.            miscellaneous expenses, Postal
These models use predetermined risk factors to rank the             Service officers’ travel and
74 Postal Service districts from highest to lowest financial        representation expenses, and
risk. Auditors run and analyze these models quarterly for           information system general
internal use.                                                       controls at the IT/ASCs and          During this reporting period, we issued 123 individual and two capping
                                                                    the Raleigh, NC, Information         reports summarizing our Post Office and Business Mail Entry Unit audits.
Cost and Controls Model. The Costs and Controls model               Technology Service Center.
identifies areas for audit and, in isolated instances, identifies   For these audits, we did not
fraudulent financial activities. Using this as the basis for        propose any adjustments, but we did identify various
initiating their work, auditors recently completed financial        control deficiencies that were not significant to the overall
risk-based audits in the Bay Valley District, Los Angeles           financial statements and did not affect the overall adequacy
District, Greater South Carolina District, Northern New Jersey      of internal controls. Since the Postal Service took corrective
District, Gateway District, Capital District, and New York          action during our audits, we provided no recommendations.
Metro Area. These risk-based audits continue to disclose
non-compliance with Postal Service policies over cash,              Information Systems General Controls
stamps, money orders, disbursements, financial accounting
and reporting, miscellaneous expenses, and payroll.                 We evaluated security management, access controls,
                                                                    configuration management, and segregation of duties
Business Mail Entry Unit Model. Using the Business                  as they related to operating systems and database
Mail Entry Unit (BMEU) model as the basis for initiating            platforms for selected applications, data, and the computer
audit work, auditors recently completed financial risk-             infrastructure at the Postal Service information technology
based audits in the Arizona, Connecticut, Kentuckiana, Los          centers. These general computer controls provided
Angeles, and Northland Districts. These risk-based audits           reasonable assurance that computer-processed data was
disclosed non-compliance with Postal Service policies over          complete, validated for accuracy, and secure; data integrity
mail acceptance processes.                                          controls were in place; and business practices complied
                                                                    with Postal Service policies, procedures, and standards.
Vending Model. OA developed a vending risk model to                 We provided recommendations in prior audit reports during
monitor the Postal Service’s phase out of stamp vending             FY 2009 to assist management in improving information
machines from Post Offices and retail locations. The model          technology operations in the areas of operating system,
ranked the Postal Service’s districts by five financial risks       network, and database access controls; security over
associated with vending operations. Using the risk model            sensitive data transmissions; and physical security.
results, we initiated vending audits in the Rio Grande and
Los Angeles Districts. These audits identified units that had       Imprudent Purchases
not properly closed out vending and had undeposited cash.
                                                                    We audited the Postal Service’s compliance with the
In March 2010, we issued a management advisory which
                                                                    Management Instruction on Expenses for Internal and
reported as of January 2010, that although all vending
                                                                    External Events and followed up our previous audit report
operations should have been closed out, 402 units had
                                                                    on SmartPay® Purchase Card spending. Our audit disclosed
more than $1.8 million in stamp stock balances and five                                                                                     OA developed a vending risk
                                                                    imprudent purchases and non-compliance with the meals
units had more than $16,000 in undeposited cash.                                                                                            model to monitor the Postal
                                                                    and events policy. This policy describes procedures for
                                                                                                                                            Service’s phase out of stamp
                                                                    purchase and payment of official Postal Service business
                                                                                                                                            vending machines from Post
                                                                    internal and external event-related expenses. Internal
                                                                                                                                            Offices and retail locations.
                                                                    events are non-routine meetings such as conferences,




                                                                                                                                              October 1, 2009 – March 31, 2010 | 13
PRESERVING ACCOUNTABILITY




                                      POSTAL SERVICE’S FINANCIAL CONDITION
                                      In an economy that has seen the reported end of the recent recession, the Postal Service continues to see a decline in
                                      mail volume and revenues. This is due to a combination of continued lagging retail activity across many sectors and the
                                      continued diversion of mail activity to electronic platforms, a migration which accelerated during the economic downturn.
                                      The Postal Service has initiated unprecedented cost cutting in recent years, saving $6.1 billion in 2009. This effort has
                                      included cutting work hours, making contract adjustments, and significantly decreasing capital spending.

                                      One area of focus has been the 10-year payment schedule required to fund retiree health benefits, which includes
                                      average annual payments of $5.6 billion, represent 8.2 percent of total operating revenues, and exceed the highest net
                                      income ever achieved in the Postal Service. A large part of the Postal Service’s current debt is a direct result of making
                                      these payments. The Postal Service has sought Congressional relief in the form of restructuring the payments to the
                                      retiree health benefits fund, flexibility in closing Post Offices, and the ability to deliver mail less than 6 days per week.

                                      The overall operating loss for FY 2009 was $3.8 billion. During FY 2010, mail volumes are expected to decline an
                                      additional 10 billion pieces, in addition to the 25.6 billion piece decline in FY 2009. Total mail volume in Quarter 1,
                                      FY 2010 was down 8.9 percent compared to the same period last year.

                                      In addition, the Postal Service reported a $263 million net loss from Operations for Quarter 1, FY 2010. While this is
                                      down from a net loss from Operations of $380 million in Quarter 1 of FY 2009, the first quarter of the fiscal year is
                                      historically the most profitable for the Postal Service.

                                      Without substantial cost reductions, the FY 2010 loss could be significantly greater than FY 2009, which was impacted
                                      by legislative relief in regard to the retiree health care benefit payment. The net loss for FY 2010 is projected to be more
                                      than $7 billion. Legislative action reduced the 2009 payment to the Postal Service Retiree Health Benefit Fund (PSRHBF)
                                      by $4 billion but did not address the longer term PSRHBF payment schedule. At the end of FY 2009, the Postal Service
                                      had $10.2 billion in debt outstanding, a $3 billion increase from FY 2008.

                                      The Postal Service is expected to borrow up to their annual ceiling of $3 billion for projected debt of $13.2 billion at the
                                      end of FY 2010. This would bring the Postal Service close to their allowable debt ceiling of $15 billion and limit their
                                      ability to borrow in FY 2011. The Postal Service has substantial scheduled cash payments in September and October
                                      2010, including $5.5 billion due to the PSRHBF on September 30, 2010. In addition, approximately $1.1 billion is due
                                      in October 2010 to the Department of Labor (DOL) for workers’ compensation liability. Based on the current borrowing
                                      capacity and projections of cash available from operations, the Postal Service will likely have sufficient cash available for
                                      ongoing operations in 2010. However, substantial uncertainty exists as to whether the Postal Service will have sufficient
                                      cash available to fund the $5.5 billion retirement health benefit payment and the October DOL obligations while maintaining
                                      sufficient liquidity to meet its financial obligations in 2011.

                                     training sessions, briefings, postal employee recognition         Money Orders
                                     and appreciation events that are attended mainly by Postal
                                                                                                       As a follow-up to our 2008 audit of no-fee money orders,
                                     Service employees. External events are official business
                                                                                                       our most recent audit disclosed continued misuse of
                                     events such as marketing events; stamp, facility and
                                                                                                       no-fee money orders by individual Post Offices nationally.
                                     other official dedication ceremonies; conferences; forums;
                                                                                                       This audit disclosed that employees used no-fee money
                                     workshops and training events; tradeshows; community
 NO FEE MONEY                                                                                          orders for convenience when other payment methods
                                     service activities; and hosting business meals attended by
 ORDERS                                                                                                were prescribed and, in isolated instances, to commit
                                     employees, customers, and other external stakeholders.
                                                                                                       fraud. In addition, employees did not maintain adequate
 Postal Service policy limits                                                                          documentation to support the use of no-fee money
 the use of no-fee money             Based on our review of judgmentally selected transactions,
                                     we identified more than $54,000 in imprudent purchases            orders and input incorrect reason codes when processing
 orders for purchases to a                                                                             transactions. Nationwide, we determined that units have
 one-time local expense, not         and more than $792,000 in purchases that were not made
                                     in accordance with Postal Service policy.                         misused more than $4.86 million in no-fee money orders
 to exceed $500.                                                                                       over the last 2 years. Specifically, units issuing these no-fee
                                                                                                       money orders did not follow Postal Service policy that limits
                                                                                                       the use of no-fee money orders for purchases to a one-
                                                                                                       time local expense, not to exceed $500. We reported this
                                                                                                       amount as unrecoverable, unsupported questioned costs.




14 | Semiannual Report to Congress
                                                                                                                                                                            PRESERVING ACCOUNTABILITY




Absenteeism                                                                              procedures related to unscheduled absences. We also
                                                                                         determined that CSRS and FERS retirees used comparable
The Deputy Postmaster General asked us to determine if
                                                                                         amounts of sick leave in the years preceding retirement.
the Postal Service’s absenteeism rate is comparable with
private and federal sector rates and, if not, to determine the
potential causes. In addition, we were asked to compare                                  Ethics Program
sick leave usage by postal employees who are 3 to 4 years                                At the request of the prior chairman of the Audit and
from retirement in the Civil Service Retirement System                                   Finance Committee of the Board of Governors, we reviewed
(CSRS) and Federal Employees Retirement System (FERS).                                   the Postal Service’s ethics program. We assessed whether
OIG auditors concluded that the Postal Service’s total                                   the ethics program is properly designed and operationally
absenteeism rate for major benefits is comparable to the                                 effective. Auditors identified areas that, if addressed, would
total absenteeism rate of the federal sector, but higher                                 increase the operational effectiveness of the program and
than that of the civilian sector. We identified two potential                            enhance its current design. Management disagreed with
causes for the difference between the Postal Service and                                 our recommendation to revise the procedures to ensure
the civilian sector absenteeism rates. First, the Postal                                 Corporate Personnel Management communicates relevant
Service offers more leave benefits than the civilian sector,                             information related to ethics standards violations, violations
and second, they offer fewer incentives for employees                                    of criminal conflict of interest statues, and applicable
to accumulate leave. Additionally, we found that some                                    disciplinary actions to the designated agency ethics official.
supervisors were not complying with attendance control

 Table 1: Comparison of Absenteeism Rates for Major Leave Benefits (Percentage)
                                  Sick Leave              Annual Leave                     Holiday           Personal Leave                         Subtotal Major Leave
Postal Service                              4.14                      8.28                       3.21                     N/A19                                     15.63
Federal Sector                             3.69                       8.15                       3.50                       N/A                                     15.34
Private Industry                           1.49                       4.28                       2.98                       0.58                                  8.3220
State and Local                            2.45                       5.91                       4.18                       0.72                                 12.0221
Governments
     Source: Postal Service payroll data for FY 2008; OPM federal agency data for CYs 2001–2005 (average); BLS occupational equivalent rates for private
            industry and state and local governments from December 2008 Employment Cost Index.
                                                                                                                                                                              EXTERNAL PEER
     Note: The absenteeism rates are the average percentage of leave used per employee based on a 2,080 work-hour year.
                                                                                                                                                                              REVIEW OF THE
 The Postal Service’s total absenteeism rate for major leave benefits is equivalent to the OPM federal sector rate, almost double the                                         OFFICE OF AUDIT
 Bureau of Labor Statistics rate for private industry, and almost 4 percent higher than the Bureau’s state and local government rates.
 Depicted in Table 1.                                                                                                                                                         During the period, the
                                                                                                                                                                              external peer review of
                                                                                                                                                                              OA was completed. Our
 DATA MINING GROUP                                                                                                                                                            system of quality control
                                                                                                                                                                              was determined to be
 Data mining plays an increasingly important role in transforming rapidly growing business data into useful,
                                                                                                                                                                              suitably designed and
 actionable information.
                                                                                                                                                                              complied with to provide
 The RARC’s Data Mining Group pursues in-depth analyses in the core areas of health care fraud, financial fraud,                                                              reasonable assurance of
 contract fraud, and internal mail theft. Through the use of independent study, proven data mining methods and                                                                conformity with applicable
 techniques, and analytical tools, the group identifies and extracts non-obvious patterns and relationships within data                                                       professional standards in all
 to inform the work of auditors and special agents. The results complement and enhance the planning and initiation of                                                         material respects. However,
 audits and investigations.                                                                                                                                                   the review team did find
                                                                                                                                                                              some matters warranting
 Team members consist of multidisciplinary experts in law enforcement, investigative analysis, and data extraction. The                                                       our attention, and we
 group combines this expertise with outreach to internal and external stakeholders to identify and enrich analyses that                                                       addressed these issues with
 address emerging issues and critical challenges.                                                                                                                             an increased emphasis on
                                                                                                                                                                              specific controls. Additionally,
 During this reporting period, the Data Mining Group developed a state-of-the-art, statistical model that identified                                                          during the course of the peer
 historical indicators of Office of Workers’ Compensation Programs (OWCP) claimant fraud. They extracted hidden,                                                              review, the team uncovered
 systemic patterns of potential embezzlement activity in detailed retail revenue and expense data. They also initiated a                                                      a disturbing finding that
 pioneering study of supplies, services, and payment data to isolate suspicious, fraudulent contract activity. Lastly, the                                                    resulted in an investigation
 Data Mining Group merged mailer data with postal operations data and pinpointed processing operations and carrier                                                            and disciplinary action
 routes with significant mail loss.                                                                                                                                           against an employee.




                                                                                                                                                                              October 1, 2009 – March 31, 2010 | 15
INVESTIGATIONS
                                                                                                                                          FINANCIAL CRIMES




INVESTIGATIONS
To protect the mail and to maintain the integrity of postal processes and personnel,
the Postal Service relies on the investigative efforts of the Office of Investigations’ (OI)
special agents. These special agents are stationed in offices nationwide. Their charge
is to investigate internal crimes and frauds against the Postal Service. Following is work
conducted by the OI during this reporting period that contributed to safeguarding the
Postal Service’s revenue and assets and helped deter postal crimes, ultimately helping
to maintain a stable and sound Postal Service.

FINANCIAL CRIMES                                                 cashed. The two conspirators cashed 254 money orders
                                                                 totaling more than $127,000. The co-conspirator pled
Embezzlements                                                    guilty and was sentenced to 24 days’ incarceration
                                                                 and 4 months of home confinement followed by 5
Special agents employ various investigative techniques to
                                                                 years’ probation. The former supervisor was ordered to
uncover embezzlements. These embezzlements may involve
                                                                 pay $127,000 in restitution to the Postal Service. The
postal employees stealing money from cash drawers,
                                                                 supervisor resigned from the Postal Service.
using sophisticated schemes to manipulate postal money
orders or money order funds, or falsifying financial retail     A $156,000 money order scam by an Oregon SSA led
records. When employees are found to be responsible for          to an 18-month sentence in federal prison, followed by
missing postal funds, they are reported to management            3 years’ supervised release, and an order to pay more
for appropriate administrative action. In cases that warrant     than $156,000 in restitution to the Postal Service. The
criminal prosecution, offenders not only face the loss           sentence followed a guilty plea to theft of government
of their jobs but may face jail time and court-ordered           property. Our investigation revealed that for nearly 2
restitution. Following are examples of financial fraud cases     years the SSA stole cash and money orders by falsely
we investigated during this reporting period.                    issuing refunds to cover the money orders she issued
                                                                 without remitting payment. She explained that the
 A $236,000 shortage in a Texas Post Office led to an
                                                                 money was used to pay her mortgage, to remodel her
  OIG investigation that identified two sales and services
                                                                 husband’s house, and to assist her children with their
  associates (SSAs) as suspects. In November, the
                                                                 financial needs. However, at sentencing she changed her
  second of the two Texas SSAs pled guilty to theft of U.S.
                                                                 story and said she used the stolen money to gamble and
  property. The first SSA had pled guilty in July 2009 and
                                                                 provide support for her adult children. The SSA resigned
  was sentenced to 5 years’ probation and ordered to pay
                                                                 from the Postal Service.
  $29,000 in restitution. Our investigation showed that
  both SSAs failed to pay for postal money orders they
  issued to themselves, family, friends, and creditors. The    Voyager Credit Card
  SSAs admitted to stealing money orders since 2006,           The Postal Service uses about 219,000 vehicles — one of
  and both resigned after being interviewed by our agents.     the largest fleets in the U.S. — to deliver mail across the
  Sentencing in the second SSA’s case is scheduled for         nation. Through a partnership with U.S. Bank and Voyager
  April 2010. Additionally, the postmaster was issued a        Fleet, the Postal Service issues one credit card per vehicle
  downgrade to part-time flexible clerk for “Unacceptable      for refueling, routine maintenance, and vehicle washing and
  Performance” by not ensuring compliance with Postal          polishing. Under no circumstances are postal employees or
  Service policies and procedures on financial integrity;      contractors allowed to disclose their personal identification
  record keeping and reporting; and maintaining the            numbers (PINs) to non-postal entities, utilize the card for
  security of the facility.                                    personal use, exceed the daily purchase limit without
                                                               proper authorization, or transfer purchasing authority
 A Virgina customer service supervisor was sentenced
                                                               to a non-postal entity. However, some dishonest postal
  in January to 12 months and 1 day in federal custody,
                                                               employees, contractors, and other individuals misuse these
  followed by 3 years’ probation, after he pled guilty to
                                                               credit cards for personal gain. Special agents investigated
  a scheme to steal and cash postal money orders. The
                                                               29 cases of Voyager credit card fraud in this reporting
  supervisor, and a co-conspirator who was not a postal
                                                               period, resulting in 18 arrests and 14 administrative
  employee, stole stacks of old, outdated money orders
                                                               actions. Following is an example of one such case.
  and also a money order imprinter kept in a locked filing
  cabinet in his Post Office. Special agents were notified
  after unsold money orders showed up as having been




                                                                                                                               October 1, 2009 – March 31, 2010 | 17
WORKERS’ COMPENSATION FRAUD




                                                                          In November, two Michigan            to work at her hair salon while alleging to be injured. She
                                                                          brothers who were both               was observed styling, washing, and blow drying a client’s
                                                                          Postal Service HCR drivers,          hair, giving a pedicure, and sweeping the floor with no
                                                                          along with a non-employee            apparent discomfort.
                                                                          conspirator, each pled guilty
                                                                          in federal court to Conspiracy       WORKERS’ COMPENSATION
                                                                          to Defraud the United States
                                                                          of $102,000. All three
                                                                                                               FRAUD
                                                                          were indicted in September           In FY 2009, the monetary and medical benefits paid by
                                                                          2009, after our investigation        the Postal Service to workers’ compensation claimants
                                                                          determined that the brothers         (employees who sustained job-related injuries) totaled
                                                                          were using Voyager cards             nearly $1.1 billion and its estimated total liability for future
                                                                          for personal use. One of             workers’ compensation costs is more than $8.5 billion.
                                                                          the cards was assigned to            Administered by the DOL, the OWCP provides direct
                                                                          their father’s Postal Service        compensation to providers, claimants, and beneficiaries.
Through a partnership with U.S. Bank and Voyager Fleet, the Postal        contract to carry mail. The          The Postal Service later reimburses the OWCP in a
Service issues one credit card per vehicle for refueling, routine         brothers also conspired with         process known as “charge-back billings.” The OIG’s
maintenance, and vehicle washing and polishing.                           a local farmer to sell large         mission for workers’ compensation fraud investigations is
                                                                          quantities of diesel fuel.           both proactive and reactive. Depending on the case type,
                                                                          The brothers’ father failed          special agents focus on the prevention and deterrence of
                                                                          to notify the Postal Service         workers’ compensation fraud. They also focus on detecting
                                                                          after he became aware that           and investigating an allegation of a fraudulent claim. The
                                                                          his sons had made large              results of our investigative efforts during this reporting
                                                                          unauthorized purchases using         period included $99.8 million in cost savings or avoidances,
                                                                          the Voyager card assigned            25 arrests, and 99 administrative personnel actions,
                                                                          to him. The brothers and the         including removals, suspensions, and letters of warning.
                                                                          conspirator were arrested
                                                                          in October. The father’s             Claimant Fraud
                                                                          contract to carry the mail
                                                                          was terminated in November.          Unfortunately, a small percentage of postal employees
                                                                          Sentencing is pending.               attempt to defraud the workers’ compensation program.
                                                                                                               Criminal prosecutions are an effective deterrent to fraud
                                                                                                               and may permanently prevent the payment of additional
                                                                          Tort Claims
                                                                                                               compensation. Cases that may require administrative action
                                                                             The Postal Service established    are referred to the Postal Service and the DOL. Special
                                                                             the Tort Claims Program to        agents work closely with health and resource management
                                                                             monitor and resolve claims        specialists from the Postal Service on all phases of
                                                                             filed against the Postal          these investigations. Following are examples of workers’
                                                                             Service by customers seeking      compensation fraud cases investigated during this period.
                                                                             compensation for injuries or
                                                                             losses incurred while using        In March, a former New Hampshire mail handler
Video surveillance captured the mail handler catching and reeling                                                who had relocated to Florida, was sentenced to 12
                                                                             postal facilities. According to
in fish, casting out fishing lines, and rigging bait, all while collecting                                       months’ probation after he pled guilty in federal court
                                                                             an agreement with the Postal
federal workers’ compensation benefits.                                                                          to false statements or fraud to obtain federal workers’
                                                                             Service’s Law Department,
                                                                             special agents investigate tort     compensation benefits. In 2002, the mail handler filed
                                               claim cases involving suspected fraud and cases for which         a total disability workers’ compensation claim for an
                                               the U.S. Attorney’s Office has requested an investigation.        alleged on-the-job injury to his back. Our investigation
                                               Following is an example of one such case.                         determined that the mail handler was self-employed and
                                                                                                                 operating a fishing charter business. Video surveillance
                                         After our investigative work, a Florida claimant, who filed a           captured the mail handler catching and reeling in fish,
                                         $1 million tort claim against the Postal Service, agreed to a           casting out fishing lines, and rigging bait. As a result of
                                         $6,000 settlement for property damages in November. The                 the investigation, the DOL terminated the mail handler’s
                                         initial claim alleged multiple injuries were sustained in an            benefits resulting in a cost avoidance of more than
                                         accident, after a mail truck ran into the claimant’s vehicle.           $900,000 for the Postal Service.
                                         Our investigation however, revealed the claimant continued




18 | Semiannual Report to Congress
                                                                                                                                      WORKERS’ COMPENSATION FRAUD




 After a 7-day jury trial in January, a New York custodian       Following are two such cases.
  was found guilty on four felony counts of making
                                                                   To update a case reported
  false or fraudulent statements to obtain federal
                                                                    in the previous semiannual
  employee’s compensation. The custodian alleged partial
                                                                    report, on November 5,
  disability from a work-related back injury in 1992,
                                                                    2009, the Postal Service
  and had received approximately $87,000 in workers’
                                                                    received nearly $15 million
  compensation payments. Video surveillance conducted
                                                                    in criminal restitution due
  by our agents showed the custodian repeatedly
                                                                    to the OIG’s participation in
  exceeding his medical restrictions. We watched the
                                                                    an investigation against a
  custodian plow and shovel snow; rake leaves; dig, load
                                                                    pharmaceutical company
  and carry buckets of dirt; climb ladders; and mow lawns.
                                                                    that promoted the sale
  The DOL removed the custodian from the periodic rolls,
                                                                    of specific prescription
  realizing a savings of about $260,000 for the Postal
                                                                    drugs for conditions not
  Service. He was also terminated from the Postal Service
                                                                    approved by the Food
  as a result of the investigation. Sentencing is scheduled
                                                                    and Drug Administration
  for May 2010.
                                                                    (FDA). The company was
 A county judge sentenced a Utah rural carrier in                  ordered to pay a criminal         After a 7-day jury trial in January, a New York custodian was found guilty
  December, to 60 days of home confinement, 3 years’                fine of nearly $1.2 billion       on four felony counts of making false or fraudulent statements to obtain
  probation, and ordered her to pay restitution of more             and a criminal forfeiture         workers’ compensation benefits.
  than $13,000 to the DOL for credit to the Postal Service.         of $105 million, for a
  Pursuant to the information filed against her, the carrier        total criminal resolution of
  pled guilty to one count of fraud in November. Prior to           $1.3 billion to the federal
  these actions, our investigation determined that the rural        government. This is the
  carrier, who claimed to be totally disabled from an on-           largest criminal fine ever
  the-job back injury, was working as a real estate agent.          imposed in the U.S. for any
  The investigation was initiated when the rural carrier            matter. The pharmaceutical
  mailed bulk mail postcards advertising her services as            products were prescribed
  a licensed real estate agent. The DOL terminated the              and provided to the DOL-
  rural carrier’s benefits, realizing a savings of more than        OWCP, Medicare, Medicaid,
  $1.6 million for the Postal Service. The rural carrier            and other government
  resigned from the Postal Service.                                 insurance recipients. The
                                                                    company also agreed to
OWCP Medical Provider Fraud                                         pay an additional $1 billion,
                                                                    plus interest, to settle
The workers’ compensation program is also subject to                                                  In November 2009, the Postal Service received nearly $15 million in
                                                                    civil liability arising from
fraud and abuse by medical providers used by postal                                                   criminal restitution due to the OIG’s participation in an investigation against
                                                                    the illegal promotion of
employees injured on the job. A few seek to take advantage                                            a pharmaceutical company that promoted the sale of specific prescription
                                                                    these products. In August
of this program by submitting false bills, colluding with                                             drugs for conditions not approved by the Food and Drug Administration.
                                                                    2009, the Postal Service
claimants to extend benefits or falsifying claim documents.
                                                                    was awarded nearly $1.4
When evidence of abuse exists, OIG agents investigate.
                                                                    million as part of the civil settlement in this case (which
                                                                    reflects the actual harm experienced by the Postal
                                                                    Service). The OIG has filed an application with the FDA to
                                                                    obtain a portion of the forfeited amount.


 JOINT YEAR-LONG WORKERS’ COMPENSATION FRAUD INITIATIVE
 The OIG and U.S. Postal Inspection Service launched a joint year-long initiative to combat workers’ compensation fraud.
 The new initiative began operations on February 1, 2010, and is planned to last through the end of the calendar year.
 The investigative initiative is an intensely-focused effort to identify fraudulent claimants and protect those with legitimate
 injuries and illnesses. It builds on the prevention and awareness campaign launched by the OIG in September 2009, and
 is expected to further prevent or reduce workers’ compensation fraud.

 According to Inspector General David Williams and Chief Postal Inspector William Gilligan, this initiative is an opportunity
 for the two organizations to collaborate and work with the Postal Service’s Health and Resource Management staff to
 focus on protecting the Postal Service’s integrity and financial health.



                                                                                                                                               October 1, 2009 – March 31, 2010 | 19
DELAY, DESTRUCTION, AND THEFT OF MAIL BY EMPLOYEES




                                           In January, a New Orleans physician was indicted on                 DELAY, DESTRUCTION, AND
                                             one count of health care fraud and one count of aiding             THEFT OF MAIL BY EMPLOYEES
                                             and abetting. The physician agreed to pay $750,000
                                             in restitution. Our investigation revealed the physician           The Postal Service is consistently ranked by the Ponemon
                                             was engaging in a health care scheme to defraud the                Institute as America’s “most trusted federal agency.” It’s
                                             OWCP by billing it for services rendered to patients at a          ranked that way because of the integrity of its employees.
                                             time when his office was closed due to the aftermath of            Unfortunately, a small number of postal employees and
                                             Hurricane Katrina. From January 2004 to January 2009,              contractors abuse the public’s trust by delaying, destroying,
                                             the physician treated 47 postal employees with 62 injury           or stealing mail. It’s our responsibility to identify these
                                             claims. The physician submitted more than $1.7 million             dishonest individuals and take proper investigative steps
                                             in bills to the OWCP, of which more than $1 million was            to have them prosecuted or refer them to management for
                                             allegedly fraudulent. Sentencing is pending.                       administrative action.

                                           WORKERS’ COMPENSATION FRAUD                                          Theft of Mail by Employees
                                           INVESTIGATIVE RESULTS                                                Following are examples of cases in which postal employees
                                           October 1, 2009 – March 31, 2010                                     stole mail for personal gain.
                                              379 fraud investigations resolved                                 A California Air Mail Facility ramp clerk was sentenced
                                              $99.8 million in compensation payments avoided                     in October to 90 days’ imprisonment, 5 years’
                                              25 arrests                                                         probation and ordered to pay $10,585 in restitution
                                              17 indictments                                                     and a $30,000 fine after pleading guilty to theft and
                                              21 convictions                                                     obstruction of mail. The restitution was payable to
                                              99 personnel actions taken by management                           three victims and the fine was payable to the Postal
                                                                                                                  Service. While under our agents’ surveillance, the clerk
                                                                                                                  rifled 34 Express Mail envelopes resulting in the theft
                                                                                                                  of $11,900 and $5,000 worth of blank money orders.
                                                                                                                  During an interview with special agents, the clerk —
                                                                                                                  with 38 years of service — admitted to stealing jewelry
                                                                                                                  and cash from the mail. She stated she specifically
                                                                                                                  targeted packages that appeared to contain either
                                                                                                                  money going through the mail, or jewelry that she
                                                                                                                  could sell for cash in order to pay bills, give to family
                                                                                                                  members, and to use for gambling. The clerk was
                                                                                                                  removed from the Postal Service.
                                                                                                                 In January, a Minnesota mail processing clerk was
                                                                                                                  removed from the Postal Service after admitting
                                                                                                                  to stealing nearly 16,000 Best Buy Reward Zone
                                                                                                                  Certificates from customers across the U.S. to redeem
                                                                                                                  them for nearly $200,000 of Best Buy merchandise.
                                                                                                                  The investigation determined that the clerk (who
                                                                                                                  sometimes served as an acting supervisor) also sold
                                                                                                                  fraudulently obtained Best Buy merchandise to fellow
                                                                                                                  postal employees, including four supervisors who
                                                                                                                  received letters of discipline. Agents executed a federal
                                                                                                                  search warrant at the clerk’s residence and seized 371
                                                                                                                  fraudulently purchased electronic items that required
                                                                                                                  a six-ton postal truck to transport from the employee’s
                                                                                                                  residence. They also seized nearly 2,600 Best Buy
                                                                                                                  Reward Zone mail pieces. An Information was filed
                                                                                                                  against the clerk charging him with theft of mail. He was
                                                                                                                  arrested, arraigned, and pled guilty in September 2009.
                                                                                                                  Sentencing is pending.
In January, a Minnesota mail processing clerk was removed from the Postal Service after admitting to stealing
nearly 16,000 Best Buy Reward Zone Certificates from customers across the U.S. to redeem them for nearly
$200,000 of Best Buy merchandise.




20 | Semiannual Report to Congress
                                                                                                                                                       IDENTITY THEFT




 A California mail handler, responsible for stealing more      IDENTITY THEFT
  than 1,000 parcels, pled guilty to theft of mail and in
  March was sentenced to 24 months’ imprisonment                When criminals steal someone’s identifying information —
  on each of the two counts against her, to be served           such as a name, date of birth, or SSN — and use it to
  concurrently, and ordered to pay restitution to the victims   fraudulently apply for credit or take over someone’s credit
  of more than $38,000. Upon release from imprisonment,         or bank accounts, they are committing identity theft. Special
  she will be on 3 years’ probation. The mail handler said      agents investigate certain identity theft cases where there
  the parcels she stole contained jewelry and clothes that      is postal employee involvement. Here is an example of one
  she pawned for cash. She also admitted to stealing            such case worked in this area.
  approximately 400 video games from the mail, which
  she sold at a retail video game store for cash. She said      In December, an Ohio rural carrier was sentenced to 28
  she kept some of the jewelry for herself or gave stolen       months’ imprisonment, 4 years’ supervised release, and
  mail items to her family and friends as gifts. Searches       ordered to pay more than $18,000 in restitution. The
  of the mail handler’s vehicle and residence turned up         carrier had previously pled guilty to an 11 count indictment
  sleeves of video games, along with jewelry, watches, and      charging her with identity theft, credit card fraud, and mail
  a ring all stolen from the mail; plus receipts for sales of   theft. Our investigation revealed that the rural carrier was
  the video games. She estimates collecting up to $9,000        committing identity theft by soliciting and stealing credit
  from this scheme.                                             cards, and credit card convenience checks, from customers
                                                                on her route. She stole the information to purchase items
                                                                for herself and make cash advances of more than $18,000.
Delay or Destruction of Mail by Employees                       To cover her theft, the rural carrier intercepted any letters
Special agents also investigate postal employees who delay,     to customers concerning these credit cards, as well as
desert, or dump mail. The following cases were investigated     packages ordered on the Internet in postal customers’
during this period.                                             names. As part of her plea agreement, the rural carrier
 In December, prosecution of a Michigan city carrier was       resigned from the Postal Service in September 2009.
  deferred per an agreement, part of which required the
  carrier to resign from the Postal Service. In August 2009,    CONTRACT FRAUD
  we observed the carrier transferring what appeared to
  be mail from his postal vehicle to his personal vehicle.      The sheer volume and huge dollar value of contracts
  Special agents then went to the carrier’s residence           provides opportunities for contractors and employees
  where they recovered more than 20,000 pieces of mail,         to defraud the Postal Service. Today the Postal Service
  some dating to August 2008. In September 2009, the            manages billions in contracts, ranging from multi-million
  carrier was arrested on a federal warrant and charged
  with delay and theft of mail. The city carrier resigned in
  December 2009.
 A Florida highway contract route (HCR) carrier was
  sentenced in December, to 3 years’ probation and
  100 hours of community service after pleading guilty
  to delay and destruction of mail. The carrier failed to
  deliver mail entrusted to her, took mail to her residence,
  and burned some of the mail in her backyard. A search
  of the carrier’s residence resulted in the recovery of
  approximately 40 large containers of various classes of
  mail, including First-Class Mail. Our special agents also
  found suspected marijuana and drug paraphernalia.
  Postal management terminated the carrier’s contract and
  the Postal Service is pursuing costs of nearly $7,000,
  due to the contractor defaulting on the contract.




                                                                Special agents went to a Michigan city carrier’s residence where they recovered more than 20,000 pieces of
                                                                mail, some dating to August 2008.




                                                                                                                                        October 1, 2009 – March 31, 2010 | 21
OFFICIAL MISCONDUCT




                                     dollar national contracts for services such as transportation   OFFICIAL MISCONDUCT
                                     networks and IT infrastructures, to local contracts for
                                     supplies and services at individual postal facilities. The      Postal Service employees are guilty of misconduct when they:
                                     OIG aids the Postal Service by investigating allegations         Misuse Postal Service computers.
                                     of contract fraud, waste, and misconduct. When contract
                                                                                                      Destroy or steal postal property.
                                     improprieties are documented, special agents present
                                     the evidence for criminal and civil prosecution and              Lie or forge signatures on official documents.
                                     administrative remedies.                                         Steal funds.
                                     During this reporting period, we conducted 62 contract           Abuse authority.
                                     fraud investigations, resulting in 13 arrests and more than      Sabotage operations.
                                     $1 million in funds returned to the Postal Service. Following    Use narcotics or sell drugs while on duty.
                                     are examples of recent contract fraud investigations by
                                     special agents.                                                  Abuse alcohol while on duty

                                      Based on our investigation, in December a Texas hub-          Illegal drugs in the workplace can negatively impact
                                       and-spoke contractor who performed terminal handling          employee productivity and safety, affect employee judgment,
                                       services and Christmas contracts at airport terminals,        increase stress levels, and lead to acts of violence or
                                       entered into a $775,000 civil settlement agreement with       hostility. Use and sale of narcotics on duty by employees
                                       the Postal Service through the U.S. Attorney’s Office.        can also contribute to other crimes such as theft,
                                       The investigation centered on false claims for payment        embezzlements, and fraudulent workers’ compensation
                                       and payment retention by the contractor under various         claims. Special agents are charged with investigating postal
                                       terminal handling service contracts. We found that the        employees selling narcotics while on postal property or
                                       contractor was fraudulently charging the Postal Service       while on duty. Our efforts in dealing with illegal drugs in the
                                       for employee hourly wages when those employees were           workplace focus on detection, investigation, and prevention.
                                       working on non-postal contracts located within the same       Detection of illegal drug sales, distribution, and usage in
                                       facility. Additionally, the contractor fraudulently charged   the workplace is the first step in this overall approach.
                                       the Postal Service contract hourly rates in excess of the     Employees selling or distributing illegal drugs are vigorously
                                       rates actually paid to its contract employees.                investigated and prosecution is pursued.
                                      In October, a landlord withdrew a false equitable             For the 6-month period, special agents investigated 67
                                       adjustment claim against the Postal Service. As               cases of postal employees suspected of possessing
                                       background, in the early 1990s, the landlord and the          or using illegal drugs on duty, and 23 employees were
                                       Postal Service entered into a 10-year lease with a 5-year     removed from the Postal Service.
                                       renewal option and second 5-year negotiated option for
                                       a Virginia postal facility. In February 2008, the landlord    Following are examples of cases the OIG investigated
                                       submitted an equitable adjustment claim that we               involving employee misconduct.
                                       determined was false and had already been paid for in
                                       the common area maintenance payments. The resulting            In January, a sales, services, and distribution associate
                                       settlement agreement allowed the Postal Service to              (SSDA), who was also the treasurer of an American
                                       retain more than $15,000 from monies that were being            Postal Workers Union (APWU) Local in Georgia, was
                                       withheld from rental payments and ultimately resulted in        sentenced in federal court to 5 years’ probation and
                                       a savings to the Postal Service of more than $514,000.          ordered to pay more than $16,000 in restitution to
                                                                                                       the APWU. The SSDA had previously pled guilty to
                                      In September 2009, an Ohio HCR contractor pled guilty           embezzling those APWU funds as established during
                                       to 6 misdemeanor counts of theft for failing to obtain          a joint OIG and DOL Office of Labor Management
                                       workers’ compensation insurance on Postal Service HCR           Standards investigation. The SSDA was removed from
                                       contracts. The contractor was sentenced to 180 days             the Postal Service.
                                       incarceration that was suspended, and ordered to pay
                                       restitution of $30,000 to the Ohio Bureau of Workers’          In November, a postmaster relief in Texas pled guilty
                                       Compensation. Our investigation disclosed that the              (along with two non-Postal Service co-conspirators)
                                       Postal Service paid the contractor more than $20,000            to one count of conspiracy to possess with intent to
                                       to obtain workers’ compensation insurance on his five           distribute more than 100 kilograms of marijuana.
                                       postal contracts. During an interview with Special Agents,      Sentencing is pending. The joint investigation with
                                       the HCR contractor admitted that although he was paid           federal and state investigators linked the employee to
                                       by the Postal Service to obtain workers’ compensation           a narcotics smuggling operation that used a Texas Post
                                       insurance, he failed to do so.                                  Office to ship parcels containing narcotics to locations




22 | Semiannual Report to Congress
                                                                                                                   EXECUTIVE INVESTIGATIONS AND INTERNAL AFFAIRS




  throughout the U.S. The postmaster relief accepted some       EXECUTIVE INVESTIGATIONS
  parcels while on the clock and entered the Post Office        AND INTERNAL AFFAIRS
  after hours on days when she did not work to mail other
  drug parcels. She was also issued a Letter of Demand          OI conducts criminal and administrative investigations of
  from the Postal Service for a $1,172 shortage identified      Postal Service executives, and OIG and Postal Inspection
  in her Post Office. The shortage was attributed to the        Service personnel, as well as whistleblower reprisal
  postmaster relief entering the Post Office after hours        investigations.
  and printing postage meter labels for parcels containing
  narcotics. The postmaster relief was removed from the         Whistleblower Reprisal Activity
  Postal Service. A Minnesota city carrier, who pled guilty
                                                                The Whistleblower Protection Act does not apply to the
  in December to state charges of possession and selling
                                                                Postal Service. However, the Postal Service has its own
  drugs, was sentenced to two concurrent year-and-a-
                                                                policy governing whistleblower retaliation. The policy
  day sentences on each of the felony counts. However,
                                                                prohibits retaliation against an employee who has disclosed
  his sentencing was reduced to serving 6 months in a
                                                                information he or she reasonably believes to be:
  workhouse and 10 years’ probation. The carrier was
  removed from the Postal Service. The investigation,           1) a violation of any rule, law or policy, or 2) a gross waste
  conducted jointly with the Minnesota Bureau of Criminal       of funds, gross mismanagement, abuse of authority, or a
  Apprehension and the Drug Enforcement Administration          substantial and specific danger to public health or safety.
  (DEA), revealed that while on the clock the carrier
  was found to be in possession of drug paraphernalia,          Allegations received: .................................................. 110
  marijuana, and methamphetamines. The carrier admitted         OIG investigations initiated:........................................... 30
  to using drugs while on the clock and to selling portions     Investigations closed with no finding of retaliation
  of drugs he purchased to offset the cost of his personal        or deferred to other adjudicative body:......................... 14
  drug use. A search warrant of the carrier’s residence         Allegations closed with no action:.................................. 71
  recovered approximately 130 marijuana plants, drug            Open investigations: ..................................................... 25
  paraphernalia, scales, and chemicals and equipment            OIG found reprisal: ......................................................... 1
  typically used in the manufacture of methamphetamines.
 In January, two Massachusetts city carriers pled guilty in
  federal court to drug conspiracy and possession charges.
  One carrier was sentenced to 18 months’ imprisonment,
  to be followed by 36 months of supervised release while
  the second was sentenced to 8 months’ imprisonment,
  with 36 months of supervised release. Both city carriers
  were removed from the Postal Service. A joint investigation
  with the DEA into drug activity at a General Mail Facility
  determined that the carriers were selling drugs while on
  the clock and on postal property. Both were arrested in
  October 2008 pursuant to federal criminal complaints
  for conspiracy to possess with intent to distribute and
  Distribution of Oxycodone. The city carriers were indicted
  on the same charges in January 2009.




                                                                A Minnesota city carrier, who pled guilty in December to state
                                                                charges of possession and selling drugs, was sentenced to two
                                                                concurrent year-and-a-day sentences on each of the felony counts.




                                                                                                                                                  October 1, 2009 – March 31, 2010 | 23
APPENDICES
                                                                                                                                                      APPENDIX A




APPENDICES
The Inspector General (IG) Act of 1978 requires semiannual reports on the immediately preceding 6-month periods ending September 30 and March 31. These
reports are sent to Congress and made available to the public.

This report summarizes OIG activities and illustrates significant problems, abuses, and deficiencies, along with recommendations and corrective actions related
to the administration of U.S. Postal Service programs and operations during the reporting period.

The appendices on the following pages fulfill the requirements of the Act.

APPENDIX A
Reports Issued to Postal Service Management
For the Period October 1, 2009 – March 31, 2010

OIG audit teams conduct performance and financial audits, evaluations, and other reviews to address the business of the Postal Service. Each team issues audit
reports (AR) or management advisory reports (MA) in accordance with the identified needs of the project.

Summary
                                                                                                                         Unsupported
Vision Categories                   Number of Reports     Funds Put to Better Use         Questioned Costs           Questioned Costs               Revenue Impact
Focusing on What Matters Most                        5               $22,388,109                 $1,011,280                         —                       $162,581
to Customers
Leveraging the Postal Service's                     24               $371,474,330              $112,642,332                $9,046,661                               —
Strengths
Embracing Change                                     1                           —                       —                          —                               —
Regulatory Studies and                               2                           —                       —                          —                               —
Reporting Obligations
Preserving Accountability                         156                        $74,833            $11,067,826                 $5,637,145                      $421,358
TOTAL                                             188               $393,937,272              $124,721,438                $14,683,806                       $583,939




   Definitions:
   Questioned Costs. A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, and so forth.

   Unsupported Costs. A cost that is not supported by adequate documentation. Unsupported costs are included with the amounts shown as
   Questioned Costs.

   Funds Put to Better Use. Funds that could be used more efficiently by implementing recommended actions.

   Revenue Impact. Amounts from revenue generating functions such as retail sales, rent, leases, or fees that were underpaid or not realized. In
   addition, this category includes increased revenue from existing functions and generating revenue from new sources.




                                                                                                                                  October 1, 2009 – March 31, 2010 | 25
APPENDIX A




Reports With Quantifiable Potential Monetary Benefits
                                                                                    Funds Put                            Unsupported
                                                                                 to Better Use   Questioned Costs    Questioned Costs   Revenue Impact
FOCUSING ON WHAT MATTERS MOST TO CUSTOMERS
Delivery
City Delivery Efficiency Review — San Francisco Napoleon Street Station;           $21,308,433                 —                  —                 —
DR-AR-10-002; 12/18/2009
Engineering
Capital Metro Area: Reducing Pieces at Risk; DA-AR-10-001; 2/26/2010                $1,079,676          $1,011,280                —                 —
Fiscal Year 2009 U.S. Postal Service Financial Statements Audit
Los Angeles International Service Center — Inbound International Mail;                     —                   —                  —            $162,581
FT-AR-10-001; 10/13/2009


LEVERAGING THE POSTAL SERVICE’S STRENGTHS
Delivery
Continuing Use of Carrier Sequence Barcode Sorter Machines at Delivery Units;       $3,011,956                 —                  —                 —
DR-AR-10-004; 3/31/2010
Rural Delivery Christmas Operations; DR-AR-10-003; 3/16/2010                        $2,955,524                 —                  —                 —
Use of the Carrier Optimal Routing System; DR-AR-10-001; 10/15/2009               $221,337,796        $101,820,325                —                 —
Human Resources and Security
Grievance Overpayments in the Baltimore District; HR-AR-10-001; 3/8/2010                   —            $1,669,669                —                 —
Saved Grade Status and Temporary Assignments — Postal Service Headquarters;                —              $67,629             $67,629               —
HM-MA-10-001; 12/22/2009
Network Optimization
Excess Mail Processing Equipment in the Portland District;                           $520,538             $46,206                 —                 —
EN-AR-10-002; 1/11/2010
Network Processing
Dallas Processing and Distribution Center Outgoing Mail Consolidation;            $114,041,172                 —                  —                 —
NO-AR-10-003; 2/24/2010
Powered Industrial Vehicle Management System at the Indianapolis Processing         $7,913,246                 —                  —                 —
and Distribution Center; NO-AR-10-004; 3/29/2010
Supply Management
Office Supplies National Contract Compliance; CA-AR-10-002; 12/3/2009                 $51,388           $9,014,558         $8,979,032               —
Transportation
Handling and Transportation of Large and Lightweight First-Class Mail Parcels;         $47,890            $23,945                 —                 —
NL-MA-10-001; 1/28/2010
Highway Contract Route Transportation — Greater Chicago;                            $3,325,251                 —                  —                 —
NL-AR-10-003; 3/1/2010
Postal Vehicle Service Transportation Routes — Cardiss Collins Processing and      $18,269,569                 —                  —                 —
Distribution Center; NL-AR-10-002; 12/28/2009


PRESERVING ACCOUNTABILITY
Field Financial
Capital District Financial Risk Audit; FF-AR-10-075; 1/19/2010                             —              $20,434             $15,774               —
Elmwood Station Financial Risk; FF-AR-10-026; 11/30/2009                                   —                $7,763                —                 —
Evaluation of Locally Issued Salary Advances; FF-AR-10-122; 3/17/2010                      —             $333,816             $78,900               —




26 | Semiannual Report to Congress
                                                                                                                                                   APPENDIX A




                                                                                       Funds Put                           Unsupported
                                                                                    to Better Use   Questioned Costs   Questioned Costs        Revenue Impact
Fiscal Year 2009 Financial Accountability Risk Audit Elizabeth Main Post Office —             —              $10,511            $10,511                     $3,028
Elizabeth, NJ; FF-AR-10-050; 12/16/2009
Fiscal Year 2009 Los Angeles District Financial Risk; FF-AR-10-028; 12/3/2009                 —             $104,540            $90,851                   $145,611
Gateway District Financial Accountability Risk Audit; FF-AR-10-047; 12/15/2009                —             $170,631           $165,068                          —
Imprudent Purchases and Management Instruction on Expenses for Internal and                   —             $792,022                  —                          —
External Events; FF-AR-10-025; 12/3/2009
New York Metro Area Financial Accountability Risk Audit;                                      —             $110,962            $19,157                     $3,553
FF-AR-10-013; 11/13/2009
Parkmoor Station Financial Risk; FF-AR-10-027; 12/1/2009                                      —               $9,913                  —                          —
Use of No-Fee Money Orders Follow-Up Audit; FF-AR-10-033; 12/4/2009                           —           $4,855,832         $4,685,936                          —
Vending Operations Closure and Financial Risk; FF-MA-10-001; 3/10/2010                        —                  —                    —                    $16,742
Financial Reporting
Controls Over Money Orders; FT-AR-10-009; 2/22/2010                                           —             $367,550           $367,550                   $165,166
Fiscal Year 2009 Postal Service Financial Statements Audit
St. Louis Information Technology and Accounting Service Center;                           $74,833            $49,089                  —                          —
FT-AR-10-006; 1/28/2010
Fiscal Year 2010 Financial Installation Audit
Baltimore Main Office Window — Baltimore, MD; FF-AR-10-071; 1/7/2010                          —              $49,670            $48,845                          —
Bear Creek Station — Houston, TX; FF-AR-10-098; 2/17/2010                                     —               $1,032             $1,032                       $679
Boca Raton Business Mail Entry Unit — Boca Raton, FL; FF-AR-10-085; 2/1/2010                  —                  —                    —                     $1,800
Burbank Downtown Station — Burbank, CA; FF-AR-10-110; 3/1/2010                                —              $10,710            $10,710                          —
Burlington Business Mail Entry Unit — Essex Junction, VT;                                     —                  —                    —                     $8,494
FF-AR-10-102; 2/19/2010
Canoga Park Main Post Office — Canoga Park, CA; FF-AR-10-113; 3/3/2010                        —               $1,977             $1,977                          —
Castle Shannon Branch — Pittsburgh, PA; FF-AR-10-090; 2/3/2010                                —               $1,448             $1,448                          —
Cedar Park Main Office — Cedar Park, TX; FF-AR-10-124; 3/15/2010                              —               $3,838               $555                          —
Chester Post Office — Chester, PA; FF-AR-10-129; 3/17/2010                                    —               $4,009             $4,009                       $194
Church Street Station — New York, NY; FF-AR-10-011; 11/9/2009                                 —              $15,824            $13,962                          —
Cincinnati Main Office Station — Cincinnati, OH; FF-AR-10-039; 12/7/2009                      —              $16,633            $16,633                          —
Dallas Main Post Office — Dallas, TX; FF-AR-10-009; 11/6/2009                                 —                $948                $821                     $3,157
Denver Capitol Hill Station — Denver, CO; FF-AR-10-038; 12/7/2009                             —               $5,359             $5,359                          —
Eagle Station Post Office — Bloomington, IL; FF-AR-10-106; 3/2/2010                           —               $5,967             $3,936                          —
Frayser Station — Memphis, TN; FF-AR-10-094; 2/5/2010                                         —               $2,830             $2,830                          —
Hanover Business Mail Entry Unit — Hanover, NH; FF-AR-10-079; 1/20/2010                       —                  —                    —                    $10,376
Houston General Post Office Window Main Office — Houston, TX;                                 —               $1,004                $88                          —
FF-AR-10-100; 2/18/2010
Huntington Beach Main Post Office — Huntington Beach, CA;                                     —               $6,264             $6,264                          —
FF-AR-10-096; 2/8/2010
Irvine Main Post Office — Irvine, CA; FF-AR-10-103; 2/23/2010                                 —               $1,444                  —                          —
Kent Business Mail Entry Unit — Kent, OH; FF-AR-10-076; 1/14/2010                             —                  —                    —                     $4,161
LAX Main Office Station — Los Angeles, CA; FF-AR-10-126; 3/15/2010                            —               $6,864                  —                          —




                                                                                                                               October 1, 2009 – March 31, 2010 | 27
APPENDIX A




                                                                                  Funds Put                            Unsupported
                                                                               to Better Use   Questioned Costs    Questioned Costs   Revenue Impact
Long Beach Business Mail Entry Unit — Long Beach, CA; FF-AR-10-069; 1/7/2010             —                   —                  —             $1,846
Manassas Main Office Window — Manassas, VA; FF-AR-10-070; 1/7/2010                       —               $2,826              $2,826               —
Medina Main Post Office — Medina, OH; FF-AR-10-091; 2/3/2010                             —                 $502               $502            $1,639
Midway Main Office Window — San Diego, CA; FF-AR-10-086; 2/1/2010                        —               $11,502                —                 —
Newport Post Office — Newport, MN; FF-AR-10-128; 3/17/2010                               —                   —                  —             $2,250
Oakland Business Mail Entry Unit — Oakland, CA; FF-AR-10-040; 12/7/2009                  —                   —                  —             $7,663
Orange Main Post Office, Orange, CA; FF-AR-10-002; 10/30/2009                            —              $16,973               $696                —
Orangeburg Business Mail Entry Unit — Orangeburg, NY;                                    —               $10,790            $10,790               —
FF-AR-10-036; 12/7/2009
Plano Business Mail Entry Unit — Plano, TX; FF-AR-10-064; 12/30/2009                     —                   —                  —             $1,288
Portland Business Mail Entry Unit — Portland, OR; FF-AR-10-097; 2/16/2010                —                   —                  —            $16,440
Raleigh Business Mail Entry Unit — Raleigh, NC; FF-AR-10-095; 2/8/2010                   —                   —                  —            $19,208
Tustin Main Post Office — Tustin, CA; FF-AR-10-001; 10/30/2009                           —                $7,325              $903                —
Tyler Business Mail Entry Unit — Tyler, TX; FF-AR-10-077; 1/15/2010                      —                   —                  —                 —
Village Station — Los Angeles, CA; FF-AR-10-130; 3/18/2010                               —              $60,473             $60,473           $1,585
Wellshire Station — Denver, CO; FF-AR-10-016; 11/13/2009                                 —               $3,995              $3,995               —
West Palm Beach Business Mail Entry Unit — West Palm Beach, FL;                          —                   —                  —             $5,626
FF-AR-10-053; 12/17/2009
West Palm Beach Main Office Window Unit — West Palm Beach FL;                            —               $3,538              $3,538             $852
FF-AR-10-056; 12/21/2009
West Seattle Station — Seattle, WA; FF-AR-10-043; 12/9/2009                              —                $1,206             $1,206               —
Human Resources and Security
Postal Service Absenteeism; HM-AR-10-001; 2/18/2010                                      —            $3,979,812                —                 —
TOTAL                                                                          $393,937,272         $124,721,438        $14,683,806         $583,939




28 | Semiannual Report to Congress
                                                                                                                                                    APPENDIX A




Report Listing
Complete listing of all OIG reports issued to Postal Service management.

For the period October 1, 2009 – March 31, 2010


FOCUSING ON WHAT MATTERS                              Network Optimization                                 Transportation
MOST TO CUSTOMERS                                     Excess Mail Processing Equipment in the Portland     Handling and Transportation of Large and
Delivery                                              District; EN-AR-10-002; 1/11/2010                    Lightweight First-Class Mail Parcels;
                                                                                                           NL-MA-10-001; 1/28/2010
City Delivery Efficiency Review —                     Lakeland Processing and Distribution Center
San Francisco Napoleon Street Station;                Consolidation; EN-AR-10-004; 2/12/2010               Highway Contract Route Transportation —
DR-AR-10-002; 12/18/2009                                                                                   Greater Chicago; NL-AR-10-003; 3/1/2010
                                                      Manasota Processing and Distribution Center
Engineering                                           Consolidation; EN-AR-10-003; 2/12/2010               Management of Mail Transport Equipment —
Capital Metro Area: Reducing Pieces at Risk;                                                               Eastern Area; NL-AR-10-004; 3/17/2010
                                                      Mojave Post Office Mail Processing Changes;
DA-AR-10-001; 2/26/2010                               EN-MA-10-002; 1/21/2010                              Management of Mail Transport Equipment —
Fiscal Year 2009 U.S. Postal Service                                                                       Pacific Area; NL-AR-10-001; 10/22/2009
                                                      Network Distribution Center Phase 1 Activation;
Financial Statements Audit                            EN-MA-10-001; 11/6/2009                              Postal Vehicle Service Transportation Routes —
Los Angeles International Service Center —                                                                 Cardiss Collins Processing and Distribution Center;
                                                      Status Report on the Postal Service’s
Inbound International Mail;                                                                                NL-AR-10-002; 12/28/2009
                                                      Network Rationalization Initiatives;
FT-AR-10-001; 10/13/2009                              EN-AR-10-001; 1/7/2010                               EMBRACING CHANGE
Network Optimization                                  Network Processing                                   Engineering & Facilities
Color-Coding of Standard Mail and Mail Condition      Dallas Processing and Distribution Center Outgoing   Sustainability: Promoting Energy and Recycling
Reporting at the Albany Processing and Distribution   Mail Consolidation; NO-AR-10-003; 2/24/2010          Compliance Fiscal Year 2009;
Center; NO-AR-10-005; 3/31/2010                                                                            DA-MA-10-001; 1/28/2010
                                                      New Castle Processing and Distribution
Sales & Services                                      Facility Outgoing Mail Consolidation;                REGULATORY STUDIES AND
Plant-Verified Drop Shipment Controls;                NO-AR-10-002; 2/1/2010                               REPORTING OBLIGATIONS
MS-AR-10-001; 2/9/2010                                Powered Industrial Vehicle Management System         Cost, Revenue, and Rates
LEVERAGING THE POSTAL                                 at the Indianapolis Processing and Distribution      Management of Special Studies;
SERVICE’S STRENGTHS                                   Center; NO-AR-10-004; 3/29/2010                      CRR-AR-10-002; 3/19/2010
Delivery                                              Powered Industrial Vehicle Management System         Statistical Testing at Postal Service Districts;
                                                      at the Tampa Processing and Distribution Center;     CRR-AR-10-001; 1/28/2010
Continuing Use of Carrier Sequence                    NO-AR-10-001; 12/14/2009
Barcode Sorter Machines at Delivery Units;                                                                 PRESERVING ACCOUNTABILITY
DR-AR-10-004; 3/31/2010                               Supply Management
                                                                                                           Field Financial
Rural Delivery Christmas Operations;                  NCR Government Systems, LLC’s Billed
                                                      Direct Labor Hours for FY 2009;                      Capital District Financial Risk Audit;
DR-AR-10-003; 3/16/2010
                                                      CA-CAR-10-002; 3/30/2010                             FF-AR-10-075; 1/19/2010
Use of the Carrier Optimal Routing System;
                                                      Office Supplies National Contract Compliance;        Elmwood Station Financial Risk;
DR-AR-10-001; 10/15/2009
                                                      CA-AR-10-002; 12/3/2009                              FF-AR-10-026; 11/30/2009
Human Resources and Security
                                                      Proposal Submitted by Western                        Evaluation of Locally Issued Salary Advances;
Grievance Overpayments in the Baltimore District;     Industrial Contractors Incorporated;                 FF-AR-10-122; 3/17/2010
HR-AR-10-001; 3/8/2010                                CA-CAR-10-001; 3/12/2010                             Fiscal Year 2009 Financial Accountability Risk
Saved Grade Status and Temporary                      Revenue Generation Efforts in Supply                 Audit Elizabeth Main Post Office — Elizabeth, NJ;
Assignments — Postal Service Headquarters;            Management; CA-AR-10-001; 11/9/2009                  FF-AR-10-050; 12/16/2009
HM-MA-10-001; 12/22/2009
                                                                                                           Fiscal Year 2009 Los Angeles District Financial
                                                                                                           Risk; FF-AR-10-028; 12/3/2009




                                                                                                                                October 1, 2009 – March 31, 2010 | 29
APPENDIX A




Gateway District Financial Accountability Risk          St. Louis Information Technology and Accounting       Byron Center Business Mail Entry Unit —
Audit; FF-AR-10-047; 12/15/2009                         Service Center; FT-AR-10-006; 1/28/2010               Byron Center, MI; FF-AR-10-134; 3/24/2010
Greater South Carolina District Financial Risk Audit;   Washington, DC, Headquarters;                         Canoga Park Main Post Office —
FF-AR-10-049; 12/16/2009                                FT-AR-10-005; 11/30/2009                              Canoga Park, CA; FF-AR-10-113; 3/3/2010
Imprudent Purchases and Management Instruction          Fiscal Year 2010 Financial Installation Audit         Castle Shannon Branch — Pittsburgh, PA;
on Expenses for Internal and External Events;           Abilene Permit Business Mail Entry Unit —             FF-AR-10-090; 2/3/2010
FF-AR-10-025; 12/3/2009                                 Abilene, KS; FF-AR-10-117; 3/8/2010                   Cedar Park Main Office — Cedar Park, TX;
New York Metro Area Financial Accountability Risk       Akron Main Office Station — Akron, Ohio;              FF-AR-10-124; 3/15/2010
Audit; FF-AR-10-013; 11/13/2009                         FF-AR-10-031; 12/1/2009                               Cedar Rapids Business Mail Entry Unit —
Parkmoor Station Financial Risk;                        Albuquerque Mountain Run Post Office Express —        Cedar Rapids, IA; FF-AR-10-066; 1/13/2010
FF-AR-10-027; 12/1/2009                                 Albuquerque, NM; FF-AR-10-114; 3/3/2010               Chester Business Mail Entry Unit — Chester, PA;
Statistical Tests for Fiscal Year 2009 — Cost and       Allendale Business Mail Entry Unit —                  FF-AR-10-123; 3/15/2010
Revenue Analysis; FF-AR-10-015; 11/20/2009              Allendale, NJ; FF-AR-10-052; 12/16/2009               Chester Post Office — Chester, PA;
Use of No-Fee Money Orders Follow-Up Audit;             Anaheim Business Mail Entry Unit —                    FF-AR-10-129; 3/17/2010
FF-AR-10-033; 12/4/2009                                 Anaheim, CA; FF-AR-10-044; 12/9/2009                  Church Street Station — New York, NY;
Vending Operations Closure and Financial Risk;          Arroyo Grande Post Office — Arroyo Grande, CA;        FF-AR-10-011; 11/9/2009
FF-MA-10-001; 3/10/2010                                 FF-AR-10-118; 3/8/2010                                Cincinnati Main Office Station — Cincinnati, OH;
Financial Reporting                                     Avoca Post Office — Avoca, NY;                        FF-AR-10-039; 12/7/2009
Controls Over Money Orders;                             FF-AR-10-004; 11/3/2009                               Crosstown Station — Memphis, TN;
FT-AR-10-009; 2/22/2010                                                                                       FF-AR-10-087; 2/1/2010
                                                        Babylon Post Office — Babylon, NY;
Opinion on the Postal Service’s Special Purpose         FF-AR-10-131; 3/19/2010                               Dallas Main Post Office — Dallas, TX;
Financial Statements; FT-AR-10-003; 11/16/2009                                                                FF-AR-10-009; 11/6/2009
                                                        Baltimore Main Office Window — Baltimore, MD;
Postal Service Sarbanes-Oxley Information               FF-AR-10-071; 1/7/2010                                Danville Business Mail Entry Unit — Danville, PA;
Technology Fiscal Year 2009 Preparatory Testing;                                                              FF-AR-10-127; 3/16/2010
                                                        Bear Creek Station — Houston, TX;
FT-AR-10-011; 2/26/2010
                                                        FF-AR-10-098; 2/17/2010                               Dayton Business Mail Entry Unit — Dayton, OH;
U.S. Postal Service Ethics Program;                                                                           FF-AR-10-068; 1/7/2010
                                                        Bloomfield Business Mail Entry Unit —
FT-AR-10-010; 2/23/2010
                                                        Bloomfield, IN; FF-AR-10-135; 3/26/2010               De Pere Post Office — De Pere, WI;
Fiscal Year 2009 Financial Installation Audit                                                                 FF-AR-10-029; 11/30/2009
                                                        Boca Raton Business Mail Entry Unit —
Business Mail Entry Units;                              Boca Raton, FL; FF-AR-10-085; 2/1/2010                Denver Capitol Hill Station — Denver, CO;
FF-AR-10-051; 12/22/2009                                                                                      FF-AR-10-038; 12/7/2009
                                                        Boston Business Mail Entry Unit — Boston, VA;
Post Offices, Stations, and Branches;                   FF-AR-10-081; 1/22/2010                               Eagle Station Post Office — Bloomington, IL;
FF-AR-10-045; 12/14/2009                                                                                      FF-AR-10-106; 3/2/2010
                                                        Boulder Valmont Station — Boulder, CO;
Fiscal Year 2009 Postal Service Financial               FF-AR-10-108; 2/25/2010                               East Aurora Post Office — East Aurora, NY;
Statements Audit                                                                                              FF-AR-10-006; 11/4/2009
                                                        Bountiful Business Mail Entry Unit — Bountiful, UT;
Eagan Information Technology and Accounting             FF-AR-10-073; 1/8/2010                                East Pittsburgh Post Office — East Pittsburgh, PA;
Service Center; FT-AR-10-004; 11/20/2009                                                                      FF-AR-10-099; 2/17/2010
                                                        Breckenridge Business Mail Entry Unit —
Postal Service Board of Governors’ Travel and           Breckenridge, CO; FF-AR-10-048; 12/11/2009            Elberon Branch — Long Branch, NJ;
Miscellaneous Expenses for Fiscal Year 2009;                                                                  FF-AR-10-136; 3/29/2010
                                                        Brunswick Business Mail Entry Unit —
FT-AR-10-002; 11/5/2009
                                                        Brunswick, ME; FF-AR-10-112; 3/3/2010                 Elgin Post Office — Elgin, IL;
Postal Service Officers’ Travel and Representation                                                            FF-AR-10-105; 2/24/2010
                                                        Burbank Downtown Station — Burbank, CA;
Expenses for Fiscal Year 2009;
                                                        FF-AR-10-110; 3/1/2010                                Eureka Downtown Station — Eureka, CA;
FT-AR-10-007; 2/2/2010
                                                        Burlington Business Mail Entry Unit —                 FF-AR-10-003; 11/2/2009
San Mateo Information Technology and Accounting
                                                        Essex Junction, VT; FF-AR-10-102; 2/19/2010           Everett Business Mail Entry Unit — Everett, WA;
Service Center; FT-AR-10-008; 2/11/2010
                                                                                                              FF-AR-10-060; 12/23/2009




30 | Semiannual Report to Congress
                                                                                                                                               APPENDIX A




Fort Branch Post Office — Fort Branch, IN;          Lindstrom Post Office — Lindstrom, MN;            Orange Main Post Office, Orange, CA;
FF-AR-10-139; 3/31/2010                             FF-AR-10-093; 2/5/2010                            FF-AR-10-002; 10/30/2009
Frayser Station — Memphis, TN;                      Logan Post Office — Logan, UT;                    Orangeburg Business Mail Entry Unit —
FF-AR-10-094; 2/5/2010                              FF-AR-10-138; 3/30/2010                           Orangeburg, NY; FF-AR-10-036; 12/7/2009
Gilbertsville Post Office — Gilbertsville, KY;      Long Beach Business Mail Entry Unit —             Pahrump Business Mail Entry Unit —
FF-AR-10-057; 12/22/2009                            Long Beach, CA; FF-AR-10-069; 1/7/2010            Pahrump, NV; FF-AR-10-063; 12/30/2009
Glendale Business Mail Entry Unit — Glendale, CA;   Lorton Post Office — Lorton, VA;                  Panama City Beach Station — Panama City
FF-AR-10-046; 12/10/2009                            FF-AR-10-022; 11/17/2009                          Beach, FL; FF-AR-10-111; 3/2/2010
Gloversville Business Mail Entry Unit —             Louisville Business Mail Entry Unit —             Paris Post Office — Paris, KY;
Gloversville, NY; FF-AR-10-120; 3/10/2010           Louisville, KY; FF-AR-10-067; 1/4/2010            FF-AR-10-005; 11/13/2009
Gonzales Business Mail Entry Unit —                 Macon Business Mail Entry Unit — Macon, GA;       Perryville Business Mail Entry Unit —
Gonzales, TX; FF-AR-10-054; 12/17/2009              FF-AR-10-062; 12/29/2009                          Perryville, MO; FF-AR-10-084; 2/1/2010
Grangeville Business Mail Entry Unit —              Madison Post Office — Madison, WI;                Plano Business Mail Entry Unit — Plano, TX;
Grangeville, ID; FF-AR-10-065; 12/30/2009           FF-AR-10-034; 12/3/2009                           FF-AR-10-064; 12/30/2009
Hanover Business Mail Entry Unit — Hanover, NH;     Manassas Main Office Window — Manassas, VA;       Plantation Branch — Plantation, FL;
FF-AR-10-079; 1/20/2010                             FF-AR-10-070; 1/7/2010                            FF-AR-10-137; 3/30/2010
Hazel Green Post Office — Hazel Green, KY;          Medina Main Post Office — Medina, OH;             Plantsville Post Office — Plantsville, CT;
FF-AR-10-023; 11/18/2009                            FF-AR-10-091; 2/3/2010                            FF-AR-10-101; 2/18/2010
Hicksville Business Mail Entry Unit —               Middletown Post Office — Middletown, IN;          Portland Business Mail Entry Unit — Portland, OR;
Hicksville, NY; FF-AR-10-074; 1/11/2010             FF-AR-10-061; 12/28/2009                          FF-AR-10-097; 2/16/2010
Hicksville Post Office — Hicksville, NY;            Midlothian Post Office — Midlothian, VA;          Princeton Post Office — Princeton, IN;
FF-AR-10-055; 12/17/2009                            FF-AR-10-014; 11/13/2009                          FF-AR-10-032; 12/3/2009
Homewood Business Mail Entry Unit —                 Midway Main Office Window — San Diego, CA;        Prineville Business Mail Entry Unit —
Homewood, IL; FF-AR-10-083; 1/28/2010               FF-AR-10-086; 2/1/2010                            Prineville, OR; FF-AR-10-082; 1/25/2010
Houston General Post Office Window Main             Minneapolis Commerce Station —                    Quinby Station — Florence, SC;
Office — Houston, TX; FF-AR-10-100; 2/18/2010       Minneapolis, MN; FF-AR-10-089; 2/2/2010           FF-AR-10-037; 12/7/2009
Huntington Beach Main Post Office —                 Mishawaka Business Mail Entry Unit —              Quincy Business Mail Entry Unit — Quincy, IL;
Huntington Beach, CA; FF-AR-10-096; 2/8/2010        Mishawaka, IN; FF-AR-10-088; 2/2/2010             FF-AR-10-059; 12/23/2009
Independence Post Office — Independence, CA;        Mokena Post Office — Mokena, IL;                  Raleigh Business Mail Entry Unit — Raleigh, NC;
FF-AR-10-092; 2/3/2010                              FF-AR-10-104; 2/23/2010                           FF-AR-10-095; 2/8/2010
Irvine Main Post Office — Irvine, CA;               Montgomery Business Mail Entry Unit —             Redwood City Business Mail Entry Unit —
FF-AR-10-103; 2/23/2010                             Montgomery, AL; FF-AR-10-019; 11/16/2009          Redwood City, CA; FF-AR-10-007; 11/5/2009
James C. Brown Jr. Post Office — Las Vegas,         Mount Pleasant Business Mail Entry Unit —         Rehoboth Beach Business Mail Entry Unit —
NV; FF-AR-10-042; 12/9/2009                         Mount Pleasant, IA; FF-AR-10-072; 1/8/2010        Rehoboth, DE; FF-AR-10-035; 12/3/2009
Kent Business Mail Entry Unit — Kent, OH;           Mountain Home Business Mail Entry Unit —          Rexburg Main Post Office — Rexburg, ID;
FF-AR-10-076; 1/14/2010                             Mountain Home, AR; FF-AR-10-125; 3/15/2010        FF-AR-10-017; 11/13/2009
Lady Lake Villages Station — Lady Lake, FL;         Newport Post Office — Newport, MN;                San Antonio General Mail Facility Station —
FF-AR-10-116; 3/8/2010                              FF-AR-10-128; 3/17/2010                           San Antonio, TX; FF-AR-10-020; 11/16/2009
LAX Main Office Station — Los Angeles, CA;          Norfolk Business Mail Entry Unit — Norfolk, VA;   Shelton Post Office — Shelton, NE;
FF-AR-10-126; 3/15/2010                             FF-AR-10-133; 3/23/2010                           FF-AR-10-119; 3/10/2010
Leesburg Business Mail Entry Unit —                 North Kingstown Business Mail Entry Unit —        Sherwood Business Mail Entry Unit —
Leesburg, FL; FF-AR-10-021; 11/16/2009              North Kingstown, RI; FF-AR-10-078; 1/20/2010      Sherwood, OR; FF-AR-10-080; 1/22/2010
Lexington Business Mail Entry Unit —                Oakland Business Mail Entry Unit — Oakland, CA;   Spencer Business Mail Entry Unit — Spencer, IA;
Lexington, SC; FF-AR-10-041; 12/8/2009              FF-AR-10-040; 12/7/2009                           FF-AR-10-010; 11/9/2009




                                                                                                                           October 1, 2009 – March 31, 2010 | 31
APPENDIX A




St. Albans Station Post Office — Jamaica, NY;       Human Resources and Security
FF-AR-10-012; 11/12/2009                            Postal Service Absenteeism;
Stockton Business Mail Entry Unit — Stockton, CA;   HM-AR-10-001; 2/18/2010
FF-AR-10-024; 11/19/2009                            Information Technology
Tampa Main Office Window Unit — Tampa, FL;          Database and Network Access Controls at
FF-AR-10-115; 3/8/2010                              the Information Technology and Accounting
Thurmont Business Mail Entry Unit —                 Service Centers — IS General Controls;
Thurmont, MD; FF-AR-10-107; 2/24/2010               IS-AR-10-001; 12/14/2009
Tipp City Post Office — Tipp City, OH;              Enterprise Architecture Within Information
FF-AR-10-121; 3/11/2010                             Technology; IS-AR-10-004; 1/19/2010
Tustin Main Post Office — Tustin, CA;               Fiscal Year 2009 Information Systems
FF-AR-10-001; 10/30/2009                            General Computer Controls Capping Report;
                                                    IS-AR-10-005; 3/31/2010
Tyler Business Mail Entry Unit — Tyler, TX;
FF-AR-10-077; 1/15/2010                             General Control Review of Human
                                                    Resources Shared Service Center;
Village Station — Los Angeles, CA;
                                                    IS-AR-10-002; 12/22/2009
FF-AR-10-130; 3/18/2010
                                                    Mainframe Access Controls at the Eagan, MN
Waverly Post Office — Waverly, NY;
                                                    and San Mateo, CA Information Technology
FF-AR-10-008; 11/5/2009
                                                    and Accounting Service Centers;
Wellshire Station — Denver, CO;                     IS-AR-10-003; 12/29/2009
FF-AR-10-016; 11/13/2009
                                                    Windows Access Controls at the Information
West Palm Beach Business Mail Entry Unit —          Technology and Accounting Service Centers —
West Palm Beach, FL; FF-AR-10-053; 12/17/2009       IS General Controls FY 2009;
                                                    IS-AR-10-006; 3/24/2010
West Palm Beach Main Office Window Unit —
West Palm Beach FL; FF-AR-10-056; 12/21/2009        Supply Management
West Seattle Station — Seattle, WA;                 Supplier Risk Mitigation in the Supplies Portfolio;
FF-AR-10-043; 12/9/2009                             CA-AR-10-003; 1/7/2010
Wheeling Business Mail Entry Unit — Wheeling, IL;
FF-AR-10-058; 12/22/2009
Williamsburg Business Mail Entry Unit —
Williamsburg, VA; FF-AR-10-109; 2/26/2010
Wrightsville Business Mail Entry Unit —
Wrightsville, GA; FF-AR-10-018; 11/16/2009




32 | Semiannual Report to Congress
                                                                                                                                                          APPENDIX B




APPENDIX B
Findings of Questioned Costs
For the period October 1, 2009 – March 31, 2010

Office of Inspector General
As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of questioned costs in audit reports.

Questioned Cost: A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.


                                                                                                                                                   Unsupported Costs
                                                                                                                                                          Included in
Description                                                                                      Number of Reports      Questioned Costs            Questioned Costs
Reports for which no management decision was made at the beginning of the reporting period                       4                $5,109,983                      $62,131
Reports requiring management decision that were issued during the reporting period                              47              $124,721,438                 $14,683,806
TOTAL                                                                                                           51              $129,831,421                 $14,745,937


Reports for which a management decision was made during the reporting period (i & ii)                           44              $128,587,669                 $14,618,769
   (i) Dollar Value of disallowed cost                                                                                           $45,946,144                  $5,272,187
   (ii) Dollar value of cost not disallowed                                                                                      $82,641,525                  $9,346,582
Reports for which no management decision was made by the end of the reporting period                             7                $1,243,752                     $127,168
Negotiations are ongoing
Reports for which no management decision was made within 6 months of issuance                                    2                 $693,246                       $62,131
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                      1                 $475,322                             —
(See Note 2 for a list of individual reports)



Note 1 — Reports for which no management decision was made within 6 months of issuance:

                                                                                                                                       Unsupported Costs Included
Subject                                                        Report/Case Number            Report Date    Questioned Costs                  in Questioned Costs
Termination Settlement Proposal Submitted by                            CA-CAR-09-019          7/24/2009             $336,849                                          —
C.R. Daniels, Incorporated
Firm Fixed Price Proposal Submitted by                                  CA-CAR-09-020          7/30/2009             $356,397                                     $62,131
Evogen, Incorporated
TOTAL                                                                                                                $693,246                                    $62,131


Note 2 — Reports for which no management decision was made within 1 year of issuance:

                                                                                                                                       Unsupported Costs Included
Subject                                                        Report/Case Number            Report Date    Questioned Costs                  in Questioned Costs
Termination for convenience settlement proposal                         CA-CAR-09-011          3/16/2009             $475,322                                          —
submitted by Northrop Grumman Electronic Systems
TOTAL                                                                                                                $475,322                                          —




                                                                                                                                      October 1, 2009 – March 31, 2010 | 33
APPENDIX C




APPENDIX C
Recommendations That Funds Be Put to Better Use
For the period October 1, 2009 – March 31, 2010

As required by the IG Act, the following pages show the total number of audit reports and the total dollar value of recommendations for funds that can be put to
better use by management.

Funds Put to Better Use: Funds that could be used more efficiently by implementing recommended actions.



Description                                                                                  Number of Reports    Dollar Value
Reports for which no management decision was made at the beginning of the reporting period                 —                —
Reports issued during the reporting period                                                                  13    $ 393,937,272
TOTAL                                                                                                       13   $ 393,937,272


Reports for which a management decision was made during the report period (i & ii)                          13    $ 393,937,272
   (i) Value of recommendations agreed to by management                                                    —     $ 246,880,239
   (ii) Value of recommendations that were not agreed to by management                                     —      $ 147,057,032
Reports for which no management decision was made by the end of the reporting period                       —                —
Reports for which no management decision was made within 6 months of issuance                              —                —
(See Note 1 for a list of individual reports)
Reports for which no management decision was made within 1 year of issuance                                —                —
(See Note 2 for a list of individual reports)


Note 1 — Reports for which no management decision was made within 6 months of issuance
None for this report period


Note 2 — Reports for which no management decision was made within 1 year of issuance
None for this report period




34 | Semiannual Report to Congress
                                                                                                                                                                                       APPENDIX D




APPENDIX D
Reported Non-Monetary Benefits
For the period October 1, 2009 – March 31, 2010

Overview

Many of our audit reports identify areas for improvement that result in non-monetary benefits to the Postal Service. These benefits include improvements to
service, protection of assets and improvements in the reliability of data.



                                                                                                                                     Type of Measure                              Value or Amount
IMPROVED SERVICE
Recommendations that address the Postal Service’s efforts to improve the quality and accessibility of its products                   Number of Recommendations                                       13
and services
Number of customer service audits conducted                                                                                          Number of Audits                                                16


SAFEGUARDING ASSETS
Assets or Accountable Items at Risk
Inadequate internal controls put the value of assets or accountable items (such as cash and stamps) at risk of loss                  Dollar Value                                       $312,250,505
Physical Safety and Security
Dollar value of physical assets (plant, computer equipment, vehicles, and so forth) at risk of loss due to inadequate                Dollar Value                                                    —
physical protection
Recommendations that address the safety and security of Postal Service employees and/or the work environment                         Number of Recommendations                                       —
Number of employee/facility safety and security audits conducted                                                                     Number of Audits                                                18
Information Technology Security
Inadequate controls/protection put the value of data, IT assets (software, networks), and employee work time at risk of loss         Dollar Value                                                    —
Number of data security/IT security audits conducted                                                                                 Number of Audits                                                17
Revenue at Risk
Dollar value of revenue that the Postal Service is at risk of losing. (Mailers seeking alternative solutions for current services)   Dollar Value                                          $1,020,873
Disbursements at Risk
Dollar value of disbursements made where proper Postal Service internal controls and processes were not followed                     Dollar Value                                              $11,484
Goodwill / Branding
An “adverse impact” on goodwill is an actual event/problem that harms the Postal Service’s reputation or a                           Number of Issues Identified                                     14
potential problem that could negatively impact the Postal Service “brand name”


RELIABILITY OF DATA
Records at Risk
Data at risk of corruption or loss due to inadequate internal controls and or protection                                             Number of Data Records at Risk                          $676,667
Dollar value of data used to support management decisions that is not fully supported or completely accurate                         Dollar Value                                       $180,329,459




                                                                                                                                                                   October 1, 2009 – March 31, 2010 | 35
APPENDIX E




APPENDIX E
Reports with Significant Recommendations Pending Corrective Actions
For the period October 1, 2009 – March 31, 2010

As required by the IG Act, the following pages include a list of each audit report for which no management decision has been made by the end of the
reporting period.



                                              Report Title, Recommendation Summary
                                                           R = Recommendation number
   Report Number              Issue Date                   TID = Target Implementation Date
   NO-AR-05-011               6/17/2005       Efficiency of the Los Angeles International Service Center

                                              R-1 — Reduce mail processing workhours by 85,000. TID: October 2010
   HM-AR-06-004               5/19/2006       Postal Service's Injury Compensation Programs' Controversion and Challenge Process in Selected Areas

                                              R-2 — Provide sufficient oversight of injury compensation control offices by including steps to validate the proper tracking and
                                                    monitoring of controverted and challenged claims in the Human Resource Information System and the Claim Control Register
                                                    in their Area Program reviews. TID: June 2010
   HM-AR-06-006               8/29/2006       Postal Service's Grievance-Arbitration Service Centers

                                              R-8 — Automate the processing and payment of arbitrator invoices using an existing Postal Service electronic purchasing system.
                                                    TID: September 2012
   EN-AR-07-002               12/5/2006       Service Implications of Area Mail Processing Consolidations

                                              R-4 — Revise the Collection Point Management System to track changes to collection box pick-up times. TID: September 2010
   SA-AR-07-002               3/30/2007       Postal Service Security Controls and Processes for the Capital Metro Area

                                              R-1 — Provide consolidated standard operating procedures and guidance to assist in performing duties and responsibilities
                                                    consistently and in a timely manner. TID: June 2010

                                              R-4 — Establish requirements for mandatory security training including periodic refresher training, for responsible security personnel
                                                    at the area-, district-, and facility-levels. TID: June 2010

                                              R-5 — Develop performance measures to assess the achievement of security goals. TID: June 2010
   SA-AR-07-003               5/9/2007        Postal Service Security Controls and Processes for the Pacific Area

                                              R-2 — Develop appropriate performance measures for physical security to assess the achievement of security goals and incorporate
                                                    them into performance plans for area-, district-, and field-level security personnel. TID: June 2010
   HM-AR-07-002               5/16/2007       Postal Service’s Workplace Safety and Workplace-Related Injury Reduction Goals and Progress

                                              R-1 — Closely monitor conversion to the SAP Environmental Health and Safety module. Ensure the upgraded system captures costs
                                                    by facility, district/performance cluster, and area office, as well as the costs for identified key categories. TID: September 2010
   IS-AR-07-016               8/20/2007       Audit of Database Administration Practices

                                              R-2 — Establish policies and procedures for the protection and use of sensitive data in the test, development, and production
                                                    environments. TID: March 2010
   IS-A R-07-017              8/29/2007       Separation of Duties at the Eagan, Minnesota; San Mateo, California; and St. Louis, Missouri Information Technology and
                                              Accounting Service Centers

                                              R-1 — Assess the risk of the duties of all Information Technology and Accounting Service Center positions for the purpose of assigning
                                                    these positions as sensitive. TID: September 2010

                                              R-4 — Coordinate with the Postal Inspection Service to ensure the proper clearance level is attributed to employees. TID: March 2010




36 | Semiannual Report to Congress
                                                                                                                                                     APPENDIX E




                             Report Title, Recommendation Summary
                                          R = Recommendation number
Report Number   Issue Date                TID = Target Implementation Date
FT-AR-08-005    1/24/2008    New York International Service Center — Inbound International Mail

                             R-1 — Establish and communicate policies and procedures to address the complete processing and billing cycle for inbound
                                   international mail. TID: April 2010

                             R-3 — Direct International Accounting Branch and appropriate systems personnel to establish controls to ensure that foreign postal
                                   administrations are correctly billed for all valid dispatches, including dispatch numbers used more than once in a calendar year.
                                   TID: April 2010
CRR-AR-08-002   2/12/2008    Security Review of the Electronic Verification System

                             R-2 — Revise Publication 91, Confirmation Services Technical Guide, to require mailers to utilize a secure file transfer method when
                                   transmitting manifests for electronic verification to the Postal Service. TID: April 2010
IS-AR-08-009    3/14/2008    Update Processes for Active Directory and CA-ACF2

                             R-1 — Review the manager roles in the two systems to determine how these roles can be integrated. TID: September 2010

                             R-2 — Review the capabilities and establish requirements for tracking employees assigned to detail positions and how to pass on
                                   timely and accurate data to another system. TID: September 2010
FF-AR-08-131    3/19/2008    Fiscal Year 2007 Financial Installation Audits — Business Mail Entry Units

                             R-2 — Provide proper management oversight and instructions to schedule periodic verifications when Periodicals mailings are
                                   received during non-business hours. TID: April 2010
CRR-AR-08-003   3/31/2008    Application Controls Review of the Electronic Verification System

                             R-2 — Strengthen the edit rules in the Product Tracking System to enforce the requirements for destination entry discounts.
                                   TID: June 2010
FT-AR-08-010    3/31/2008    Fiscal Year 2007 Postal Service Financial Statements Audit — St. Louis Information Technology and Accounting
                                     Service Center

                             R-2 — Modify policies and procedures to include the destination facility validation in the highway extra trips payment process.
                                   TID: April 2010
DA-AR-08-006    6/4/2008     Flats Sequencing System: Production First Article Testing Readiness and Quality

                             R-4 — Develop a recovery schedule to ensure the Preliminary Production Baseline Technical Data Package will be available before the
                                   production First Article Test begins. TID: September 2010

                             R-5 — Ensure that the initial Maintenance Diagnostic and Support System and the Program Control System functionalities are available
                                   for First Article Testing and develop a schedule for future design releases. TID: January 2011

                             R-7 — Ensure that the supplier follows the quality control plan and the configuration control process and validates that the first five
                                   production systems are built to the same drawing configuration. TID: May 2010
EN-AR-08-004    7/16/2008    Miami Airport Mail Center Outsourcing

                             R-1 — Perform a post-implementation review to determine the cost savings from the Miami Airport Mail Center outsourcing initiative.
                                   TID: April 2010
FF-MA-08-001    7/21/2008    Fiscal Year 2008 — Use of No-Fee Money Orders

                             R-2 — Evaluate the feasibility of restricting the use of no-fee money orders for local purchases in order to reduce the Postal Service’s
                                   exposure to financial loss. TID: June 2010
SA-AR-08-008    7/23/2008    Leased Facility Maintenance Responsibility in the Great Lakes Area

                             R-2 — Require the Great Lakes Facilities Service Office to collect the $62,625 in recoverable supported questioned costs.
                                   TID: January 2013




                                                                                                                                October 1, 2009 – March 31, 2010 | 37
APPENDIX E




                                           Report Title, Recommendation Summary
                                                        R = Recommendation number
   Report Number              Issue Date                TID = Target Implementation Date
   SA-AR-08-009               7/23/2008    Postal Service Continuity of Operations for the Great Lakes Area

                                           R-1 — Update contact information of key continuity of operations personnel at least semiannually, or more often as changes occur.
                                                 TID: June 2010

                                           R-2 — Complete continuity of operations training, including Postal Alert and Notification System training. TID: June 2010

                                           R-3 — Identify and prioritize essential functions. TID: June 2010

                                           R-4 — Establish a formal review process to ensure continuity of operations plans are completed, updated annually, and maintained
                                                 in the Postal Alert and Notification System, as required. TID: June 2010

                                           R-5 — Establish an area emergency management coordinating committee to provide oversight and assistance to district and facility
                                                 Emergency Management Teams in establishing, implementing, and reviewing emergency management plans. TID: June 2010

                                           R-6 — Establish specific guidance for identifying and selecting alternate facilities, to include, at a minimum, the number of alternate
                                                 facilities that should be identified, and criteria regarding location, mail volume, and mail capacity. TID: June 2010

                                           R-7 — Require personnel responsible for continuity of operations at primary and alternate facilities to conduct tests and exercises
                                                 to ensure alternate facilities can effectively process the primary facilities’ mail. TID: June 2010
   SA-AR-08-010               7/24/2008    Postal Service Continuity of Operations for the Pacific Area

                                           R-1 — Establish a formal review process to ensure continuity of operations plans are completed, updated annually, and maintained
                                                 in the Postal Alert Notification System, as required. TID: June 2010
   SA-AR-08-013               8/22/2008    Security Clearances for Postal Service Employees

                                           R-1 — Establish and implement a policy to periodically assess the risks associated with the duties of all Postal Service positions
                                                 to determine which positions require a security clearance. TID: September 2010

                                           R-2 — Revise the Administrative Support Manual, as appropriate, to reflect changes to the list of positions requiring a security
                                                 clearance. TID: September 2010
   CRR-AR-08-006              8/25/2008    Controls Over the International Reconciliation System

                                           R-2 — Ensure all significant issues identified during Customer Acceptance Test are corrected before placing the software release
                                                 into production. TID: April 2010

                                           R-4 — Promptly incorporate edit requirements provided by the end-user into International Reconciliation System functionality.
                                                 TID: April 2010
   IS-AR-08-016               8/29/2008    Identity Theft Potential in the Change of Address Process

                                           R-1 — Update the Internet and Telephone Change of Address applications to eliminate acceptance of anonymous prepaid credit cards.
                                                 TID: January 2011
   IS-AR-09-001               10/8/2008    Electronic Travel Voucher System Controls

                                           R-1 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to arrange for lodging at the prevailing
                                                 government lodging rate, whenever practical. TID: September 2010

                                           R-2 — Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to obtain prior approval and justify exceeding
                                                 the government lodging rate within the notes on the electronic voucher. TID: September 2010

                                           R-3 — Customize the Electronic Travel Voucher System Controls (ETVS) to require the traveler to input a value in the room tax field
                                                 (even if the room tax is zero) or provide the traveler with a check box to indicate taxes not applicable in cases where the lodging
                                                 stay is tax exempt. TID: September 2010

                                           R-4 — Customize the ETVS to remove the option to combine room rate and room taxes into a single entry. TID: September 2010
   NO-AR-09-001               12/3/2008    Powered Industrial Vehicle Management System at the Louisville, Kentucky Processing and Distribution Center

                                           R-1 — Ensure the Powered Industrial Vehicle Management System at the Louisville P&DC functions as intended and produces
                                                 efficiency improvements. TID: September 2009




38 | Semiannual Report to Congress
                                                                                                                                                  APPENDIX E




                             Report Title, Recommendation Summary
                                          R = Recommendation number
Report Number   Issue Date                TID = Target Implementation Date
DA-AR-09-002    12/24/2008   Radio Frequency Identification Technology: Asset Management.

                             R-1 — Explore opportunities to employ radio frequency identification technology to reduce the amount of losses in pallet inventories.
                                   TID: April 2010
FF-AR-09-055    12/26/2008   Fiscal Year 2008 Financial Installation Audits — Post Offices, Stations, and Branches

                             R-5 — Issue guidance to the field to destroy all copies of Postal Service Form 1096 and determine when all forms have been
                                   destroyed. TID: February 2012
FT-MA-09-001    1/13/2009    Postal Service Management Instruction — Expenses for Internal and External Events

                             R-2 — Consult with senior level management to further update the Management Instruction, Expenses for Internal and External Events
                                   to require that all expenses associated with internal and external events be included in a unique general ledger account(s).
                                   TID: September 2010
DR-AR-09-004    1/30/2009    Vehicle Warranty Claims Process

                             R-5 — Collaborate with vehicle manufacturer's to ensure the Postal Service receives detailed warranty reimbursement data to allow
                                   reconciliation. TID: April 2010
CA-AR-09-002    2/18/2009    The Postal Service’s Certification Process for Non-Mail Freight Transportation Invoices

                             R-1 — Develop and implement written procedures for the independent review of invoices to confirm the receipt of goods and services,
                                   and to ensure accurate payment. TID: May 2010
IS-AR-09-004    2/20/2009    Access Controls in the Enterprise Data Warehouse

                             R-3 — Update the Business Impact Assessment for the Enterprise Data Warehouse and recertify the system as required.
                                   TID: June 2010
DA-AR-09-005    3/31/2009    Recycling Opportunities — Pacific Area

                             R-1 — Provide additional recycling training to maintenance and operations personnel responsible for conducting recycling activities
                                   and expand recycling programs throughout the area. TID: April 2010

                             R-2 — Improve awareness of policies and procedures that; require appropriately designated site personnel to certify the tonnage
                                   of recyclable material and trash collected by contractors. TID: April 2010

                             R-3 — Improve awareness of policies and procedures that; require accurate recording of recycling revenues. TID: April 2010
IS-AR-09-006    3/31/2009    Intelligent Mail Barcode Project Planning and Application Development Life Cycle

                             R-1 — Establish an incremental approach for approval and funding for future project releases. TID: June 2009

                             R-3 — Ensure the Certification and Accreditation process is completed and all residual risks are identified and mitigated before
                                   deploying the IMB Full Service-Seamless Acceptance Service Performance Release 1 application. TID: December 2009
MS-AR-09-006    3/31/2009    Intelligent Mail/Seamless Acceptance Project Management

                             R-1 — Quantify strategic benefits to the Postal Service and mailers. TID: October 2009

                             R-4 — Incorporate effort-based workhour requirement estimates into work plans for future project releases. TID: September 2009

                             R-5 — Develop a risk management plan to address project risks. The plan should define a process for conducting risk management
                                   activities. TID: None

                             R-6 — Develop a procurement plan consistent with the Postal Service’s purchasing guidelines to manage procurements related to the
                                   project. TID: September 2009




                                                                                                                             October 1, 2009 – March 31, 2010 | 39
APPENDIX E




                                           Report Title, Recommendation Summary
                                                        R = Recommendation number
   Report Number              Issue Date                TID = Target Implementation Date
   DA-AR-09-007               4/7/2009     Custodial Maintenance: New York District

                                           R-1 — Update staffing packages to eliminate redundancies in cleaning operations, to include a reduction in cleaning frequencies
                                                 as allowed by Handbook MS-47. TID: June 2010

                                                   Reducing cleaning frequencies from 7 to 4 days would allow for a reduction in labor hours in excess of 118,000 hours at the
                                                   12 sites reviewed. This equates to a reduction in complement of approximately 68 positions and a savings of approximately
                                                   $38.5 million over 10 years. Because this amount is avoidable, we will report this amount in our Semiannual Report to Congress
                                                   as funds put to better use. TID: June 2010

                                           R-2 — Review the benefits of extending contract eligibility to larger postal facilities for inclusion in the next collective bargaining
                                                 agreement beginning November 21, 2010, and subsequently utilize contract staffing to fill custodial positions lost through
                                                 attrition. TID: June 2010
   NO-MA-09-002               5/8/2009     Assessment of Overall Plant Efficiency

                                           R-1 — Reduce 22.9 million workhours by FY 2011 with an associated economic impact of $969 million. We will report $969 million
                                                 in unrecoverable questioned costs in our Semiannual Report to Congress . TID: October 2012
   MS-AR-09-008               5/28/2009    Postal Service Mail Processing Equipment’s Ability To Read Postage On First-Class Mail Letters

                                           R-1 — Develop and disseminate national Standard Operating Procedures for processing and handling Advanced Facer Canceller
                                                 System bypass letters to include procedures for identifying shortpaid and unpaid postage. TID: January 2010

                                           R-2 — Use limited duty and light duty personnel to assist with identifying and processing shortpaid and unpaid letters.
                                                 TID: August 2009

                                           R-3 — Determine the feasibility of modifying the Advanced Facer Canceller System (AFCS) to include postage due and fraudulent
                                                 postage detection software (including detection of reused stamps). These modifications should be considered for upcoming
                                                 AFCS deployments. TID: June 2010

                                           R-4 — Determine the feasibility of mandating that all postage payment methods be encoded with standardized symbol coding, special
                                                 ink, barcode, or other tracking device to allow the Advanced Facer Canceller System to read postage amounts. TID: June 2011

                                           R-5 — Re-evaluate the phosphorescence coding methodology to include raising the coding denomination from the 10-cent stamp
                                                 to the current First-Class Mail card postage. This modification should be considered for upcoming Advanced Facer Canceller
                                                 System deployments. TID: June 2011

                                           R-6 — Determine the causes of shortpaid and overpaid Postage Validation Imprinter labels on First-Class Mail letters and develop
                                                 awareness training for retail employees. TID: None
   CA-AR-09-005               6/1/2009     Supply Management’s Oversight of Delegations of Authority

                                           R-2 — Place minimum control requirements in the Delegations of Authority (DOA) letters that reflect principles that are critical
                                                 to ensuring due diligence and oversight; however, they did not document and implement a process to ensure delegatee
                                                 compliance. Remind delegatees of their responsibility to ensure compliance with their delegation of authority letters and require
                                                 delegatees to certify they have instituted a system of controls and oversight to ensure:
                                                    Best value determinations are performed and documented.
                                                    Annual reports are developed and provided to Supply Management detailing financial activities, including the number of
                                                     contracts or agreements entered into and associated expenditures.
                                                    Annual ethics training is completed and documented for staff involved in administering contracts or agreements.
                                                     TID: December 2010

                                           R-3 — Place minimum control requirements in the DOA letters that reflect principles that are critical to ensuring due diligence and
                                                 oversight; however, they did not document and implement a process to ensure delegatee compliance. Require the Travel,
                                                 Retail, and Temporary Services Category Management Center to develop procedures for collecting reports required under the
                                                 delegations of authority and for reviewing delegatees’ control and oversight systems to ensure the delegation of authority letter
                                                 minimum control requirements are met. If minimum control requirements are not met, discontinuation should be considered,
                                                 with the results and justification documented in an oversight file. TID: December 2010




40 | Semiannual Report to Congress
                                                                                                                                                     APPENDIX E




                              Report Title, Recommendation Summary
                                           R = Recommendation number
Report Number   Issue Date                 TID = Target Implementation Date
DR-AR-09-007    6/30/2009    Vehicle Maintenance Facilities Scheduled Maintenance — National Capping Report

                             R-4 — Establish an effective process for ensuring vehicle maintenance facility management and vehicle Post Office management
                                   include all contract and repair maintenance costs in the Vehicle Maintenance Accounting System or its replacement.
                                   TID: April 2010
NL-AR-09-005    7/17/2009    Postal Vehicle Service Transportation — Philadelphia Bulk Mail Center

                             R-2 — Phase out the additional 8,750 postal vehicle service workhours that management agreed were in excess of the workload.
                                   TID: July 2010

                             R-3 — Ensure the bulk mail center managers periodically assess workload and staffing requirements to maintain appropriate
                                   postal vehicle service staffing levels. TID: October 2010
NO-AR-09-007    7/23/2009    Powered Industrial Vehicle Management System at the Oakland Processing and Distribution Center

                             R-1 — Ensure the Oakland Processing and Distribution Center uses the Powered Industrial Vehicle Management System to the
                                   fullest extent possible to manage operations and continue to improve mail processing efficiency by reducing 38,000
                                   workhours in tow and forklift operations by FY 2011, with an associated economic impact of over $14.5 million present
                                   value dollars in savings occurring over 10 years. TID: December 2011
NL-AR-09-007    7/31/2009    Air Networks — Federal Express Transportation Agreement — Southeast Area

                             R-1 — Use surface transportation to the extent possible for mail that does not require air transportation to meet Postal Service
                                   on-time standards. TID: April 2010

                             R-2 — Transport mail to the maximum extent possible using the service-responsive capacity of passenger airlines under contract
                                   with the Postal Service. TID: April 2010

                             R-3 — Sort mail into bypass containers as appropriate. TID: April 2010
NL-MA-09-001    8/5/2009     Management Advisory — Fuel Management Initiatives for Surface Network Operations — Fuel Purchasing Strategy

                             R-2 — Ensure appropriate allocation of contracting, operational, and financial resources at all levels to support the timely
                                   implementation of the National Fuel Purchasing Strategy. TID: June 2010

                             R-3 — Ensure adequate consideration of project management principles and best practices outlined in the report in planning and
                                   implementing the National Fuel Purchasing Strategy, including development of a project management plan, which includes
                                   project goals, performance measures, baselines and target dates, changes to target dates, and documented reasons for
                                   changes. TID: June 2010

                             R-4 — Develop a risk mitigation plan to address major project risks to help achieve the stated goals of the National Fuel
                                   Purchasing Strategy. TID: June 2010

                             R-5 — Develop measurement factors to monitor achievement of the stated goals of the National Fuel Purchasing Strategy, and
                                   consider including these factors as part of the National Performance Assessment plan as appropriate. TID: June 2010
DA-AR-09-011    8/13/2009    Custodial Maintenance: Nationwide

                             R-1 — Update staffing packages to eliminate duplication in cleaning operations, including an adjustment of cleaning frequencies
                                   as determined by local conditions. TID: April 2010

                             R-2 — Conduct a Lean Six Sigma process improvement initiative in conjunction with the American Postal Workers Union to
                                   identify non-value tasks in the current custodial standard and negotiate revisions. TID: June 2010
CRR-AR-09-006   8/19/2009    Electronic Verification System Rejected Transactions

                             R-1 — Develop and implement requirements to identify and track all rejected Electronic Verification System transactions to ensure
                                   mailers correct and resubmit the transactions for processing. TID: November 2010
DA-AR-09-012     9/4/2009    Flats Sequencing System: First Article Retest Results

                             R-1 — Install and test only one additional Flats Sequencing System until the system demonstrates operational stability and
                                   successfully passes the field acceptance test. TID: May 2010




                                                                                                                                October 1, 2009 – March 31, 2010 | 41
APPENDIX E




                                            Report Title, Recommendation Summary
                                                         R = Recommendation number
   Report Number              Issue Date                 TID = Target Implementation Date
   NO-AR-09-012                9/25/2009   Sunday Mail Processing Operations

                                           R-1 — Reduce 83,000 workhours, based on FY 2008 usage, by the end of FY 2010 with an associated economic impact
                                                 of approximately $38 million over a 10-year period. TID: October 2011
   DR-AR-09-009                9/28/2009   Delivery Vehicle Fuel Management

                                           R-1 — Consider as part of the Postal Service’s National Fuel Purchasing Strategy expansion of mobile fueling for city and
                                                 rural delivery units with 30 or more routes using Postal Service-owned vehicles, as well as other delivery units as
                                                 necessary. TID: June 2010
   DR-AR-09-010                9/28/2009   Management of Delivery Point Sequencing Percentage Increases for City Delivery — Nationwide Review

                                           R-2 — Require district officials to prioritize and execute tasks, such as updating address databases, monitoring and removing
                                                 M-records, identifying and resolving sortation issues, and handling non-Delivery Point Sequencing mail in their delivery
                                                 units. TID: December 2010

                                           R-3 — Develop and execute an action plan to mitigate low city Delivery Point Sequencing percentages in delivery units.
                                                 TID: December 2010

                                           R-4 — Ensure accountability of Delivery Point Sequencing (DPS) Improvement Team members for completing assigned tasks
                                                 to increase and sustain city delivery DPS percentages and reduce operating costs. TID: December 2010
   EN-AR-09-005                9/28/2009   Performance Goals for Market-Dominant Products

                                           R-1 — Document the methodology used to develop future performance goals for market-dominant products. TID: August 2010

                                           R-3 — Ensure future annual service performance goals are published within 30 days after approval. TID: April 2010
   NL-AR-09-009                9/28/2009   Vehicle Management — National Trailer Lease Renewal — Capping Report

                                           R-1 — Develop a policy to require areas to establish a comprehensive process to routinely identify trailer requirements and
                                                 manage trailer inventory and use, including a process to routinely determine whether trailers are improperly used for
                                                 storage. TID: June 2010
   IS-AR-09-013                9/29/2009   Business Partner Connectivity — Leased Line Firewalls

                                           R-1 — Review and validate all business partner connections to Postal Service information resources and notify the Network
                                                 Connectivity Review Board to terminate connections no longer required. TID: April 2010

                                           R-2 — Modify Handbook AS-805, Information Security, to designate the portfolio managers responsible for informing the Network
                                                 Connectivity Review Board when a business partner connection is no longer required: TID: October 2011

                                           R-3 — Modify Handbook AS-805, Information Security, to designate the portfolio managers responsible for periodically reviewing
                                                 and validating business partner connectivity to Postal Service networks. TID: October 2011

                                           R-6 — Modify Handbook AS-805D, Information Security Network Connectivity Process, to require the Network Connectivity Review
                                                 Board to inform Database Support Services of all business partner connection requests to Postal Service databases.
                                                 TID: October 2011
   SA-AR-09-008                9/29/2009   Postal Service Aviation Security Capping

                                           R-1 — Implement nationwide recommendations 2 and 3 in the aviation security report for critical Postal Service facilities.
                                                 Specifically, strengthen internal controls requiring management reviews to ensure corrective actions are taken to improve
                                                 the performance of noncompliant offices. TID: June 2010

                                           R-2 — Implement nationwide to develop and implement performance measures or other appropriate evaluation factors to
                                                 improve operations personnel performance in following established policies and procedures for detecting and preventing
                                                 anonymous and potentially dangerous mail from entering the mailstream. TID: June 2010




42 | Semiannual Report to Congress
                                                                                                                                                   APPENDIX E




                              Report Title, Recommendation Summary
                                           R = Recommendation number
Report Number   Issue Date                 TID = Target Implementation Date
NL-AR-09-010    9/30/2009    Fuel Management Consumption Strategies for Surface Network Operations

                             R-1 — Revise the fuel consumption strategy for surface network operations covering Postal Service and HCR transportation to
                                   ensure that it is comprehensive and implements the industry best practices identified in our audit. TID: September 2010

                             R-2 — Assess and implement all opportunities for owned, leased, and contracted vehicles to use technology to reduce wind
                                   resistance and identify the most viable advanced aerodynamics options consistent with industry best practices and adjust
                                   contracts as appropriate to account for the reduced fuel need TID: September 2010

                             R-3 — Establish and implement tire inflation maintenance requirements for the owned heavy-duty vehicle fleet, as well as leased
                                   and contracted vehicles consistent with industry best practices. Adjust contracts as appropriate to account
                                   for the reduced fuel need. TID: September 2010

                             R-5 — Evaluate HCR routes, and where feasible, implement speed limit requirements consistent with industry best
                                   practices, without negatively impacting service and adjust contracts as appropriate to account for the reduced fuel
                                   need. TID: September 2010
NL-AR-09-011    9/30/2009    Air Networks — Chicago O’Hare Airport Mail Center Operations

                             R-1 — Enforce existing productivity standards for the sack sorter operation and establish and enforce appropriate productivity
                                   standards for the platform operation to reduce workhours and increase efficiency. TID: June 2010

                             R-2 — Provide adequate supervision over the sack sorter and platform operations to include ensuring that volume and workhour
                                   reporting requirements are followed. TID: June 2010

                             R-3 — Ensure staff is scheduled commensurate with the mail flow and volume for Express Mail and Automated Package
                                   Processing System operations and adjust operational workhours accordingly. TID: June 2010

                             R-4 — Provide adequate levels of supervision for Express Mail and Automated Package Processing System operations and ensure
                                   employees properly charge their workhours to the correct operations. TID: June 2010
DR-AR-10-001    10/15/2009   Use of the Carrier Optimal Routing System

                             R-1 — Resolve system and application problems with Web Carrier Optimal Routing (WebCOR) and implement the web-based
                                   program nationwide. TID: June 2010

                             R-2 — a. Select and train at least four individuals as COR system Subject Matter Experts as mandated by Postal
                                      Service Headquarters.
                                    b. Complete the Data Preparation Process to include using current PS Forms 3999, Inspection of the Letter
                                       Carrier Route.
                                    c. Complete all route adjustments using the COR system. TID: May 2010

                             R-3 — Mandate districts to track and monitor vehicle mileage changes in the COR system. TID: June 2010




                                                                                                                              October 1, 2009 – March 31, 2010 | 43
APPENDIX E




                                             Report Title, Recommendation Summary
                                                          R = Recommendation number
   Report Number              Issue Date                  TID = Target Implementation Date
   NL-AR-10-001                10/22/2009   Management of Mail Transport Equipment — Pacific Area

                                            R-1 — Reinforce national Mail Transport Equipment (MTE) policies and procedures and the area’s MTE standard operating
                                                  procedures (SOP) requiring plant managers to provide sufficient priority, resources, training and oversight to effectively
                                                  manage MTE, including:
                                                     Designating and training of MTE coordinators, ensuring that sufficient time and resources are allocated to perform all
                                                      of the duties required by the SOP, and ensuring that controls are established for monitoring MTE coordinators’ activities
                                                      and results.
                                                     Conducting weekly “on hand” inventory counts of MTE at all plants as required by the SOP. TID: April 2010

                                            R-2 — Revise the Pacific Area MTE SOP to address all necessary MTE controls, including:
                                                     Requiring major mailers to provide weekly inventory counts that will form the basis for an estimated MTE inventory
                                                      within the Pacific Area.
                                                     Addressing accountability controls, including authenticating Postal Service customers, validating customer MTE needs,
                                                      and tracking and reconciling MTE loaned to mailers and other external customers.
                                                     Addressing security controls to safeguard MTE, including securing MTE in restricted areas; ensuring MTE is not
                                                      exposed to the elements; preventing mailers and other external customers from having free access inside the facility
                                                      and outside areas; and securing the facility’s perimeter. TID: April 2010

                                            R-3 — Reinforce that the Distribution Networks Office assign sufficient area resources to monitor the management of MTE and
                                                  compliance with all SOP requirements, including ensuring complete and reliable weekly inventory counts, following up on
                                                  incomplete or questionable inventory counting and reporting, and providing necessary guidance and training to designated
                                                  plant MTE personnel. TID: April 2010
   FF-AR-10-033                12/4/2009    Use of No-Fee Money Orders Follow Up Audit

                                            R-1 — Provide training to retail associates and local unit management on use of reason codes, payment processes, and closeout
                                                  procedures. TID: July 2010

                                            R-2 — Reinforce procedures regarding the proper use of no-fee money orders in ready accessible messaging to sales and service
                                                  associates. TID: July 2010

                                            R-3 — Create a change in Point of Service to require supervisory approval in order for a no-fee money order to be issued, or
                                                  develop other controls that would enhance supervisory oversight of the issuance of no-fee money orders. TID: July 2010

                                            R-4 — Instruct local units to maintain supporting documentation for no-fee money order transactions for the required retention
                                                  period. TID: July 2010
   DR-AR-10-002                12/18/2009   City Delivery Efficiency Reviews San Francisco Napoleon Street Station

                                            R-1 — Reduce workhours by 54,975 at the Napoleon Street Station by the end of FY 2014, with an associated economic impact
                                                  of more than $21.3 million over 10 years. TID: December 2012
   IS-AR-10-002                12/22/2009   General Control Review of Human Resources Shared Services Center

                                            R-1 — Recommend the chief postal inspector, Postal Inspection Service, to coordinate with the vice president, Employee
                                                  Resource Management, to designate as sensitive those positions at the Human Resources Shared Service Center that
                                                  require access to personally identifiable information. TID: December 2010

                                            R-2 — Recommend the chief postal inspector, Postal Inspection Service, initiate appropriate security clearance investigations
                                                  for all employees in sensitive positions at the Human Resources Shared Service Center. TID: September 2010

                                            R-5 — Revise Handbook AS-805, Information Security, to clarify the approval process for wireless access points on the Postal
                                                  Service network. TID: June 2010

                                            R-6 — Coordinate with the director, Information Technology Operations, to ensure proper approval and documentation of all
                                                  wireless access points at the Human Resource Shared Service Center. TID: December 2010




44 | Semiannual Report to Congress
                                                                                                                                                   APPENDIX E




                              Report Title, Recommendation Summary
                                           R = Recommendation number
Report Number   Issue Date                 TID = Target Implementation Date
NL-AR-10-002    12/28/2009   Postal Service Vehicle Service Transportation Routes Cardiss Collins Processing and Distribution Center

                             R-1 — Ensure Cardiss Collins P&DC managers follow prescribed fleet management procedures for making postal vehicle service
                                   schedules effective, including conducting schedule and vehicle utilization. TID: July 2010

                             R-2 — Eliminate 43,264 workhours already agreed to by local and area management from postal vehicle service trip schedules.
                                   TID: October 2010
EN-AR-10-001    1/7/2010     Status Report on the Postal Service’s Network Rationalization Initiatives

                             R-1 — Develop and document specific criteria to identify consolidation opportunities in the plant network. TID: December 2010

                             R-2 — Develop a periodic (annual) review process using a top-down methodology to ensure consistency in identifying
                                   consolidation opportunities. TID: March 2011
IS-AR-10-004    1/19/2010    Enterprise Architecture within Information Technology

                             R-1 — Direct the vice president, Information Technology Solutions, and manager, Information Technology Solutions, and manager,
                                   Information Technology Strategy and Architecture, to establish and document goals, strategies, and objectives that outline
                                   sponsorship and commitment to implementing Enterprise Architecture. TID: March 2010

                             R-3 — Request the Executive Committee to provide the Enterprise Architecture Committee with the level of authority
                                   commensurate with its responsibility to effectively govern all Postal Service information technology solutions per the
                                   Enterprise Architecture Policy. TID: June 2010
DA-MA-10-001    1/28/2010    Sustainability: Promoting Energy and Recycling Compliance (FY 2009)

                             R-1 — Increase the effectiveness of energy and recycling policies by issuing written guidance to installation managers,
                                   encouraging the use of more remote building management systems. TID: September 2010

                             R-2 — Issue written guidance to installation managers to provide periodic service talks to employees to reinforce awareness
                                   of energy and recycling policies. TID: June 2010
MS-AR-10-001    2/9/2010      Plant-Verified Drop Shipment Controls

                              R-1 — Update Publication 804, Drop Shipment Procedures for Destination Entry. TID: June 2010

                              R-2 — Provide scales. TID: June 2010

                              R-3 — Provide training. TID: December 2010

                              R-4 — Provide an electronic PS Form 8125, Plant-Verified Drop Shipment (PVDS) Verification and Clearance. TID: December 2012
EN-AR-10-003    2/12/2010    Manasota Processing and Distribution Center Consolidation

                             R-1 — Ensure the implementation activities of processing and distribution consolidations begin immediately after area mail
                                   processing proposal approval and require headquarters' approval when implementation is delayed more than 3 months.
                                   TID: May 2011
HM-AR-10-001    2/18/2010     Postal Service Absenteeism

                              R-1 — Provide refresher training to supervisors to ensure they are aware of unscheduled leave policies and procedures and the
                                    importance to follow them. TID: September 2010

                              R-2 — Establish and implement internal controls to evaluate and ensure supervisor's compliance with unscheduled leave policies and
                                    procedures (for example, performance and accountability measures of periodic management reviews). TID: July 2010

                              R-3 — Require supervisors and labor relations specialists to use the Enterprise Resource Management System to record employees'
                                    inability to meet position requirements, corrective actions taken, and grievance data. TID: July 2010
NO-AR-10-003    2/24/2010    Review of the Dallas Processing and Distribution Center Outgoing Mail Consolidation

                             R-1 — Consolidate the Dallas Processing and Distribution Center (P&DC) outgoing mail operation into the North Texas P&DC by
                                   FY 2011. This will result in an annual savings of $11,997,208 for a total economic impact of $114,041,172 over 10 years.
                                   TID: December 2011




                                                                                                                              October 1, 2009 – March 31, 2010 | 45
APPENDIX E




                                            Report Title, Recommendation Summary
                                                         R = Recommendation number
   Report Number              Issue Date                 TID = Target Implementation Date
   NL-AR-10-003                3/1/2010    Highway Contract Route Transportation — Greater Chicago

                                           R-1 — Ensure managers follow prescribed contract procedures for making highway contracts effective and economical, including
                                                 the continual monitoring and adjustment of trips based on need. TID: None

                                           R-3 — Verify elimination of the 42 trips within the identified highway contract routes, already agreed to by local and area
                                                 management. TID: None

                                           R-4 — Reassess the remaining 20 trips, and cancel or modify the trips as indicated by the reassessment, or document the
                                                 reasons for retaining the trips. TID: May 2010
   FF-MA-10-001               3/10/2010     Vending Operations Closure and Financial Risk

                                            R-1 — Investigate all remaining stamp stock balances and close and zero out the vending accountabilities. TID: February 2010

                                            R-2 — Identify and deposit all undeposited cash associated with the vending accountabilities. TID: None

                                            R-3 — Provide a periodic status to the vice president, Retail Products and Services, and vice president, Delivery and Post Office
                                                  Operations, until all remaining vending accountabilities are closed and zeroed out and cash associated with the vending
                                                  accountabilities is deposited. TID: None
   DR-AR-10-003                3/16/2010   Postal Service Christmas Rural Delivery Operations

                                           R-1 — Eliminate the supplemental Christmas Overtime Pay Provision, Article 9.2(k), set forth in the NRLCA Agreement expiring in
                                                 November 2010 and any subsequent National Rural Letter Carrier Association (NRLCA) agreements. TID: November 2010
   NL-AR-10-004                3/17/2010   Management of Mail Transport Equipment — Eastern Area

                                           R-1 — Reinforce national Mail Transport Equipment (MTE) policies and procedures contained in the Postal Operations Manual
                                                 (POM) that require facility managers to provide sufficient priority, resources, training, and oversight to effectively manage
                                                 MTE, including: Designating and training MTE coordinators or equivalents, ensuring that sufficient time and resources are
                                                 allocated to perform all of the duties the postal operations manager requires, and ensuring that management establishes
                                                 controls for monitoring MTE coordinators’ or equivalents’ activities and results and conducting weekly “on hand” inventory
                                                 counts of MTE at all major facilities and mailers to promote better management of MTE and provide for the estimated MTE
                                                 inventory within the Eastern Area. TID: July 2010

                                           R-2 — Develop area standard operating procedures that complement and reinforce the Postal Operations Manual and fully
                                                 address all necessary MTE controls, including addressing accountability controls, such as validating customer MTE needs,
                                                 and tracking and reconciling MTE loaned to mailers and other external customers. TID: June 2010
   CRR-AR-10-002             3/19/2010     Management of Special Studies

                                           R-1 — Develop a plan for the timely update of the Postmaster Variability Study. TID: May 2010
   IS-AR-10-006                3/24/2010   Windows Access Controls at the Information Technology and Accounting Service Centers — IS General Controls FY 2009

                                           R-3 — Conduct a comprehensive review of the domain controller configurations to ensure compliance with applicable Windows
                                                 security standards. TID: April 2010
   NO-AR-10-004              3/29/2010     Powered Industrial Vehicle Management System at the Indianapolis Processing and Distribution Center

                                           R-1 — Use the PIVMS to the fullest extent possible to manage operations and continue to improve mail processing efficiency
                                                 by reducing 20,000 workhours in tow and forklift operations by FY 2013. TID: September 2013.




46 | Semiannual Report to Congress
                                                                                                                                                                       APPENDIX F




                                               Report Title, Recommendation Summary
                                                            R = Recommendation number
  Report Number            Issue Date                       TID = Target Implementation Date
  DR-MA-09-001            3/26/2009           Management of City Letter Carriers' Street Performance

                                              R-1 — Revise existing Postal Service policies and Standard Operating Procedures to reduce the number of required Delivery
                                                    Operations Information System reports from eight to four to aid supervisors in managing carrier street performance.
                                                    TID: October 2011

                                              R-2 — Modify the Delivery Operations Information System Route/Carrier Daily Performance Analysis Report to show
                                                    "exceptions" — for example, only actual route times varying from projected route times. TID: October 2011

                                              R-5 — Deploy additional Global Positioning System technology for 400 motorized city routes in the Chicago District for more
                                                    effective monitoring and tracking during street delivery. TID: April 2010
  DR-AR-10-004            3/31/2010           Continuing Use of Carrier Sequence Barcode Sorter Machines at Delivery Units

                                              R-1 — Reduce 10 carrier sequence barcode sorters at selected associate offices as well as the associated workhours.
                                                    TID: June 2010



APPENDIX F
Significant Management Decisions in Audit Resolution
For the period October 1, 2009 – March 31, 2010

As required by the IG Act, the following page discusses information concerning any significant management decision with which the Inspector General disagrees
and is currently in audit resolution.

Plant-Verified Drop Shipment Controls
MS-AR-10-001                                                                                                                                                              2/9/2010
Recommendation 4                          Provide an electronic reporting solution whereby Postal Service Form 8125, Plant-Verified Drop Shipment (PVDS) Verification and Clearance,
                                          information at the destination facility can be compared with the information at the origin location. Discrepancies or incomplete forms should
                                          be investigated.




                                                                                                                                                  October 1, 2009 – March 31, 2010 | 47
APPENDIX G




APPENDIX G
Investigative Statistics*
For the period October 1, 2009 – March 31, 2010

                                                                                      Convictions/         Admin.                                               Amt. to USPS     To Mgmt.
                                   Investigations                   Indictments/           Pretrial        Action               Cost    Fines, Restitution,   (from previous    for Admin.
                                      Completed        Arrests      Informations       Diversions**         Taken          Avoidance        & Recoveries           column)***       Action
Theft, Delay, or Destruction                   668          187               168              199             368                             $1,015,704          $194,813           384
of Mail by Employees or
Contractors
Injury Compensation                            379           25                  17              21             99       $99,795,914      $1,295,828,533        $17,316,589           154
Fraud 1 & 2
Official Misconduct                            548           47                  32              74            321                —             $760,096            $80,825           329
Financial Fraud                                335          121               120              127             238             $1,000          $3,744,708        $2,845,797           273
Contract Fraud                                  62           13                  13               7             16        $1,336,078          $1,283,300         $1,058,017            23
TOTAL                                        1,992         393                350              428           1,042     $101,132,992       $1,302,632,341        $21,496,041         1,163


* Statistics include joint investigations with other law enforcement agencies.
** Convictions reported in this period may be related to arrests in prior reporting periods.
*** Amounts include case results of joint investigations with other OIG, federal, state, and local law enforcement entities.

1
    Amount under Fines, Restitution, and Recoveries includes $1,295,200,100 from one pharmaceutical investigation.
2
    Amount to Postal Service includes $15,075,934 from one pharmaceutical investigation.




48 | Semiannual Report to Congress
                                                                                                                                         APPENDIX H




APPENDIX H
Summary of U.S. Postal Inspection Service Actions Under 39 USC 3005 and 3007
For the Period October, 1 2009 – March 31, 2010


                                           Complaints         Consent               Cease &
Type of Scheme                                  Filed      Agreements   FROs   Desist Orders
Charity                                                1           —      —               1
Contests/Sweepstakes                                  11           11     —               11
Coupon Fraud                                           1            1     —               1    Financial Reporting on Investigative
False Billings                                        29            1      5              15   Activities
Internet Auction                                       2            2     —               2    Type
Merchandise:                                                                                   Personnel                                 $ 140,376,905
 Failure to Furnish                                    6            3      1              4    Nonpersonnel                                  30,898,204
 Failure to Pay                                        2            2     —               2    TOTAL                                     $171,275,109
Misrepresentation                                      6            3      2              5    Capital obligations                          ($1,023,726)
Miscellaneous                                         27           31      2             24
Work at Home                                           8            6      2              5
TOTAL                                                 93          60      12             70


Other Administrative Actions
Administrative Action Requests                                                           116
Temporary Restraining Orders Requested                                                     1
Temporary Restraining Orders issued                                                        1
Cases Using Direct Purchase Authority                                                     —
Civil Penalties (Section 3012) Imposed                                                    —
Test Purchases                                                                            —
Withholding Mail Orders Issued                                                            18
Voluntary Discontinuances                                                                 —



Administrative Subpoenas Requested by the Postal Inspection Service
There were no requests during the reporting period.




                                                                                                                     October 1, 2009 – March 31, 2010 | 49
APPENDIX I




APPENDIX I
Closed Congressional and Board of Governors’ Inquiries
For the Period October, 1 2009 – March 31, 2010

This appendix lists the congressional and Board of Governors inquiries the OIG closed during this reporting period. OIG units reviewed or investigated these
inquiries to resolve allegations and disputes and to help identify systemic issues. Inquiries are listed in the chronological order of receipt. As of January, the OIG
discontinued processing inquiries on behalf of the Postal Inspection Service.



Inspector General Investigations (46)
Requestor                  Allegation/Concern                                                     Major Findings                                                           Closure Date
Senator, Iowa              Request for investigation into private entity's offer of a special     The investigation was closed after the Senator withdrew request for          10/05/09
                           mortgage to the Postmaster General; chief postal inspector             an inquiry into the matter.
                           engaged in various forms of official misconduct.
Representative             Mail delivery issues.                                                  The investigation found no evidence of mail theft or tampering by            10/29/09
Maryland                                                                                          postal employees, but we noted and reported problems with the
                                                                                                  system mail forwarding.
Representative,            Complainant never received international mail package.                 The investigation found no evidence of mail tampering, delay, or theft       11/19/09
Washington                                                                                        by postal employees. Working with the International Mail and Mail
                                                                                                  Recovery Centers, our agents were unable to trace the package after
                                                                                                  its arrival at the International Service Center.
Representative,            Postal Service divulged confidential information about complainant's   The investigation found no evidence of an improper release of                 1/22/10
New York                   patented biohazard detection process to a competitor, which            confidential information by the Postal Service. We noted that
                           eventually led to a contract award.                                    infringement claims are resolved through well established patent
                                                                                                  law procedures.
Representative,            Management manipulated time and attendance records to avoid            The investigation, widened to five locations, substantiated the              10/15/09
New Hampshire              paying overtime and falsify work hour usage at three locations.        allegations, finding management intentionally changed time and
                                                                                                  attendance records causing postal employees to be underpaid. The
                                                                                                  investigation also revealed a flaw in the postal time and attendance
                                                                                                  system, causing unintentional short pay. We calculated shortages of
                                                                                                  nearly $30,000. We forwarded management our findings for action.
Representative,            Files on a complainant's union computer were deleted in retaliation    An investigation substantiated the allegation of misuse of property;         10/14/09
Maryland                   for the complainant reporting misuse of postal property to the OIG.    we did not substantiate the allegation that computer files were
                                                                                                  intentionally deleted, due to absence of controls over the computer
                                                                                                  and its location.
Senator, Virginia          Non-receipt of Priority Mail sent from Virginia to New York.           The investigation found no evidence of mail tampering, delay, or              3/15/10
                                                                                                  theft by postal employees.
Senator, Virginia          Priority Mail sent from Virginia to New York was not received.         There was no evidence found of mail tampering, delay, or theft by             3/15/10
                                                                                                  postal employees.
Senator, Washington        Non-receipt of a package mailed from Virginia to Texas.                Evidence indicated a now-former postal employee could be                      2/23/10
                                                                                                  responsible. Agents were unable to the locate the package.
                                                                                                  We forwarded our findings to the U.S. Attorney and management
                                                                                                  for action deemed appropriate.
Representative, Virginia   Hostile work environment; unfair employment practices; intentional     The investigation did not substantiate the allegations. The                  10/07/09
                           mail delay by management at a Virginia Post Office.                    complainant also filed a grievance through the local union
                                                                                                  regarding the allegedly unfair employment practices, therefore
                                                                                                  the OIG will not interfere with the administrative process.
Senator, California        A postal manager sexually harassed an employee and assaulted a         The Postal Inspection Service previously investigated and did not            12/28/09
                           union president.                                                       substantiate the allegations. We conducted an investigative review
                                                                                                  and found no irregularities or failings in the Inspection Service
                                                                                                  investigation. The complainants also filed Equal Employment
                                                                                                  Opportunity (EEO) complaints, therefore the OIG will not interfere
                                                                                                  in this administrative process.




50 | Semiannual Report to Congress
                                                                                                                                                                            APPENDIX I




Requestor                  Allegation/Concern                                                   Major Findings                                                             Closure Date
Senator, Wyoming           New information about a reported theft of a registered mail pouch.   The Postal Inspection Service conducted an investigation in 2003                 10/26/09
                                                                                                that did not produce determinative evidence of whether the theft
                                                                                                occurred internally or externally. A new OIG investigation found no
                                                                                                conclusive evidence to identify a suspect.
Representative,            Non-receipt of mail; employee misconduct.                            The investigation did not substantiate the allegations.                          10/15/09
California
Representative, Texas      Non-receipt of mail addressed to a Post Office box at a Texas        The investigation found no evidence indicating postal employees                    2/26/10
                           Post Office.                                                         were responsible for theft of the mail. We referred the allegations
                                                                                                to the Postal Inspection Service based on indications the theft may
                                                                                                have occurred externally.
Representative,            Non-receipt of a package scanned as delivered.                       The investigation found no evidence indicating postal employees                  10/05/10
New York                                                                                        stole the package and no evidence of a systemic problem with lost
                                                                                                or stolen mail in his area.
Representative,            A congressional survey the complainant mailed was defaced            The investigation did not uncover definitive evidence that a postal              10/07/09
Pennsylvania               and returned.                                                        employee tampered with the survey. We provided findings to
                                                                                                management and requested they conduct stand-up talks (training
                                                                                                reminders) on this type of crime.
Senator,                   Whistleblower reprisal; the OIG did not respond to complainant's     The investigation did not substantiate the allegations.                            3/12/10
Massachusetts              prior report of whistleblower reprisal.
Representative,            Theft of a parcel mailed internationally.                            Complaint withdrawn after package arrived at its destination.                    10/15/09
New York
Representative,            Management falsified documents and delayed processing of injury      The investigation revealed no evidence substantiating the allegations.             3/30/10
Mississippi                compensation claim at a Mississippi Post Office.                     We did not investigate several allegations already addressed through
                                                                                                the grievance and/or EEO processes.
Representative, Florida    Estimated 5,200 pieces of a representative's mail were found among   We located the mail and briefed the representative of the impact                 10/14/09
                           the 100,000+ pieces of mail hoarded, rifled, and/or destroyed by a   within her congressional district.
                           rural carrier.
Representative,            Theft of a check in the mail and subsequent attempts to compromise   The investigation did not substantiate the allegation of internal mail           12/03/09
New York                   complainant's account.                                               theft. Due to indications of external theft, we referred the matter to
                                                                                                the Postal Inspection Service.
Senator, Illinois          Non-receipt of financial statements and checks sent to a Post        The investigation found no evidence mail had been sent by the                    11/06/09
                           Office Box.                                                          institutions and there was no evidence of mail theft.
Representative, Virginia   Mail tampering and theft of the contents of a package that was       The investigation did not substantiate the allegations that postal               11/09/09
                           opened and resealed.                                                 employees stole the contents of the package.
Senator, Georgia           Non-receipt by intended recipient of an insured package received     The investigation found no evidence that postal employees stole the                3/09/10
                           at a South Carolina Post Office.                                     package. The Postal Service reimbursed the complainant for the
                                                                                                insured amount.
Senator, Florida           Mail delay and tampering by management at a Florida facility.        The investigation did not substantiate the allegation of mail delay              12/08/09
                                                                                                but found a manager had opened the mail piece. We forwarded our
                                                                                                findings to management for action deemed appropriate.
Representative, Illinois   A package containing personal identification documents were stolen   We found a letter carrier had stolen multiple items, including the                 1/26/10
                           from the mail.                                                       complainants. We presented our findings to the U.S. Attorney for
                                                                                                prosecution and to management for whatever action deemed necessary.
Representative, Illinois   Complainant received no commemorative plaque for service after       A plaque was ordered and shipped to the requestor.                               10/28/09
                           separating from the OIG.
Senator, Idaho             A letter carrier mishandled complainant's mail and returned it to    The investigation found no evidence of misconduct by the postal                    1/19/10
                           sender without permission.                                           employee. The postal employee followed postal policy by returning
                                                                                                mail after complainant's curbside box filled to capacity.
Senator, California        Package containing prescription drugs was rifled and stolen from     Investigation found no evidence of mail theft by postal employees.               11/09/09
                           complainant's mailbox.                                               We provided the allegations to the Postal Inspection Service because
                                                                                                of incidents of external mail theft in the area.




                                                                                                                                                       October 1, 2009 – March 31, 2010 | 51
APPENDIX I




Requestor                 Allegation/Concern                                                          Major Findings                                                             Closure Date
City Council Vice         Non-receipt of money orders mailed to the complainant.                      Agents determined the money orders had not been negotiated, but                12/22/09
President, Alabama                                                                                    could not account for their whereabouts; agents found a refund
                                                                                                      was delayed because of incorrect data entered in the Postal Service
                                                                                                      Money Order Imaging System.
Representative,           Inconsistent mail delivery.                                                 The investigation revealed the mail delivery issues resulted from letter        1/20/10
Mississippi                                                                                           carrier's misapplication of Change of Address (COA) policy. The findings
                                                                                                      were forwarded to management for action deemed appropriate.
Senator, Missouri         Contents missing from a package mailed by a vendor.                         Investigation did not find evidence indicating a postal employee stole         12/22/09
                                                                                                      the contents Agents were unable to locate the contents at any of the
                                                                                                      postal facilities that handled the package.
Senator, Maryland         Complainant believed she was the subject of an OIG investigation            Review found no record of a current OIG investigation.                         11/17/09
                          of workers' compensation benefits use.
Senator, Colorado         Delay of union mail; postal management condoned supervisor's                The investigation found no evidence of intentional mail delay. The              1/20/10
                          threats and intimidation of employees.                                      Postal Service Human Resource office was already conducting an
                                                                                                      inquiry into the allegations of threats and intimidation, therefore, we
                                                                                                      did not intervene.

Representative,           Non-receipt of mail after filing a COA form; mail tampering.                The investigation found the complainant was receiving all of his mail           2/22/10
Maryland                                                                                              at his new address. The investigation also determined the tampering
                                                                                                      occurred accidently after a letter was incorrectly delivered to the
                                                                                                      wrong address and accidently opened by a third party.
White House               Non-receipt of packages that arrived at a New Jersey Post Office            Agents could not investigate the matter fully after multiple                    1/27/10
                          according to delivery confirmation information.                             unsuccessful attempts to reach complainant.
White House               Government employee tampered with international mail.                       Investigation did not substantiate the allegation and found the                 2/22/10
                                                                                                      damage to mailpieces consistent with damage caused by Postal
                                                                                                      Service sorting machines.
Representative,           Non-receipt of checks mailed to a political organization's Post             An on-going investigation had focused on a postal employee who                  3/12/10
California                Office box.                                                                 appeared to be intentionally discarding First-Class-Mail. Based
                                                                                                      on box holder information about more than 100 similar cases, we
                                                                                                      expanded our investigation and confirmed much of the missing
                                                                                                      mail entered the facility during times the employee was on duty.
                                                                                                      We informed management of our findings.
Senator, Ohio             Letter carrier stole letters complainant mailed to elected officials.       The letter carrier was no longer employed with the Postal Service               1/22/10
                                                                                                      for reasons unrelated to the complaint. The complainant experienced
                                                                                                      no mail delivery issues after the employee's departure and the
                                                                                                      investigation found no evidence of systemic delivery problems in
                                                                                                      the area.
Senator, Tennessee        Theft of a gift card in the mail; the OIG did not respond to the original   Investigators had conducted a timely investigation, but could not               3/09/10
                          hotline complaint.                                                          determine the identity of the suspect and, therefore, could not
                                                                                                      conclude a postal employee was responsible.
Representative,           Postal management made an unauthorized disclosure from the                  The investigation did not substantiate the allegation and we could              3/17/10
New Jersey                complainant's personnel file.                                               not determine how other parties had received the information.
Representative, Texas     Non-receipt of packages that tracking information showed had                Our previous investigation and work with local law enforcement                  2/23/10
                          arrived at a Florida Post Office.                                           agencies did not reveal the location of the package or the reason
                                                                                                      for its disappearance.
Representative,           Mail tampering and theft of franked mail.                                   The investigation found no evidence of mail tampering or theft by               3/22/10
California                                                                                            postal employees, based on the limited evidence available.
White House               Mail tampering.                                                             Investigation found no evidence of mail tampering by postal                     3/15/10
                                                                                                      employees, but noted it was part of a large amount of rifled,
                                                                                                      abandoned mail and likely the result of external crime.
Representative, Florida   Management falsified Express Mail tracking data to inflate                  As in an earlier investigation at the same site, our investigation found        3/22/10
                          performance statistics, and delayed Express Mail delivery.                  evidence substantiating the allegations. We again forwarded our
                                                                                                      findings to management.




52 | Semiannual Report to Congress
                                                                                                                                                                                APPENDIX I




Requestor                Allegation/Concern                                                        Major Findings                                                              Closure Date
Representative,          Propriety of OIG agent request for medical documentation on               The agent provided official OIG documentation when making a                         2/23/10
Pennsylvania             a postal employee.                                                        request for voluntary production of records. Due to the concern from
                                                                                                   the medical provider, the agent provided a subpoena for the records.

General Counsel (13)
Requestor                Allegation/Concern                                                        Major Findings                                                              Closure Date
Representative,          Complainant sought assistance returning to work from an extended          Review showed the complainant failed to respond to notices from                   10/19/09
New Jersey               leave status.                                                             management regarding his extended leave and he was therefore
                                                                                                   not allowed to return to work. Management later agreed to allow
                                                                                                   the complainant to return to his position.
Senator, Ohio            Delay of mail at an Ohio facility.                                        Review found the Postal Service district office was working to                    10/22/09
                                                                                                   resolve the problem.
State Representative,    Favoritism in applying the no-smoking policy at a Connecticut facility.   Management acknowledged impermissible smoking may have                            11/02/09
Connecticut                                                                                        occurred, but would not occur again.
Senator, Maryland        Maryland facility supervisor improperly changed employee's leave          Review found the complainant filed a formal complaint and request                 11/04/09
                         status.                                                                   for pay adjustment with postal management.
Representative,          A postal manager discussed the complainant's medical information          Review found earlier Postal Inspection Service work did not                       12/29/09
Pennsylvania             on the workroom floor.                                                    substantiate the allegation.
Representative,          Hostile work environment; management failed to effectively resolve        Review found management took appropriate steps to respond the                     12/29/09
Pennsylvania             problems with a disruptive employee.                                      workplace issues.
Senator, Pennsylvania    A postal manager discussed the complainant's medical information          Review found earlier Postal Inspection Service work did not                       12/29/09
                         on the workroom floor.                                                    substantiate the allegation.
Representative,          A tenant paid rent with a counterfeit postal money order.                 The Postal Service determined the money order was not counterfeit                 10/22/09
Pennsylvania                                                                                       and reimbursed the complainant.
Representative,          Complainant's mail discarded in a field; potential mail theft.            Review found no evidence that mail theft or mail box tampering                    12/07/09
Tennessee                                                                                          had occurred.
White House              Mail delivery issues.                                                     The correspondence provided was no longer legible. We notified                    12/28/09
                                                                                                   the complainant and provided a contact number in case assistance
                                                                                                   was needed.
Representative,          Request for information about an OIG investigation.                       We provided the information as requested.                                         12/18/09
New York
Chairman, House          Request for the inspector general's testimony before the                  The inspector general testified as requested.                                       3/25/10
Subcommittee             Subcommittee.
Representative, Texas    The OIG wrongfully terminated complainant and denied him a fair           The complainant earlier elected administrative relief with other                    3/02/10
                         and neutral hearing.                                                      agencies, in which our agency is fully cooperating.
Representative,          Concerns about the calculation of expense and benefits associated         Sierra Coastal District management’s analyses and business case                     1/22/10
California               with the consolidation and relocation of staff and operations from the    supporting the changes to destinating mail processing operations
                         Mojave facility.                                                          at Mojave were reasonable. Management prepared a business
                                                                                                   case to move most of the destinating mail processing operations
                                                                                                   out of Mojave. We found that several potential service standard
                                                                                                   downgrades could result from the changes, but management stated
                                                                                                   they made operational and transportation changes to ensure no
                                                                                                   service performance downgrades occurred.
Representatives and      Concerns about consolidation of two Pennsylvania facilities.              The OIG advised audit work has been slated for later this fiscal year.            10/30/09
Senators, Pennsylvania
Representative,          Fraudulent processes and delays in Priority Mail shipments at a           The review did not identify any fraudulent or unusual activities                  11/06/09
West Virginia            West Virginia facility.                                                   and noted the transfer of Priority mail processing operations from
                                                                                                   Huntington to Charleston is authorized to improve operational efficiency.
Senator, Texas           Management at a Texas facility engaged in unfair employment               OA reviewed the information provided by complainant for                           12/12/09
                         practices and violated federal law in the use of stand-by time.           consideration in future audit plans in the area of human resources.
State Representative,    Closure of retail postal facilities in central Florida.                   OA has not reviewed the specific criteria or processes the Postal                   1/04/10
Florida                                                                                            Service uses to evaluate potential stations for closure. We provided
                                                                                                   information about the Postal Service's criteria which include factors
                                                                                                   such as mail volume and retail transaction trends.


                                                                                                                                                           October 1, 2009 – March 31, 2010 | 53
APPENDIX I




Requestor                 Allegation/Concern                                                         Major Findings                                                              Closure Date
Chairman, House           Request for investigation of an incident involving significant delays in   The review found check delays (up to 11 days) resulted from their                1/28/10
Committee                 the delivery of New York pension checks.                                   treatment as Standard, not First-Class Mail and that Standard
                                                                                                     Mail was not being timely processed. Review also found the Postal
                                                                                                     Service took immediate action to locate, process, and deliver the
                                                                                                     pension checks as well as to expedite replacement checks and send
                                                                                                     letters to creditors once the matter was noticed.

Inspector General Audits (6)
Requestor                 Allegation/Concern                                                         Major Findings                                                              Closure Date
Representative,           Concerns about the calculation of expense and benefits associated          Sierra Coastal District management’s analyses and business case                  1/22/10
California                with the consolidation and relocation of staff and operations from the     supporting the changes to destinating mail processing operations
                          Mojave facility.                                                           at Mojave were reasonable. Management prepared a business
                                                                                                     case to move most of the destinating mail processing operations
                                                                                                     out of Mojave. We found that several potential service standard
                                                                                                     downgrades could result from the changes, but management stated
                                                                                                     they made operational and transportation changes to ensure no
                                                                                                     service performance downgrades occurred.
Representatives and       Concerns about consolidation of two Pennsylvania facilities.               The OIG advised audit work has been slated for later this fiscal year.          10/30/09
Senators, Pennsylvania
Representative,           Fraudulent processes and delays in Priority Mail shipments at a            The review did not identify any fraudulent or unusual activities                11/06/09
West Virginia             West Virginia facility.                                                    and noted the transfer of Priority mail processing operations from
                                                                                                     Huntington to Charleston is authorized to improve operational efficiency.
Senator, Texas            Management at a Texas facility engaged in unfair employment                OA reviewed the information provided by complainant for                         12/12/09
                          practices and violated federal law in the use of stand-by time.            consideration in future audit plans in the area of human resources.
State Representative,     Closure of retail postal facilities in central Florida.                    OA has not reviewed the specific criteria or processes the Postal                1/04/10
Florida                                                                                              Service uses to evaluate potential stations for closure. We provided
                                                                                                     information about the Postal Service's criteria which include factors
                                                                                                     such as mail volume and retail transaction trends.
Chairman, House           Request for investigation of an incident involving significant delays      The review found check delays (up to 11 days) resulted from their                1/28/10
Committee                 in the delivery of New York pension checks.                                treatment as Standard, not First-Class-Mail and that Standard
                                                                                                     Mail was not being timely processed. Review also found the Postal
                                                                                                     Service took immediate action to locate, process, and deliver the
                                                                                                     pension checks as well as to expedite replacement checks and send
                                                                                                     letters to creditors once the matter was noticed.

Postal Inspection Service Investigations (27)
Requestor                 Allegation/Concern                                                         Major Findings                                                              Closure Date
Representative, Ohio      Fraudulent filing of a Change of Address (COA) form.                       A postal inspector previously reviewed the complaint and found no               10/15/09
                                                                                                     evidence of a fraudulent COA filing.
Senator, Virginia         Mail fraud scheme.                                                         A postal inspector reviewing the allegations found the complainant              12/28/09
                                                                                                     was the victim of an international fraud scheme. The inspector was
                                                                                                     unable to develop viable investigative leads in the continental U.S.
                                                                                                     Should further leads develop, inspectors will revisit the incident.
Senator, Texas            Postal employee alleged a coworker's spouse threatened assault;            Investigation did not substantiate the allegations, and found postal            10/16/09
                          alleged improper relationship between a supervisor and employee.           inspectors had addressed the issues and advised complainant before
                                                                                                     he contacted the senator.
Senator, Michigan         Complainant requested reinstatement as a postal inspector.                 Review found complainant voluntarily resigned from the Postal                   10/22/09
                                                                                                     Inspection Service; there was a hiring freeze; and complainant
                                                                                                     was not entitled to reinstatement under postal regulations.




54 | Semiannual Report to Congress
                                                                                                                                                                              APPENDIX I




Requestor                 Allegation/Concern                                                      Major Findings                                                             Closure Date
Senator, Pennsylvania     Fraudulent request for wire transfer.                                   Allegations forwarded to Criminal Investigations Service Center                  10/05/09
                                                                                                  for review.
Senator, Alaska           Theft of a parcel from a Post Office mail box section; surveillance     Inspectors found few leads to pursue; inspectors do not maintain                 10/19/09
                          system not operating properly.                                          a surveillance system.
Representative, Ohio      Request for investigation of the death of a postal employee occurring   Request withdrawn.                                                               12/03/09
                          during performance of job duties.
Representative,           Mail fraud scheme.                                                      Allegations forwarded to Criminal Investigations Service Center                  10/20/09
Pennsylvania                                                                                      for review.
Senator, Maryland         Mail fraud scheme.                                                      Allegations forwarded to Criminal Investigations Service Center                  10/08/09
                                                                                                  for review.
Senator, Maryland         External mail theft first reported in 2007.                             Complainant advised there are no continuing problems. The                        10/20/09
                                                                                                  inspector confirmed complainant's mailbox was secured and
                                                                                                  functioning properly.
Senator, Maryland         Attempt to fraudulently obtain a Post Office box in complainant's       An inspector reviewed and found no evidence to support the allegation.            11/18/09
                          name.
Senator, Alaska           Receipt of an opened mail piece placed in a plastic bag with            Returned rifled mail included notifications of suspected or known                11/30/09
                          instructions to contact state troopers.                                 mail activity. The Postal Inspection Service participated in a multi-
                                                                                                  agency investigation with the Alaska State Troopers into mail theft
                                                                                                  and related crimes, resulting in state prosecution of six individuals
                                                                                                  and pending federal charges against others.
Representative,           Fraudulent billing by a health provider.                                The matter is considered Medicare fraud rather than mail fraud,                  11/23/09
Pennsylvania                                                                                      and the FBI has asserted jurisdiction over these cases.
Representative,           Mail theft and fraudulent filing of COA forms.                          A postal inspector reviewed and found a local law enforcement                    11/02/09
New York                                                                                          agency was investigating the matter, and provided additional
                                                                                                  information for that investigation.
State Representative,     Mail fraud scheme.                                                      A postal inspector reviewed the mailing. As it originated outside the            10/29/09
Pennsylvania                                                                                      U.S. and resulted in no loss for the complainant, only action will be
                                                                                                  to add to database for systemic review.
Representative,           Threatening mailings from a collection agency for purported debts.      Inspectors notified the Federal Trade Commission of the potential Fair           11/04/09
Pennsylvania                                                                                      Debt Collection Practices Act violation and were reviewing potential
                                                                                                  postal jurisdiction over other aspects of the agency activities.
Representative,           Mail fraud scheme.                                                      The mail was not used to support the scheme and therefore it is                   11/17/09
Wisconsin                                                                                         outside of Postal Inspection Service jurisdiction. The inspector
                                                                                                  forwarded the allegations to the Federal Trade Commission.
Representative, Indiana   Postal inspectors retained documents provided for an investigation.     Documents returned.                                                              11/02/09
Representative,           Hundreds of unsolicited magazine subscriptions were entered in          After declinations of prosecution at the federal and local levels,                11/17/09
Pennsylvania              complainant's name, possibly as a form of harassment.                   the inspector conducted investigative activity intended to deter
                                                                                                  further harassment.
Representative,           A municipal employee attempted to close the complainant's personal      A postal inspector reviewed and did not substantiate the allegations.            11/23/09
Wisconsin                 Post Office box at a Wisconsin Post Office.
Senator, Maryland         Unsolicited mailing regarding Medicare benefits.                        Review found the mailing came from a company with a valid                         11/16/09
                                                                                                  postal permit for commercial mailings. Review did not find
                                                                                                  indications of deceit.
Representative,           Concern about the security and fee associated with the Postal           The review found several websites offering COA services properly                  11/13/09
California                Service's Internet-based COA process and non-postal websites            represented themselves as official Postal Service websites and
                          offering similar services.                                              therefore violated no federal mail fraud laws. A postal inspector
                                                                                                  also noted the $1 fee for Internet COA filing is a security measure
                                                                                                  to capture electronic information about the requestor, should any
                                                                                                  issues arise.
Representative,           Mail fraud scheme.                                                      Allegations forwarded to Criminal Investigations Service Center                  11/30/09
Maryland                                                                                          for review.




                                                                                                                                                         October 1, 2009 – March 31, 2010 | 55
APPENDIX I




Requestor                 Allegation/Concern                                                  Major Findings                                                           Closure Date
Representative,           Receipt of threatening mail.                                        A postal inspector reviewed the mailings and determined they did             12/07/09
New York                                                                                      not fall within the precise meaning of the threatening mail statute,
                                                                                              18 USC § 876. Because the mailing was harassing, the Inspector
                                                                                              suggested filing a report with the local law enforcement agency.
Representative, Florida   Unauthorized COA filed.                                             The review showed a temporary COA order was placed and deleted 2             11/23/09
                                                                                              months later, and the matter was forward to an identity theft team for
                                                                                              possible criminal investigation. The inspector requested all residual
                                                                                              mail at the temporary address be returned to the complainant.
Representative,           Mail fraud scheme.                                                  A postal inspector reviewed the mailing and noted pending                    11/24/09
California                                                                                    complaints against the company.
Representative,           Fraudulent billing by a collection agency.                          Use of e-mail, rather than U.S. Mail, to advance the scheme appears          11/23/09
California                                                                                    to place it outside Postal Inspection Service jurisdiction.

Referrals (8)
Requestor                 Allegation/Concern                                                  Referred To                                                              Closure Date
Representative,           Complainant requests reconsideration of a decision to cancel        Postal Service Government Relations Office                                   10/19/09
Pennsylvania              a lease.
Representative,           External mail theft.                                                Postal Inspection Service                                                    12/30/09
Pennsylvania
Representative,           Mail fraud.                                                         Postal Inspection Service                                                    12/30/09
Georgia
Senator Georgia           Mail fraud.                                                         Postal Inspection Service                                                    12/30/09
Senator, California       Request for a response to constituent letter to the chief postal    Postal Inspection Service                                                    12/14/09
                          inspector concerning a threat at a California facility.
Representative, Indiana   Request for information about the consolidation of letter carrier   Postal Service Government Relations Office                                    2/09/10
                          routes in a congressional district.
Senator, California       Request for a Postal Inspection Service document.                   Postal Inspection Service                                                     2/19/10
Representative,           Lack of management response to an OIG investigation into            Postal Service Government Relations Office                                    3/22/10
Maryland                  employee misconduct.




56 | Semiannual Report to Congress
                                                                                             FREEDOM OF INFORMATION ACT/ WORKPLACE ENVIRONMENT




SUPPLEMENTAL INFORMATION                                                            SUPPLEMENTAL INFORMATION
Freedom of Information Act                                                          Workplace Environment
The Freedom of Information Act (FOIA) Office for the Postal Service Office          The OIG’s Workplace Environment team reviews workplace environment
of Inspector General operates independently of, but frequently coordinates          and operational issues that may affect workplace climate in postal
with, its counterparts at the Postal Service and the Postal Inspection              facilities through the country. The OIG Hotline is the usual source for the
Service. The FOIA Office receives requests for records from the public,             complaints, but occasionally members of Congress, the governors, and
the media, and postal employees. The FOIA, according to the Department              postal management will raise concerns or forward complaints appropriate
of Justice, “generally provides that any person has a right, enforceable in         for review by the unit. Complaint topics range from sexual harassment
court, to obtain access to federal agency records, except to the extent that        and discrimination to workplace safety. Workplace Environment reviews
such records (or portions of them) are protected from public disclosure by          are designed to identify systemic, rather than individual, issues and foster
one of nine exemptions.”                                                            postal management efforts toward providing employees a stress-and
                                                                                    adversity-free work environment.
For the period October 1, 2009 – March 30, 2010
                                                                                    The unit accepts complaints from any postal employee, including OIG
                                                                                    and Postal Inspection Service staff. Reviews may result in fact-finding
Requests                                                Number of Requests          reports to management or referral for specific suggested action, such as
Carryover from prior period                                                    10   climate assessments.
Received during period                                                    150
Total on hand during period                                               160        Activities
                                                                                     For the period October 1, 2009 – March 31, 2010
Actions                                                 Number of Requests
Processed during the period                                               152
                                                                                     Complaints received                                                                Total
Requests denied in full                                                        14
                                                                                     Carryover from prior period                                                            37
Requests denied in part                                                    59        Complaints received from OIG Hotline, Congress, governors, management,               293
Requests granted in full                                                       8     internal, and other

No records                                                                     11    Total on hand during this period                                                     330

Requests referred                                                              41
Requests withdrawn                                                             13
                                                                                     Workplace environment actions                                                      Total
Fee-related reasons                                                        —
                                                                                     Complaints reviewed and closed during the period                                     302
Records not reasonably described                                           —
                                                                                     Referred to Postal Service management                                                107
Not a proper FOIA request for some other reason                                5
                                                                                     Referred to Office of Investigations                                                   25
Not an agency record                                                       —
                                                                                     Referred to Postal Inspection Service                                                   8
Duplicate request                                                              1
                                                                                     Referred to Office of Audit                                                             1

Balance                                                 Number of Requests           Summary of findings to Congress/BOG/Postal Service management                           4

Balance at the end of the period (pending)                                      8    Referred to database for statistical analysis and possible systemic review           157
                                                                                     Complaints pending at the end of the period                                            83
Processing Days                                              Number of Days
Median processing days to respond to a FOIA request                        9.5




                                                                                                                                           October 1, 2009 – March 31, 2010 | 57
ACRONYM GUIDE




Acronym Guide
Here is a quick guide to acronyms used in this reporting period.

AMP: area mail processing                                      NDC: network distribution center

APWU: American Postal Workers Union                            OWCP: Office of Workers’ Compensation

ASC: Accounting Service Centers                                P&DC: processing and distribution center

BMC: bulk mail center                                          P&DF: processing and distribution facility

BMEU: Business Mail Entry Unit                                 PAEA: Postal Accountability and Enhancement Act of 2006
                                                                     (also known as The Postal Act of 2006)
COR: Carrier Optimal Routing
                                                               PIR: Process Improvement Review
CSBCS: Carrier Sequence Bar Code Sorter
                                                               PIVMS: Powered Industrial Vehicle Management System
DBCS: Delivery Bard Code Sorter
                                                               PSRHBF: Postal Service Retiree Health Benefit Fund
DOL: U.S. Department of Labor
                                                               PVS: Postal Vehicle Services
FPA: foreign postal administrations
                                                               RDC: regional distribution center
HCR: highway contract route
                                                               SCR: software change requests
HRSSC: Human Resources Shared Service Center
                                                               SSA: sales and services associate
ISC: International Service Centers
                                                               SSDA: sales, services, and distribution associate
MPE: mail processing equipment
                                                               SSLP: Supplier Sales Lead Program
MTE: mail transport equipment
                                                               TDSN: time-definite surface network
NALC: National Association of Letter Carriers




The following are among the many trademarks owned by the United States Postal Service: United States Postal Service®, U.S. Postal Service®, USPS®,
First-Class Mail®, usps.com®, Click-N-Ship®, Automated Postal Center®, APC®, Express Mail®, Priority Mail®, Standard Mail®, Parcel Post®,
Media Mail®, Customized MarketMail®, Intelligent Mail®, Parcel Select®, Express Mail International®, Quick, Easy, Convenient®, United States Postal
Service Office of Inspector General™, Post Office™, Postal Service™, Signature Confirmation™, Certified Mail™, Delivery Confirmation™, Registered Mail™,
ZIP Code™, Carrier Pickup™, Priority Mail International™, First-Class Mail International™, Premium Forwarding Service™, Forever Stamp™ and Postmaster
General™. The Sonic Eagle Logo, Round Top Collection Box design, Letter Carrier Uniform design, and the Mail Truck design are also trademarks belonging
to the United States Postal Service.




58 | Semiannual Report to Congress
The U.S. Postal Service has two
law enforcement agencies with
distinct areas of investigative
responsibility to serve the needs
of stakeholders, postal employees,
and the American public.



Who do I call?
Office of Inspector General                   Postal Inspection Service
■   Theft, delay, or destruction of mail by   ■   Security of employees, facilities,
    employees and contractors                     and equipment
■   Injury compensation fraud                 ■   Revenue and postage fraud
■   Embezzlements and financial crimes        ■   International mail security
■   Contract fraud                            ■   Violent crimes:
■   Kickbacks                                     - Threats and assaults of employees
                                                  - Burglaries and robberies
■   Computer crimes
                                              ■   Mail theft by nonemployees
■   Narcotics
                                              ■   Dangerous mail and bombs
■   Employee misconduct
                                              ■   Mail fraud
■   Internal affairs and executive
    investigations                            ■   Identity theft
■   Whistleblower reprisals                   ■   Narcotics in the mail
                                              ■   Child pornography and obscenity

Contact: 888-USPS OIG                         Contact: 877-876-2455
www.uspsoig.gov                               http://postalinspectors.uspis.gov/
CHAPTER TITLE




U.S. POSTAL SERVICE OFFICE OF INSPECTOR GENERAL
1735 N. Lynn Street, Arlington, VA 22209-2020
1-888-USPS-OIG (1-888-877-7644) Fax: 703-248-2291 www.uspsoig.gov




60 | Semiannual Report to Congress
